<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2017</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2017

                              ----------                              


                        WEDNESDAY, MARCH 2, 2016

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:31 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Thad Cochran (chairman) presiding.
    Present: Senators Cochran, Collins, Graham, Blunt, Daines, 
Durbin, Reed, and Schatz.

                         DEPARTMENT OF DEFENSE

                         Department of the Navy

                        Office of the Secretary

STATEMENT OF HON. RAY MABUS, SECRETARY


               opening statement of senator thad cochran


    Senator Cochran. The Committee of the Appropriations 
Subcommittee for Defense Appropriations meets this morning to 
review the fiscal year 2017 Navy and Marine Corps budget 
request.
    We're pleased to welcome to our distinguished panel of 
witnesses to help us review and understand the budget request 
for the United States Navy and Marine Corps.
    We're pleased, specifically, to welcome to the Committee, 
the Honorable Ray Mabus, the Secretary of the Navy, Admiral 
John M. Richardson, Chief of Naval Operations and General 
Robert B. Neller, Commandant of the Marine Corps.
    This is Admiral Richardson's and General Neller's first 
appearance before the subcommittee since becoming Chief of 
Naval Operations and Commandant of the Marine Corps.
    We're pleased to welcome you both.
    We also welcome our fellow Mississippian, Secretary of the 
Navy, Ray Mabus, back to the subcommittee. We appreciate your 
joining us today and providing your testimony, Mr. Secretary.
    For fiscal year 2017 the President's budget requests $155 
billion in base funding to support the Navy and Marine Corps. 
The request is $5 billion less than the current funding level.
    The request also includes $9.5 billion to support ongoing, 
Overseas Contingency Operations. These funds will support 
deployment of Sailors and Marines throughout the world and 
sustain ongoing operational commitments.
    We appreciate your efforts to help maintain a robust 
shipbuilding budget. Specifically, we welcome the inclusion of 
full funding for the Ohio-Class Replacement Program within the 
Navy's regular budget request for fiscal year 2017 through 
fiscal year 2021.
    We appreciate your service to our Nation. We look forward 
to working with you as we prepare and report the fiscal year 
2017 Defense Appropriations bill that will enable the Navy and 
Marine Corps to defend our national security interests around 
the world.
    Thank you very much for your testimony and your cooperation 
with our Committee.
    Your full statements will be included in the record.
    We would now be prepared to yield to the distinguished Vice 
Chairman of the Committee, Senator Durbin, for his opening 
remarks.


                 statement of senator richard j. durbin


    Senator Durbin. Thanks, Mr. Chairman and I'll make my 
remarks brief and put the statement in its entirety in the 
record.
    I'm pleased to join you in welcoming Secretary Mabus, 
Admiral Richardson and General Neller to our hearing to review 
the Navy budget request for fiscal year 2017.
    At the outset let me say, Mr. Secretary and Admiral, we are 
proud that our country's Sailors get their start in Illinois at 
Naval Station Great Lakes. It is a magnificent facility and 
some extraordinary people work there to serve our Nation and 
prepare the next generation of Sailors. We want to continue to 
work with you to make sure the quality of life for all that are 
part of that operation is at the very highest level. And we 
will continue to do that.
    General Neller, when it comes time for questions you and I 
will spend a few moments recalling one of our first 
conversations about the terrible tragedy that occurred in 
Hawaii in January of this year with the crash of two CH-53, 
heavy lift helicopters. I have a number of questions I want to 
ask that may as well be answered by the Secretary concerning 
that incident and Naval Aviation and Marine Corps Aviation as 
well.
    But at this point I'll turn it back over to the Chairman. 
We can proceed with the hearing.
    [The statement follows:]
            Prepared Statement of Senator Richard J. Durbin
    Mr. Chairman, I am pleased to join you in welcoming Secretary 
Mabus, Admiral Richardson, and General Neller to our hearing to review 
the Navy's budget request for fiscal year 2017.
    I would note at the outset that the Senate is still considering the 
nomination of Dr. Janine Davidson to be Under Secretary of the Navy. 
She is a very capable nominee.
    She was nominated in September, and was voted out of committee in 
December. I know you would appreciate having a full team onboard to 
deal with today's challenges, and I hope the Senate will act swiftly to 
confirm her.
    Every year, when a new budget is submitted, it seems the recurring 
refrain that we hear from each of the Services is that this is a tough 
budget year. I expect this year to be no different.
    Americans ask a lot of our Navy and Marine Corps, including long 
deployments at sea and in war zones for the women and men who have 
signed up to serve their country.
    I am proud that our country's Sailors get their start in Illinois 
at Naval Station Great Lakes.
    These Sailors and their Marine partners are expected to be a source 
of geopolitical stability across the globe. They are called upon to 
reassure allies and deter enemies.
    We look to them to calm territorial disputes and defend against 
threats to maritime commerce.
    They provide humanitarian assistance in the wake of disasters. And 
they are a critical counter to terrorist and criminal networks.
    This is a constant and complex set of demands. We should not and 
cannot underestimate the toll it creates on people, aircraft, ships, 
and infrastructure.
    Preparing for today is even more difficult when we are also called 
upon to prepare for tomorrow through investments in future capabilities 
and technologies. Congress has not made this easy, barely avoided 
sequestration through a string of short-term budget deals.
    One area I am concerned about, General Neller, is the conversations 
we have had about the health of the Marine Corps' aircraft. Many 
helicopters were left overseas too long and took quite a beating 
operating in sandy conditions. They need to be repaired and they need 
to be replaced.
    We were all heartbroken to learn of January 2016 crash of two CH-53 
Heavy Lift helicopters off the coast of Hawaii. I am concerned about 
what incidents like these may imply about the broader force.
    I also talked with your predecessor, General Dunford, about 
concerns with maintaining older F-18 aircraft. We have to remain 
vigilant in ensuring the safety of our force, and aviators should be 
priority number one.
    On the more positive side, the Navy has provided the necessary 
funding within its 5 year budget plans to start construction of the 
Ohio-class replacement submarines in 2021.
    These submarines are an indispensable part of our Nation's nuclear 
deterrence. But there are valid concerns about how much the total 
program will cost--perhaps $80 billion in procurement over the next 
three decades--as well as the transparency in budgeting for these costs 
in the future.
    As the Ohio-class replacement program progresses, we will be 
interested in hearing about the cost saving initiatives you plan to 
implement on this program, how you plan to get the best performance out 
of our industrial partners, and what we can do to set this program up 
for success.
    Secretary Mabus, Admiral Richardson, and General Neller, the 
affordability of new submarines and the safety of old aircraft are only 
two of the myriad of issues you have to address on a daily basis as you 
lead the most powerful fighting forces on the seas today.
    I look forward to hearing about solutions for the today's issues, 
how you will calm the seas for tomorrow's Navy and Marine Corps.

    Senator Cochran. Thank you.
    Thank you.
    Mr. Secretary, you may proceed.

                  SUMMARY STATEMENT OF HON. RAY MABUS

    Mr. Mabus. Mr. Chairman, Ranking Member Senator Durbin and 
members of the Committee, thank you so much for the opportunity 
to discuss the Department of the Navy.
    As the Chairman pointed out this is the first testimony for 
our Chief of Naval Operations, John Richardson and for the 
Commandant of the Marine Corps, Robert Neller.
    In the time since they took these positions I've had the 
privilege of their frank, their professional, their invaluable 
counsel. They're officers of the highest caliber who expertly 
lead our Navy and Marine Corps during ever tightening fiscal 
constraints and an increasingly dynamic threat environment.
    This is my seventh time to appear before you and my last. 
For me, leading the Department of the Navy is the greatest 
honor of my life. I couldn't be more proud of our Sailors, our 
Marines and our civilians.
    I'm also proud of the many steps we've taken and changes 
we've made to ensure that the Navy and Marine Corps in the 
future remain the greatest expeditioner fighting force the 
world has ever known.
    First and foremost, we continue to provide presence that 
unrivaled advantage, all and above, beneath and from the seas, 
gives our leaders options in times of crisis, reassures our 
allies and deters our adversaries. There is no next best thing 
to being there. Maintaining that presence requires grey hulls 
on the horizon.
    While there's been discussion about posture versus 
presence, the simple fact is, for the Navy and Marine Corps, 
our posture is presence.
    In every case from high-end combat or irregular warfare to 
disaster relief, our Naval assets get there faster. We stay on 
station longer. We take everything we need with us. And since 
we operate from our ships which are sovereign American 
territory, we can act without having to ask anyone else's 
permission.
    That's the U.S. Navy and Marine Corps, America's away team, 
doing its job.
    Resourcing that presence depends on four fundamentals: 
people, our Sailors and Marines; platforms, our ships and 
aircraft and systems; power, how we use energy to make us 
better war fighters; and partnerships, our relationships with 
our international allies, industry and the American people.
    When I took this post 7 years ago we had an incredibly 
committed and capable force but each of these four Ps was under 
pressure.
    Our people were under stress from high operational tempo 
and extended deployments. Our fleet was shrinking and too many 
of our platforms were costing too much. Our use of power was a 
vulnerability. We were losing too many Marines guarding fuel 
convoys in Afghanistan and volatile oil prices were stressing 
many areas, particularly training. And our partners were 
seeking reassurance of our sustained engagement.
    Now our people, platforms, power and partnerships are 
stronger than they've been in many years. We've instituted the 
most sweeping changes in personnel policy for our people in 
many years.
    Promotions are based more on merit and not tenure. 
Commanding officers are empowered to meritoriously promote more 
Sailors and Marines. We've made career paths more flexible. One 
example, thanks to you, is the Career Intermission Program 
which has been dramatically expanded.
    Senator Durbin, I'm going to depart here for a second and 
talk about Great Lakes because the Master Chief Petty Officer 
of the Navy is seated right behind me. And thanks to an idea he 
had every recruit that goes through there now gets a tablet 
that they keep for their career so that they will have access 
to all their military records and so they can be updated 
continuously on any education or information that they need.
    And that's one of the examples of how our Sailors get a 
great start in Illinois.
    We've also increased the professional development and 
educational opportunities to bring America's best ideas to the 
fleet by adding 30 graduate school slots through our Fleet 
Scholars Education Program and sending high performing Sailors 
on SECNAV Industry Tours to great American companies where they 
learn private sector best practices.
    We're absolutely committed, from leadership to the deck 
plates, on combating the crime of sexual assault and the 
tragedy of suicide. We've revamped physical fitness 
assessments, making them more realistically aligned to the jobs 
we do and we promoted healthier lifestyles through better 
nutrition and a culture of fitness.
    All billets in both services are now open to women. 
Standards will absolutely not be lowered but anyone who can 
meet the standards will be able to do the job. This will make 
us more combat effective as a force.
    We're trying to mitigate stress on Sailors and Marines and 
their families by making deployments more predictable, 
extending hours for child care and establishing co-location 
policies.
    For platforms, we reversed the decline in ship count. And 
thanks to Congress and in particular to this Committee, our 
Navy will reach 300 ships by 2019 and our assessed and 
validated of 308 by 2021.
    In the 7 years before I took office, the Navy contracted 
for 41 ships. In my 7 years we've contracted for 84 and we've 
done so while increasing aircraft purchases by 35 percent, all 
with a smaller top line.
    Practices like for oil--fixed price contracts, multiyear 
buys and stable requirements, have driven down the cost on 
virtually every class of ship. And we're also in the process of 
recapitalizing nearly every Naval aviation program.
    We've expanded unmanned systems on, under and above the sea 
and we've put increased focus on them organizationally.
    We're also implementing advanced energy technologies like 
rail guns and lasers.
    To increase our lethality and operational flexibility I set 
goals of having 50 percent of sea and shore based energy 
derived from alternative sources by 2020, competitive with the 
price of conventional power. We met that goal last year on our 
bases and we will meet it in the fleet by 2020.
    And energy efficiency is being greatly increased on our 
bases and at sea. Both Navy and Marine Corps have achieved a 
large drop in oil consumption.
    Finally, partnerships, I've traveled almost 1.2 million 
miles to 144 different countries and territories visiting 
Sailors and Marines, visiting our allies and our partners. 
Twelve of my trips have been to Afghanistan where I visited 
every Marine Corps forward operating base in Helmand to be with 
our forward deployed men and women. And I've actively engaged 
with our allies and friends around the world to build and 
sustain a network of Navies with whom we train, operate and 
trust, and we've worked in partnership with Congress to fulfill 
the constitutional mandate to provide for and maintain a Navy.
    As a result, our Sailors and Marines are there for us at 
home and abroad, around the globe, around the clock.
    As President George Washington once said, ``It follows then 
as certain as night succeeds day that without a decisive Naval 
force we can do nothing definitive and with it everything 
honorable and glorious.''
    Thank you, Mr. Chairman.
    [The statement follows:]
                  Prepared Statement of Hon. Ray Mabus
    Chairman Cochran and Vice Chairman Durbin, members of the 
Committee, thank you for the opportunity to discuss the readiness and 
posture of the Department of the Navy. With Chief of Naval Operations 
John Richardson and Commandant of the Marine Corps Bob Neller, I have 
the great privilege of representing the Sailors and Marines who serve 
our Nation around the world, the civilians who support them and all of 
their families.
    This is the first testimony before this committee for Admiral 
Richardson and General Neller in these positions. In the time since 
they took these critical posts, I have had the privilege of their 
frank, professional and invaluable counsel. They are officers of the 
highest caliber who expertly lead our Navy and Marine Corps during 
ever-tightening fiscal constraints and an increasingly dynamic threat 
environment.
    This is my eighth time, and my last, to appear before you. For me, 
leading the Department of the Navy is the greatest honor of my life. I 
could not be more proud of our Sailors, Marines, and civilians. I'm 
also proud of the many steps we've taken and changes we've made to 
ensure that the Navy and Marine Corps remain as they have been for over 
240 years as the greatest expeditionary fighting force the world has 
ever known
    This statement, together with those provided by Admiral Richardson 
and General Neller, presents to you and to the American people an 
overview of the Department of the Navy and highlights our priorities as 
we move forward with the fiscal year 2017 budget process. As the 
Secretary of the Navy, I am responsible for recruiting, training, and 
equipping the Sailors, Marines, and civilians who spend every day 
working to defend the American people and our national interests.
    Every year, as we review our current posture, we must ask 
ourselves, as a Department, as a military, and as a Nation, how to 
balance our national security demands. We face an increasing array of 
threats, conflicts and challenges around the globe, even as our fiscal 
and budgetary situation continues to strain resources. Consistently, 
when a crisis occurs, the leaders of this country want immediate 
options, so they ask for the Navy and Marine Corps, for our carrier 
strike groups and our amphibious ready groups, for our Sailors and 
Marines, for our presence. With 90 percent of global trade traveling by 
sea, 95 percent of all voice and data being transferred under the ocean 
and more than 80 percent of the world's population living within 60 
miles of the sea, there is no question that now, more than ever, we are 
living in a maritime century.
                         the value of presence
    What our Navy and Marine Corps uniquely provide is presence--around 
the globe, around the clock--ensuring stability, deterring adversaries, 
and providing the Nation's leaders with options in times of crisis. We 
are ``America's away team'' because Sailors and Marines, equally in 
times of peace and war, are deployed around the world to be not just in 
the right place at the right time but in the right place all the time. 
In every case, from high-end combat to irregular warfare to disaster 
relief, our naval assets get on station faster, we stay longer, we 
bring whatever we need with us and, since we operate from our ships, 
which are sovereign American territory, we can act without having to 
ask any other nation's permission. While there has been discussion 
about posture versus presence, the simple fact is that for the Navy and 
Marine Corps, our posture is presence.
    For more than seven decades, Navy and Marine Corps presence has 
kept international sea lanes open around the world. For the first time 
in history, one nation--America--is protecting trade and commerce not 
just for ourselves and our allies but for everyone. Today, $9 trillion 
in goods are traded by sea annually, supporting 40 million jobs in the 
U.S. alone and benefiting nearly every consumer on earth. These 
statistics make it clear that the health of the world's economy depends 
in large part on the United States Navy and Marine Corps.
    The security and stability of the international system of trade and 
finance is tied irrevocably to the free movement of goods and data 
across, above and under the sea, and is more than just a military 
concern. It impacts every American in the prices we pay for goods and 
services and the very availability of those goods and services. While 
the Navy's activities often take place far away and out of sight of 
most citizens, the impact of our global naval presence isn't a 
theoretical construct; its effects are palpable throughout American 
life.
    The economic benefit is just one that comes from our Sailors and 
Marines doing their job across the globe. That ubiquitous presence 
reassures our allies and deters our adversaries. And, if conflict 
comes, we will fight and win. Our presence is an unrivaled advantage 
that we provide our Nation. There is no ``next best thing'' to being 
there. Maintaining that presence requires gray hulls on the horizon.
    With each year's budget decisions, we determine what the future 
Navy and Marine Corps will look like. Just as the Fleet and Corps we 
have today are the result of decisions made a decade ago, so will 
tomorrow's Fleet and Corps be a result of the decisions we make today. 
For this reason, we have to balance the needs of our Navy and Marine 
Corps today with those of our Nation tomorrow.
    Our combatant commanders understand the critical expeditionary 
capability the Navy and Marine Corps team brings to the fight. Whether 
we are conducting security cooperation around the world, deploying 
Marines in response to a humanitarian crisis or launching strikes from 
our carriers, it is clear Navy and Marine Corps presence provides great 
value to our decision makers and our Nation. The emergence of a diverse 
set of challenges, including Russia, North Korea, China, Iran and ISIS 
demands continued emphasis on our Naval and expeditionary forces. We 
absolutely cannot afford to forfeit the capabilities of our future 
maritime power and superiority.
                   around the globe, around the clock
    You only need to look around the world to see our Navy and Marine 
Corps are first on-station and demonstrate an instrumental and 
prominent role in our national security strategy.
    For the first 54 days of the air campaign against Islamic State 
militants in Iraq and Syria, the only strikes came from Navy F/A-18 
Hornets off USS George H.W. Bush in the Arabian Gulf because land-based 
fighters could not participate until host nations approved.
    During a 10-month deployment ending in June 2015, USS Carl Vinson 
Strike Group conducted 12,300 sorties, including 2,383 combat missions 
against Islamic State of Iraq and Syria (ISIS).
    The operational tempo of Naval Special Operations Forces (NAVSOF) 
remains high, as they continue operations in the Middle East, Horn of 
Africa, and Central Asia. NAVSOF is manning the Combined Joint Special 
Operations Task Force-Iraq and deploying forces to Afghanistan.
    In March 2015, USS Gary intercepted a suspected narcotics-
trafficking vessel off the coast of Central America and seized 5,200 
kilograms of cocaine.
    In July 2015, USS Porter entered the Black Sea to reassure NATO 
allies of our commitment to regional stability by conducting naval 
exercises with ships from 30 different nations including Spain, 
Portugal, France, Turkey, Greece and Bulgaria.
    Last fall, as a visible demonstration of our commitment to 
maintaining freedom of navigation for everyone, USS Lassen patrolled 
the Spratly Islands and nearby artificial reefs in the South China Sea. 
USS Curtis Wilbur conducted similar freedom of navigation operations by 
patrolling near the disputed Triton Island earlier this year.
    When tensions rose in Yemen last summer, Marines embarked with 
Sailors onboard Navy craft to shore up security and surveillance in 
surrounding waters in preparation for a potential crisis.
    The 31st Marine Expeditionary Unit (MEU) deployed to Saipan to 
provide Defense Support to Civil Authorities after Typhoon SOUDELOR 
killed 30 people and displaced 150,000 others in the Commonwealth of 
the Northern Marianas.
    Within 40 hours of President Obama's order, a Special Purpose 
Marine Air-Ground Task Force deployed Marines, Sailors, aircraft and 
equipment to Liberia to respond to the Ebola crisis, providing critical 
airlift and surgical capability as part of U.S. disaster relief 
efforts.
    Maritime presence has been a tenet of our democracy since its 
inception; the founding fathers wrote in the Constitution that Congress 
is authorized to ``raise'' an Army when needed, but mandated it 
``maintain'' a Navy. Maintaining our great Navy and Marine Corps is 
what assures Americans at home, our friends and allies, as well as our 
adversaries that we are ready to respond when called upon to any 
crisis, anywhere.
    Early on in my tenure as Secretary, I outlined four principles that 
enable our Navy and Marine Corps' to sustain their global presence. 
They are People, Platforms, Power and Partnerships. Those have been, 
and continue to be, the key factors in assuring the capability, 
capacity and success of our naval services, which is why they have 
been, and will remain, my top priorities.
People--Sustaining the World's Most Formidable Expeditionary Fighting 
        Force
    The Sailors, Marines, and civilians serving today are the best 
force we've ever had. But for more than a decade we asked a lot of 
everyone, because unlike other services, we deploy equally in peacetime 
and wartime. There are no permanent homecomings for Sailors and 
Marines. Despite all we've asked, they have performed magnificently. 
We've taken steps to maintain the health and resilience of our force 
across every facet of the Department. We have addressed issues like 
operational readiness levels, personal well-being for our people and 
their families, creating more options for career flexibility, opening 
new slots for graduate education, improving our advancement process, 
and promoting equality of opportunity. We have made the Navy and Marine 
Corps stronger, focused not only on retaining the incredible expertise 
and professionalism that resides within these two services, but also 
that draws from the broadest talent pool America has to offer.
    Our Sailors and Marines make Navy and Marine Corps presence 
possible by operating the platforms, harnessing the power, and building 
the partnerships necessary to fulfill our national security strategy. 
Seven years ago when I took office, we had a committed and capable 
force, but our people, and our platforms, were under stress from high 
operational tempo and extended deployments.
    To return stability to our Sailors, Marines, their families, and to 
our maintenance cycles, one of our first priorities was to develop and 
institute the Optimized Fleet Response Plan (OFRP). This is a program 
that the Navy is using to schedule and plan our deployments and the 
maintenance of our platforms. Entering its third year since 
implementation, OFRP is beginning to fully demonstrate its advantages 
to the Fleet. USS Eisenhower Carrier Strike Group and USS Makin Island 
Expeditionary Strike Group will be first to deploy later this year 
entirely under the OFRP. Our men and women know there is no way to 
completely eliminate the unexpected, because events around the world 
can and do take on a life of their own. However, increasing the 
predictability of deployments will help improve resilience in our 
Sailors and Marines and their families and also has the added benefit 
of helping us properly support our maintenance requirements and 
readiness posture.
    Under the OFRP, we continue to meet all operational commitments, 
and Sailors, Marines, and their families are giving us positive 
feedback on this and other initiatives like increases to Hardship Duty 
Pay--Tempo (HDP-T), a pro-rated additional pay that kicks in when a 
deployment extends beyond more than 220 consecutive days, and Career 
Sea Pay, paid to those who have spent a total of 3 years at sea and 
Career Sea Pay-Premium for those E-6 and above who have spent a total 
of 8 years in sea-going assignments. These incentives reward those who 
take the hard and challenging billets at sea, which form the backbone 
of our operations.
    Taking care of our people is about more than just operational 
stability. Through our 21st Century Sailor and Marine Initiative, 
implemented in 2012, we have provided a holistic approach to assuring 
we have the healthiest, fittest, and most resilient force in the world. 
We have focused on helping our Sailors and Marines maximize their 
personal and professional readiness by assisting them and their 
families with the mental, physical and emotional challenges of military 
service. Eliminating the stovepipes that existed between many of the 
programs designed to support our people allows us to better address 
issues like suicide and sexual assault in a comprehensive way that 
protects our Sailors and Marines and makes them stronger.
    In suicide prevention, we are continuing to accelerate our efforts 
in 2016 by becoming more assertive on early recognition, education and 
open dialogue to promote climates supportive of psychological health. 
We are expanding our Ask, Care, Treat (ACT) initiative that focuses on 
training, counseling, and intervention. To date, over 40,000 Sailors 
have received training via Navy Operational Stress Control (OSC) 
courses. And our partnerships with the Navy and Marine Corps Public 
Health Center, the Defense Suicide Prevention Office, and the Bureau of 
Navy Medicine and Surgery have maximized our public health approach to 
suicide prevention. Furthermore, we are adding to the nearly 800 
Suicide Prevention Coordinators (SPC) trained in 2015, enhancing local 
suicide prevention efforts at the deckplate by having a qualified 
program advocate at nearly every command.
    Sexual assault is a crime with devastating impacts to the Navy and 
Marine Corps. Every Sailor and Marine deserves a working environment 
respectful of all, completely intolerant of sexual assault, and 
supported by programs of prevention, advocacy, and accountability. So 
we've implemented many actions to attack this insidious threat. While 
there is still work to be done, we have instituted an increasingly 
effective Sexual Assault Prevention and Response program and Victim's 
Legal Counsel, which together encourage increased reporting and provide 
critical support to those who come forward, and I am the only Service 
Secretary who has my Sexual Assault Prevention Response Officer report 
directly to me. We are also taking steps to prevent and respond to 
perceptions of retaliation or ostracism on the part of the courageous 
people who report these crimes--whether by the chain of command or 
peers.
    Our Sexual Assault Prevention and Response programs are many and 
varied. Through our InterACT Bystander intervention training we've 
educated more than 52,000 Sailors and Marines at 220 training events on 
how to stop a potentially dangerous scenario from leading to an 
assault. Our Navy Chaplain Corps has teamed with clinicians to 
establish CREDO, a 48-hour retreat event with workshops focused on 
teamwork, community building, personal resiliency and reconciliation. 
In-person education is augmented by numerous interactive training tools 
available to all Sailors and Marines ashore and afloat. But no matter 
how much we've done and continue to do, we will not consider our 
mission a success until this crime is eliminated.
    Protecting our Department from instability and destructive and 
illegal behavior is important, but equally important is promoting 
healthy lifestyles that result in a more capable and ready fighting 
force. Our high operational tempo demands a year-round culture of 
fitness. So we have completely revamped the Physical Fitness Assessment 
to focus on producing warfighters, capable of accomplishing any mission 
any time, a measure that not only improves readiness but reduces 
overall medical costs. To set Sailors and Marines up for success, we 
opened a 24-hour a day, 7-day a week gym on every base worldwide and we 
began issuing the Navy Fitness Suit, a uniform item the Marines already 
have. Sailors earn Fitness Suit patches for outstanding performance, 
and those who maintain that level of performance over three cycles 
receive the ``Outstanding Fitness Award.''
    To complement physical training with well-balanced diets, we've 
increased efforts to provide nutritious food options to Sailors and 
Marines at sea and ashore. In 2012, the Marines introduced the ``Fueled 
to Fight'' nutrition program, designed to promote a healthy lifestyle 
by providing more nutritious food choices. At base dining facilities, a 
labeling system identifies healthier options and enhances the Marine's 
ability to make a healthy choice. The Navy also created their version, 
called, ``Fuel to Fight,'' launched by the SEALS at Naval Amphibious 
Base Little Creek, which increases the availability of lean-proteins, 
vegetables, and complex carbohydrates in our galleys. We are further 
developing the concept at one sea-based and one shore-based unit this 
year and will implement it Fleet-wide in 2017.
    Part of overall health is emotional health. In order for Sailors 
and Marines to remain focused on the mission, they should not be 
distracted by concerns about their home life. The Department of the 
Navy takes very seriously its commitment to support our Navy and Marine 
Corps families, and we have taken actions to make service more family 
friendly. We established 24/7 Child Care Development Centers at three 
Fleet concentration areas and increased access to childcare by a total 
of four hours, two hours on either side of the previously existing 
timeframe, at all locations.
    And, in July of last year, I tripled paid maternity leave from 6 to 
18 weeks, a period subsequently reduced to 12 weeks by the Secretary of 
Defense. Meaningful maternity leave when it matters most is one of the 
best ways that we can support the women who serve our county. This 
flexibility is an investment in our people and our Services, and a 
safeguard against losing skilled service members. In our line 
communities, for example, we were losing about twice as many female 
service members as male, most leaving between 7-12 years of service. We 
believe extending maternity leave will save money and increase 
readiness in the Department of the Navy by keeping people in.
    Under a Congressional authorization, we piloted the Career 
Intermission Program (CIP) beginning in 2009. CIP allows a Sailor or 
Marine to take up to 3 years off, with a 2-year payback for each year 
taken. When they return they compete against people who have been on 
active duty the same amount of time, as opposed to those from their 
previously assigned year-group. So career flexibility does not come at 
the cost of advancement potential. Our early participants have 
successfully rejoined the Fleet and, again due to Congressional action, 
we are expanding this program to help retain talented Sailors and 
Marines.
    While we have taken steps to provide additional services and career 
flexibility so Sailors and Marines can address their needs personal 
needs, we have also aggressively enhanced professional development 
opportunities to strengthen our all-volunteer force. In a world 
increasingly dependent on inter-service, inter-agency, and 
international cooperation, that development takes place over the entire 
span of one's career. To broaden background diversity in our officer 
corps, we re-opened NROTC units at Harvard, Yale, Columbia and 
Princeton after a 40-year hiatus.
    We also established the Fleet Scholars Education Program, adding 30 
new graduate school positions allocated by warfighting commanders to 
eligible officers. Our first participants are now studying at Harvard, 
Dartmouth, and Yale.
    Outside the classroom, we recognize the value that private sector 
ingenuity adds to American innovation, so we have also sent officers to 
work at places like FedEx and Amazon as part of SECNAV Industry Tours. 
Those who participate in these programs are our very best, and, in 
return for their experience, we expect them to bring their knowledge 
back to the Fleet and to continue to serve under the requirement that 
for every month spent away, a Sailor or Marine owes 3 months back.
    We want people to take advantage of these and other opportunities, 
and we want them to commit to a career beyond any prescribed service 
obligation. That means creating an advancement system based primarily 
on merit, not tenure. In the Navy, we removed arbitrary ``zone stamps'' 
from officer promotion boards this year which can unnecessarily create 
bias. Additionally, for enlisted, we increased the number of 
advancement opportunities available to Commanding Officers to spot 
promote their best and brightest Sailors via the Meritorious 
Advancement Program. Next year, we expect those numbers to grow even 
further.
    In the Marine Corps we are revamping our manpower models to develop 
the force and address gaps in our Non-commissioned Officer ranks. Sixty 
percent of Marines are on their first tour and 40 percent are E-3 and 
below. So we've implemented the Squad Leader Development Program to 
mature and further professionalize the force. This Program screens 
small unit infantry Marines, selects candidates based on performance 
and provides them with opportunities for education, qualification and 
assignment.
    After returning predictability to the Navy and Marine Corps and 
creating an environment that supports families and promotes 
professional development, I took actions to make a career in the 
Department attractive and viable to the broadest spectrum of American 
talent. We now actively cultivate a force representative of the nation 
it defends. Doing so maximizes our combat effectiveness, because a 
diverse force is a stronger force.
    This year, twenty-seven percent of the freshman class at the Naval 
Academy Class is comprised of women, more than a one-third increase 
from the summer of 2009 when I first took office. And for the first 
time in American history, all billets in the Navy and Marine Corps will 
be open to every member of this year's graduating class, and to all 
others, officers and enlisted, throughout the Fleet.
    I started integrating women into previously closed jobs shortly 
after taking office by opening up submarines and the coastal riverines 
to women. Later, in 2013, Secretary Panetta and Chairman Dempsey 
decided that the default position would be to open all military 
positions to women or seek an exemption to the policy. When weighing 
this decision, I took a methodical and comprehensive approach. 
Ultimately, I decided that denying any individual who meets an 
established standard the opportunity to serve because of their gender 
not only goes against everything we value as Americans, but it will 
most certainly diminish our combat effectiveness. We have already 
proven that is the case with respect to things like the color of 
someone's skin or who they love.
    While we celebrate diversity in all of our people, we are uniform 
in purpose as part of an organization that prioritizes service over 
self. Rather than highlighting differences in our ranks, we have 
incorporated everyone as full-participants by moving, with some few 
exceptions, to common uniforms in both the Navy and the Marine Corps so 
that our forces have a common appearance. Now and in the future, we 
will present ourselves not as male and female Sailors and Marines, but 
as United States Sailors and Marines.
    In the Reserves, during fiscal year 2015 we mobilized 2,700 
individual Reserve Sailors and Marines to support operations worldwide. 
This allows us to focus our active component on filling critical sea 
billets to help ensure Fleet wholeness and readiness. This year, we 
were reminded of the sacrifices our reserves make with the attack at 
Navy Operational Support Center (NOSC) Chattanooga that took the lives 
of five of our Sailors and Marines. At home, we have taken steps to 
provide force protection against these kinds of terrorist acts at off-
installation NOSCs, and as of December 2015, 70 of 71 off-installation 
NOSCs now have armed Selected Reservists. More than 150 NOSC staff 
personnel have graduated the Navy's Security Reaction Force Basic (SRF-
B) course in support of the Navy Reserve Force Protection mission. For 
Marine Corps reserve centers, 146 of 161 locations have armed duty 
personnel, and the remaining 15 sites are in the process of training 
personnel to be armed. Abroad, our Reserve Sailors and Marines are 
deployed globally, and we will continue to maintain a Reserve that is 
ready, relevant, and responsive to the nation's needs.
    The Department's civilian workforce supports our uniformed force 
and is critical to the success of our missions. Our civilian employees 
have endured multi-year pay freezes, a hiring freeze, furloughs and 
continued limits on performance awards that impacted morale. Results of 
a Federal Employee Viewpoint Survey indicated that, while our civilians 
appreciated the role they play in our mission, they felt recognition 
and training were lacking. Where possible, through such efforts as 
Operation Hiring Solutions, the Department has mitigated the impacts to 
Fleet readiness and operations and to increase civilian employee job 
satisfaction. Our efforts have produced tangible results, demonstrated 
by increased civilian retention rates over the last two consecutive 
years.
    This patriotic workforce is the foundation of how the Department of 
the Navy operates. In order to ensure we have the most capable people, 
in the right positions, we run a number of leadership development 
programs. Annually we select participants for senior leader, executive 
leader, and developing leader programs to provide education and 
training that will help our people tackle the issues we face now and in 
the future.
         platforms--growing our fleet despite shrinking budgets
    To provide the presence the American people and our Nation's 
leaders expect and have come to rely on, our Sailors and Marines need 
the right number and composition of ships, aircraft, weapons, vehicles, 
and equipment to execute the missions mandated by our National Security 
Strategy. That means we must have a properly sized Fleet. Quantity has 
a quality all its own.
    When I first took office, I committed to growing the Fleet to meet 
our validated requirement and strengthen the acquisition process by 
employing stricter management and increased competition. In the 7 
fiscal years from 9/11/2001 to 2009, our Fleet declined from 316 to 278 
ships, and during that period, the Navy contracted for only 41 ships, 
not enough to keep our Fleet from declining nor keep our shipyards open 
and healthy. In the 7 fiscal years following 2009, we will have 
contracted for 84 ships. And we will have done so while increasing 
aircraft purchases by 35 percent, despite decreasing defense budgets.
                              shipbuilding
    Navy shipbuilding is an essential part of our country's larger 
shipbuilding and repair industry, which provides more than 400,000 jobs 
and contributes more than $37 billion to America's gross domestic 
product. Shipbuilding enhances and strengthens economic security as 
well as national security. The work we have done, and must continue to 
do, will reinforce the importance of maintaining a partnership with the 
industrial base, as well as keep our shipbuilding industry strong and 
ready to support the national security needs of our Navy and our 
country.
    Across our shipbuilding portfolio, we have employed direct, 
impactful actions including increased competition within and across 
product lines, using block buys and multi-year procurements when 
products are mature; ensuring designs are stable before entering into 
production; pursuing cross-program common-equipment buys; and achieving 
affordability through hard-but-fair bargaining. This would not have 
been possible without Congressional approval on items like multi-year 
procurements.
    Stability and predictability are critical to the health and 
sustainment of the industrial base that builds our Fleet. Changes in 
ship procurement plans are significant because of the long lead time, 
specialized skills, and extent of integration needed to build military 
ships. The skills required to build ships are perishable, and, in the 
past, we have lost talent in this critical industry when plans have 
changed. Each ship is a significant fraction of not only the Navy's 
shipbuilding budget but also industry's workload and regional 
employment. Consequently, the timing of ship procurements is a critical 
matter to the health of American shipbuilding industries, and has a 
two-to-three times economic multiplier at the local, regional and 
national levels.
    The Navy will continue to consider and, when appropriate, use 
innovative acquisition strategies that assure ship construction 
workload and sustain the vendor base while imposing cost competition. 
And we will continue to invest in design for affordability, modularity 
and open systems architectures while incentivizing optimal build plans 
and shipyard facility improvements and supporting shipbuilding 
capability preservation agreements. These initiatives support 
affordability, minimize life-cycle costs, improve and ensure quality 
products, facilitate effective and efficient processes, and promote 
competition--which all support Department priorities.
    Our efforts to maintain and affordably procure our Fleet's ships 
and submarines have continued through this past year. The Department 
has established a steady state Ford Class procurement plan designed to 
deliver each new ship in close alignment with the Nimitz Class ship it 
replaces. CVN 78 cost performance has remained stable since 2011 and 
this lead ship will deliver under the Congressional cost cap. The 
fiscal year 2016 National Defense Authorization Act (NDAA) reduced this 
cost cap for follow-on ships in the CVN 78 class by $100 million. 
Stability in requirements, design, schedule, and budget, is essential 
to controlling and improving CVN 79 cost, and therefore is of highest 
priority for the program. In transitioning from first-of-class to 
follow-on ships, the Navy has imposed strict configuration and cost 
controls to ensure CVN 79 is delivered below the cost cap. CVN 80 
planning and construction will continue to use class lessons learned to 
achieve cost and risk reduction. The CVN 80 strategy seeks to improve 
on CVN 79 efforts to schedule as much work as possible in the earliest 
phases of construction, where work is both predictable and more cost 
efficient.
    In our attack submarine program, we awarded the largest contract in 
Navy history, $18 billion, to build 10 Virginia-class submarines. 
Because Congress authorized a multi-year contract for these 10 boats, 
giving our shipyards stability and allowing them to order materials in 
economic quantities, we were able to save the taxpayer more than $2 
billion and effectively procured 10 boats for the price of nine.
    We are continuing procurement of two Virginia Class submarines per 
year under the Block IV 10-ship contract which runs through fiscal year 
2018. We will also continue to develop the Virginia Payload Module 
(VPM), which is planned for introduction in fiscal year 2019, as part 
of the next Virginia Class multiyear procurement (Block V).
    The Arleigh Burke Class (DDG 51) program is one of the Navy's most 
successful shipbuilding programs--62 of these ships are currently 
operating in the Fleet. We are in the fourth year of a multi-year 
procurement, and thanks to the work at shipyards in Mississippi and 
Maine and our acquisition team, the DDG 51 competitive multiyear 
contract is saving more than $2 billion. The two Arleigh Burke Class 
destroyers requested in fiscal year 2017, which will complete the 
current multiyear contracts, will provide significant upgrades to 
integrated air and missile defense and additional ballistic missile 
defense capability (Flight III) by incorporation of the Air and Missile 
Defense Radar.
    With our Littoral Combat Ships (LCS), the average ship construction 
cost, under the current block buy contracts, has decreased by nearly 50 
percent in comparison to LCS hulls contracted prior to 2009. We now 
have six ships of this class delivered, 18 currently on contract, and 
two additional ships to award this fiscal year. We are currently 
upgrading the design, which will significantly increase LCS lethality 
and survivability, to be introduced no later than fiscal year 2019, and 
potentially as early as fiscal year 2018. Because of these ships' 
enhanced counter-surface and counter-submarine capabilities, 
contributing to their role in Battle Group operations, we are re-
designating these future ships as Frigates.
    Our budget request also includes incremental funding for the next 
big deck amphibious assault ship, LHA 8. We are in the midst of an 
innovative solicitation which solicits bids for LHA 8, the replacement 
Fleet oiler T-AO(X), and early design efforts for the replacement for 
the LSD 41/49 class LX(R). These bids which uniquely support both 
stability and competition within the amphibious and auxiliary sectors 
of the industrial base, will be awarded this fiscal year.
    Ohio Replacement (OR) remains our top priority program. Prior 
modernization programs, such as our first strategic deterrence 
procurement, ``41 for Freedom,'' were accompanied by topline increases. 
The Navy greatly appreciates Congressional support in overcoming the 
challenges posed by funding the OR Program.
    The fiscal realities facing the Navy make it imperative that we 
modernize and extend the service lives of our in-service ships to meet 
the Navy's Force Structure Assessment requirements. An important 
element of mitigation is the extension and modernization of our Arleigh 
Burke class destroyers and Ticonderoga class cruisers (CGs).
    The fiscal year 2017 President's Budget includes funding for the 
modernization of two destroyers to sustain combat effectiveness, ensure 
mission relevancy and to achieve the full expected service lives of the 
AEGIS Fleet. The destroyer modernization program includes Hull, 
Mechanical, and Electrical (HM&E) upgrades as well as combat systems 
improvements with upgraded AEGIS weapons systems. Advanced Capability 
Build (ACB) 12 to include open architecture computing environment, BMD 
capability, installation of the Evolved Sea Sparrow Missile (ESSM), 
integration of the SM-6 missile, and improved air dominance with 
processing upgrades and Naval Integrated Fire Control-Counter Air 
capability. This renovation reduces total ownership costs and expands 
mission capability for current and future combat capabilities.
    Cruiser modernization ensures long-term capability and capacity for 
purpose-built Air Defense Commander (ADC) platforms. Of our 22 total 
cruisers, 11 recently modernized CGs will perform the ADC function for 
deploying Carrier Strike Groups while the Navy modernizes our other 11 
ships. As these are completed, they will replace the first 11 on a one-
for-one basis as each older ship reaches the end of its service life 
(35 years) starting in fiscal year 2020. Our modernization schedule 
commenced in fiscal year 2015 on a 2-4-6 schedule in accordance with 
Congressional direction: two cruisers per year for a long-term phase 
modernization, for a period no longer than 4 years, and no greater than 
six ships in modernization at any given time.
    The Budget supports CG Modernization and proposes a plan that will 
save $3 billion over the FYDP by inducting the remaining cruisers into 
modernization following their current planned operational deployments. 
This differs from the current plan in that we would put a total of four 
CGs in phased modernization in fiscal year 2017. We understand that 
this request does not align with previous Congressional direction, but 
feel it is the best way to honor today's operational demands as we 
prepare for future strategic requirements.
                                aviation
    With the support of Congress, we continue to strengthen our Naval 
Aviation force. We are in the process of re-capitalizing every major 
aviation platform in the Navy and Marine Corps inventory. The MV-22B 
has replaced the CH-46E/CH-53D, and we are in the process of replacing 
all other Navy and Marine Corps aircraft. We also continue to focus on 
unmanned aviation. We are investing in the MQ-4C Triton, MQ-8C Fire 
Scout, RQ-21 Blackjack, and RQ-7B Shadow plus initiating efforts to 
provide carrier-based unmanned aviation capability with the RAQ-25 
Stingray.
    Our investments focus on developing and integrating capabilities by 
using a family of systems approach, when viable, to maintain 
superiority against rapidly evolving threats. Using current and future 
platforms, weapons, networks and technologies, we will ensure Naval 
Aviation relevance and dominance in the future. For legacy weapons 
systems, we are addressing aviation readiness by investing in 
operations and support accounts to mitigate training and platform 
readiness issues. Our procurement of new aircraft and synchronization 
of readiness enablers will improve our ability to project power over 
and from the sea.
    The Strike Fighter inventory should be viewed in two separate and 
distinct phases. The near term challenge is managing a Department of 
Navy Tactical Aviation (TACAIR) force that has been reduced in capacity 
through a combination of flying many more flight hours than planned, 
pressurized sustainment and enabler accounts, legacy F/A-18A-D Hornet 
depot throughput falling short of the required output due to 
sequestration and other factors, and the impact of delays to completing 
development of the Joint Strike Fighter program. As a result of 
aggressive efforts instituted in 2014 across the Department to improve 
depot throughput and return more aircraft back to service, fiscal year 
2015 depot throughput improved by 44 percent as compared to fiscal year 
2014, returning to pre-sequestration levels of throughput. TACAIR 
aviation depots are expected to continue to improve productivity 
through 2017, and fully recover the backlog of F/A-18A-D aircraft in 
2019 at which time the focus will shift toward F/A-18E/F service life 
extension. In the far term, the Strike Fighter inventory is 
predominantly affected by the rate at which we can procure new TACAIR 
aircraft. The fiscal year 2017 budget request increases both the F/A-
18E/F and F-35 strike fighter aircraft in order to mitigate near-term 
and far-term risks to our strike fighter inventory in the most 
affordable, effective manner possible.
    Critical to power projection from the sea, the E-2D Advanced 
Hawkeye, our new and upgraded airborne early-warning aircraft, 
completed Fleet integration and deployed with USS Roosevelt (CVN 71) 
Carrier Strike Group. We are continuing Full Rate Production under a 
multi-year contract and Fleet transition is underway. We expect to 
integrate the advanced capabilities with Forward Deployed Naval Forces 
(FDNF) by 2017. We continue to recapitalize the P-3C Orion with P-8As, 
and are on-schedule to complete the purchase within the FYDP to bring a 
total of 109 P-8As to the Fleet. And our P-8s will continue to undergo 
incremental improvements.
    Finally, we expect to complete EA-18G Growler Fleet transition in 
fiscal year 2016. As the DOD's premier tactical Airborne Electronic 
Attack/Electronic Warfare aircraft, the Growler is crucial to power 
projection ashore in a saturated electronic warfare environment. With 
Congress' addition of seven EA-18Gs in fiscal year 2016, we will have 
160 of these aircraft in 15 squadrons to support the Navy requirement. 
With the retirement of the Marine Corps' last EA-6B Prowlers in 2019, 
these highly capable aircraft take over the nation's airborne 
electronic attack mission.
    Our rotary wing and assault support communities are in the midst of 
large-scale recapitalization. In the vertical lift community, multi-
year production contracts for the MV-22 continue. We have taken 
advantage of joint service commonality in the V-22 to fill a crucial 
enabler in the Carrier On-board Delivery mission. In the Marine Corps, 
procurement of the AH-1Z continues to deliver combat proven-
capabilities. Finally, with its first flight last fall, the CH-53K King 
Stallion is poised to bring significant improvements in our heavy lift 
capabilities.
                            unmanned systems
    Currently, our warfare communities--air, sea, undersea and ground--
are all doing superb work in unmanned systems which are critical to our 
ability to be present. They increase the combat effectiveness of our 
deployed force while reducing the risk to our Sailors and Marines, 
allowing us to conduct missions that last longer, go farther, and take 
us beyond the physical limits of pilots and crews. Launching and 
recovering unmanned aircraft from the rolling decks of aircraft 
carriers, launching unmanned rotary-wing patrols from our small surface 
combatants, and deploying unmanned underwater vehicles globally are 
vital elements both now and in the future for maritime presence and 
naval warfare. We have enhanced our focus on unmanned systems and 
prioritized efforts under purposeful leadership at the level of the 
Deputy Assistant Secretary of the Navy for Unmanned Systems and the new 
office of Unmanned Warfare Systems of the staff of the Chief of Naval 
Operations, also known as N99.
    We are moving ahead with a number of unmanned programs in the 
effort to rapidly integrate new capability into the fleet. The MQ-8B 
Fire Scout began regular deployments in 2014. When USS Fort Worth 
deployed to Singapore recently, the ship took a mixed aviation 
detachment of a manned MH-60R helicopter and MQ-8B Unmanned Aerial 
Vehicle's (UAV). This kind of hybrid employment, pairing our manned and 
unmanned systems to take advantage of the strengths of each, will be a 
hallmark of our future approach to unmanned systems. The first 
operational variant of the larger and more capable next generation Fire 
Scout, the MQ-8C, recently completed developmental testing and a 
successful operational assessment. This aircraft is scheduled to be 
deployable by the end of 2017 and will bring double the endurance and 
double the payload of the older versions.
    The MQ-4C Triton is a key component of the Navy Maritime Patrol 
Reconnaissance Force. Its persistent sensor dwell capability, combined 
with networked sensors, will enable it to effectively meet ISR 
requirements in support of the Navy Maritime Strategy. The MQ-4C Triton 
will establish five globally-distributed, persistent maritime ISR 
orbits beginning in fiscal year 2018 as part of the Navy's Maritime ISR 
transition plan. Currently, MQ-4C Triton test vehicles have completed 
53 total flights and will continue sensor flight testing this spring.
    In 2015, the Office of the Secretary of Defense conducted a 
comprehensive Strategic Portfolio Review (SPR) of DOD ISR programs. The 
results of the SPR, and a subsequent ISR portfolio review, as reflected 
in our PB17 budget is the restructure of the Unmanned Carrier-Launched 
Airborne Surveillance and Strike (UCLASS) program. The MQ-25 Stingray 
will deliver the Navy's first carrier-based unmanned aircraft, a high-
endurance platform that will replace today's F/A-18E/F aircraft in its 
role as the aerial tanker for the Navy's Carrier Air Wing (CVW), thus 
preserving the strike fighter's flight hours for its primary missions. 
Stingray will also have the range and payload capacity associated with 
high-endurance unmanned aircraft to provide critically-needed, around 
the clock, sea-based ISR support to the Carrier Strike Group and the 
Joint Forces Commander. The Navy envisions that the open standards to 
be employed in the Stingray design will enable future capabilities to 
be introduced to the aircraft after it has been fully integrated into 
the CVW.
    Autonomous Undersea Vehicles (AUV) are a key component of the 
Navy's effort to expand undersea superiority AUVs are conducting sea 
sensing and mine countermeasure tasks today with human-in-the-loop 
supervision. While nominal force structure requirements for fiscal year 
2025 have not been determined, the Navy is committed to growing both 
the size and composition of the AUV force. In the near-term, AUVs 
present an opportunity to increase undersea superiority and offset the 
efforts of our adversaries.
    The Large Displacement Unmanned Underwater Vehicle (LDUUV) is an 
unmanned undersea vehicle to offload ``dull, dirty, dangerous'' 
missions from manned platforms beginning in 2022. LDUUV will be 
launched from a variety of platforms, including both surface ships and 
submarines. The craft's missions will include ISR, acoustic 
surveillance, ASW, mine counter-measures, and offensive operations.
    The Surface Mine Countermeasure Unmanned Undersea Vehicle (SMCM 
UUV) commonly referred to as Knifefish employs low-frequency broadband 
synthetic aperture sonar. Knifefish is planned for incorporation into 
increment four of the LCS mine countermeasures mission package.
                                weapons
    The fiscal year 2017 budget invests in a balanced portfolio of ship 
self-defense and strike warfare weapons programs. The Navy has made 
significant strides in extending the Fleet's layered defense battle-
space while also improving the capabilities of the individual ship 
defense layers in order to pace the increasing anti-ship missile 
threat.
    Standard Missile-6 (SM-6) provides theater and high value target 
area defense for the Fleet, and with Integrated Fire Control, has more 
than doubled its range in the counter-air mission. And as the Secretary 
of Defense announced a few weeks ago, we are modifying the missile to 
provide vital anti-surface capability. The Evolved Sea Sparrow Missile 
(ESSM) program awarded the Block 2 Engineering Manufacturing and 
Development contract in 2015, which will borrow from the SM-6 active 
guidance section architecture to improve ship self-defense performance 
against stressing threats and environments. Rolling Airframe Missile 
(RAM) Block 2 achieved IOC in May 2015, providing improved terminal 
ship defense through higher maneuverability and improved threat 
detection.
    For strike warfare, the Department's Cruise Missile Strategy has 
been fully implemented with the PB17 budget submission. This strategy 
sustains Tomahawk Blocks III and IV through their service lives; 
integrates modernization and obsolescence upgrades to the Block IV 
Tomahawk during a mid-life recertification program which adds 15-years 
of additional missile service life; fields the Long Range Anti-Ship 
Missile (LRASM) as the Offensive Anti-Surface Warfare (OASuW) Increment 
1 solution to meet near to mid-term threats; and develops follow-on 
Next Generation Strike Capability (NGSC) weapons to address future 
threats and to replace or update legacy weapons. This plan brings next 
generation technologies into the Navy's standoff conventional strike 
capabilities. NGSC will address both the OASuW Increment 2 capabilities 
to counter long-term anti-surface warfare threats, and the Next 
Generation Land Attack Weapon (NGLAW) to initially complement, and then 
replace, current land attack cruise missile weapon systems.
                             ground forces
    The focus of our Marine Corps ground modernization efforts 
continues to be our ground combat and tactical vehicle (GCTV) 
portfolio, along with the Command and Control (C2) systems needed to 
optimize this effectiveness of the entire MAGTF once ashore.
    The key priority within the GCTV portfolio is the replacement of 
the legacy Amphibious Assault Vehicle (AAV) with modern armored 
personnel carriers through a combination of complementary systems. The 
Amphibious Combat Vehicle (ACV) program is the Marine Corps' highest 
ground modernization priority and will use an evolutionary, incremental 
approach to replace the aging AAVs with a vehicle that is capable of 
moving Marines ashore, initially with surface connectors and ultimately 
as a self-deploying vehicle. ACV consists of two increments, ACV 1.1 
and ACV 1.2. Increment 1.1 will field a personnel carrier with 
technologies that are currently mature. Increment 1.2 will improve upon 
the threshold mobility characteristics of ACV 1.1 and deliver C2 and 
recovery and maintenance mission role variants.
    In parallel with these modernization efforts, a science and 
technology portfolio is being developed to explore a range of high 
water speed technology approaches to provide for an affordable, phased 
modernization of legacy capability to enable extended range littoral 
maneuver. These efforts will develop the knowledge necessary to reach 
an informed decision point in the mid-2020s on the feasibility, 
affordability, and options for developing a high water speed capability 
for maneuver from ship-to-shore.
    We are also investing in the replacement of a portion of the high 
mobility, multi-purpose, wheeled vehicle (HMMWV) fleet which are 
typically exposed to enemy fires when in combat. In partnership with 
the Army, the Marine Corps has sequenced the Joint Light Tactical 
Vehicle (JLTV) program to ensure affordability of the entire GCTV 
portfolio while replacing about one third (5,500 vehicles) of the 
legacy HMMWV fleet with modern tactical trucks prior to the fielding of 
ACV 1.1.
    Critical to the success ashore of the MAGTF is our ability to 
coordinate and synchronize our distributed C2 sensors and systems. Our 
modernization priorities in this area are the Ground/Air task Oriented 
radar (G/ATOR) and the Common Aviation Command and Control System 
(CAC2S) Increment I. These systems will provide modern, interoperable 
technologies to support real-time surveillance, detection and targeting 
and the common C2 suite to enable the effective employment of that and 
other sensors and C2 suites across the MAGTF.
                               innovation
    As we continue to use better procurement strategies for ships, 
aircraft, and other weapons systems, we are also using better ideas to 
enhance the utility of current assets and to accelerate future 
capabilities to the Fleet. The Navy and Marine Corps have always been 
at the cutting edge of technology. To tap into the ingenuity inherent 
in our force, I created Task Force Innovation: a group from across the 
department comprised of thinkers, experts, and warfighters with diverse 
backgrounds and from every level. The Task Force is anchored in the 
Department as the Naval Innovation Advisory Council, with a location on 
each coast. These councils rely on feedback from databases such as 
``the Hatch,'' a crowdsourcing platform that cultivates solutions from 
those who know best, our deckplate Sailors and Marines in the field.
    To facilitate ways for new technologies to reach the Fleet 
unhindered by the overly-bureaucratic acquisitions process, we are 
implementing Rapid Prototyping strategies. This initiative provides a 
single, streamlined approach to prototyping emerging technologies and 
engineering innovations to rapidly response to Fleet needs and 
priorities.
    We are also continuing the research and development of promising 
technologies such as 3D printing, directed energy weapons, robotics, 
adaptive force packaging at sea and unmanned vehicles to counter 
projected threats and using the entire force to prove these concepts. 
We are continuing the development and testing of the Electromagnetic 
Railgun and Hyper Velocity Projectile (HVP) as part of a broader Gun/
Projectile Based Defense strategy. We plan to demonstrate this 
capability this fiscal year in preparation for follow-on at sea 
testing. In 2014, we deployed the first operational Laser Weapons 
System (LaWS) onboard PONCE in the Arabian Gulf. Lessons-learned from 
the 30 kilowatt LaWS installation are directly feeding the Navy's 
investment in Solid State Laser weapons. The Navy is developing a 100-
to-150 kilowatt laser prototype for at-sea testing by 2018.
    To secure our superiority in cyberspace, we are building a new 
cyber warfare center of excellence at the Naval Academy, and we have 
more than doubled our cyber workforce since 2009. In addition to 
growing the cyber domain, we are also re-designating appropriate 
positions to count as part of the cyber workforce. The Department is 
diligently working on ensuring cyber workforce billets are properly 
coded in our manpower databases for tracking and community management 
efforts.
    There has been a concerted effort to protect cyber positions from 
drawdowns and maximize direct and expedited civilian hiring authorities 
to improve cyber readiness and response. Additionally, the DON is 
supporting the DOD Cyber Strategy in the stand-up of the Cyber Mission 
Force teams; 40 teams by Navy, 3 teams by Marine Corps and 1,044 cyber 
security positions within Fleet Cyber and Marine Forces Cyber commands. 
These positions require unique cyber security skills and qualifications 
to perform a multitude of cyber security functions that will enhance 
the Department of the Navy cyber security and defense capability.
              power--alternative energy fueling the fight
    Energy is a necessary commodity for modern life, and it plays a 
critical geopolitical role around the world. Access to fuel is often 
used as a weapon, as we have seen with Russian action against Ukraine, 
and threats against the rest of Europe. Although the price of oil has 
recently declined, the overall trend strongly suggests that over time, 
the prices could return to the higher levels.
    Aside from the obvious economic instability that comes with the 
volatile price of oil, being overly reliant on outside energy sources 
poses a severe security risk, and we cannot afford to limit our Sailors 
and Marines with that vulnerability and lack of stability. When I 
became Secretary, our use of power was a vulnerability; we were losing 
too many Marines guarding fuel convoys in Afghanistan and volatile oil 
prices were stressing many areas, particularly training.
    In 2009, the Department of the Navy set out to change the way we 
procure, as well as use, energy, with the goal of having at least half 
of naval energy- both afloat and ashore- come from non-fossil fueled 
sources by 2020. By using alternative energy sources, we improve our 
warfighting capabilities; reduce our reliance on foreign sources of 
fossil fuels; and reduce the ability of potential adversaries the 
opportunity to use energy as a weapon against us and our partners.
    Pioneering new advancements in how we power our platforms and 
systems is nothing new for the Navy and Marine Corps. For two centuries 
we have been a driver of innovation, switching from sail to steam, 
steam to coal, coal to oil, and harnessed the power of nuclear 
propulsion. Operationally, energy matters now more than ever; our 
weapons platforms today use far more energy than their predecessors. 
The new technology we develop and acquire will ensure we maintain a 
strategic advantage for decades to come. Fueling the ships, aircraft, 
and vehicles of our Navy and Marine Corps is a vital operational 
concern and enables the global presence necessary to keep the Nation 
secure.
    After successfully testing the Great Green Fleet at the Rim of the 
Pacific Exercise in 2012, just last month USS John C. Stennis Strike 
Group departed on a routine operational deployment, steaming on an 
blend of conventional and alternative fuels, as well as conducting 
underway replenishments at sea with these fuels. The three stipulations 
we have for our alternative fuels are they must be drop-in, they cannot 
take away from food production, and they must be cost competitive.
    The alternative fuels powering the Great Green Fleet 2016 were 
procured from a company that makes its fuel from waste beef fats. These 
alternative fuels cost the Department of Defense $2.05 per gallon. It 
is critical we continue to use cost-competitive blended alternative 
fuels in our ships and aircraft to ensure operational flexibility. For 
example, of the three crude oil refineries in Singapore one is 50 
percent owned by China, while an alternative fuel plant is owned by a 
Finnish company.
    This past year, we surpassed the goal the President set in his 2012 
State of the Union Address, when he directed the Department of the Navy 
to have a gigawatt (one-half of our total ashore energy needs in the 
U.S.) of renewable energy by 2020. The Renewable Energy Program Office 
(REPO) coordinates and manages the goal of producing or procuring cost-
effective renewable energy for our bases, and the power we are buying 
through our REPO projects will be cheaper than our current rates over 
the life of the contract. Today, we have in procurement more than 1.1 
gigawatts of renewable energy for our shore installations--5 years 
ahead of schedule.
    In August, the Department of the Navy awarded the largest renewable 
contract in Federal Government history with the Western Area Power 
Administration. This solar project will meet a third of the energy 
needs for 14 Navy and Marine Corps installations, bringing them 210 MW 
of renewable power for 25 years, and saving the Navy $90 million.
    In the Marine Corps, the Expeditionary Energy Office (E2O) 
continues to focus on increasing their operational reach and empowering 
Marines in the field. E2O is doing amazing work. The Marine Corps hosts 
two expos- one on each coast- every year where they ask industry 
leaders to bring their latest technology, and, if the Marines see an 
operational use for it, they can buy it. They have invested in items 
such as small, flexible and portable solar panels that can save a 
company of Marines in the field 700 pounds in batteries. The Marines 
are also working on kinetic systems for backpacks and knee braces that 
harvest energy from a Marine's own movement. These technologies are 
making our Marines lighter, faster and more self-sustainable on the 
battlefield.
    Across the Fleet and Marine Corps, we have taken numerous energy 
conservation measures that are aimed at energy efficiency, and have had 
dramatic impact on our energy use.
    For example, two of our newest amphibious ships, USS Makin Island 
and USS America use a hybrid propulsion system that has an electric 
power plant for slower speeds and traditional engines for speeds over 
12 knots. When MAKIN ISLAND returned from her maiden deployment, she 
came back with almost half her fuel budget, despite the fact she stayed 
at sea an additional 44 days.
    We had a Chief suggest we change all the lightbulbs on our ships to 
LEDs. Now every time a ship comes in for overhaul, we are changing out 
the bulbs. This simple change is saving us more than 20 thousand 
gallons of fuel per year per destroyer. They also last far longer, give 
off better light, and reduce our maintenance costs.
    Our Sailors are using a Shipboard Energy Dashboard that provides 
them with real-time situational awareness of the energy demand on the 
various systems that are running, allowing Sailors to see the impact 
the way they operate a ship can have on fuel consumption. Sailors 
across the Fleet are taking it upon themselves to make their own 
platforms as efficient as possible, and the results are tangible.
    The Department of the Navy's efforts in energy efficiency have 
strongly contributed to a decline in the Navy's demand for oil nearly 
15 percent from fiscal 2008 to fiscal 2014, and the Marines slashed 
their oil consumption 60 percent over that same period, according to a 
recent report by the Office of the Undersecretary of Defense for 
Acquisitions, Technology and Logistics. While drawdowns in Iraq and 
Afghanistan have certainly contributed to these numbers, improvements 
in our use of energy have had an impact on our overall consumption.
    Diversifying our energy supply for our ships, our aircraft, and our 
bases helps guarantee our presence and ability to respond to any crisis 
because we can remain on station longer or extend our range, reducing 
the delays and vulnerabilities associated with refueling.
    We are a better Navy and Marine Corps for innovation, and this is 
our legacy. Employment of new energy sources has always been met with 
resistance, but in every case, adoption of new technologies enhanced 
the strategic position of our Nation through improvements in the 
tactical and operational capabilities of our force. Our focus on power 
and energy is helping to ensure the United States Navy and Marine Corps 
remain the most powerful expeditionary fighting force in the world and 
enhance their ability to protect and advance American interests around 
the globe.
    partnerships--building partnerships to advance our shared values
    In this maritime century, cooperation with our international allies 
and partners is critical to defending the global system, as it broadens 
responsibility for security and stability, while diffusing tensions, 
reducing misunderstandings, and limiting conflict. It is through a 
cooperative effort that we will assure our navies can provide the 
necessary presence to maintain freedom of navigation and maritime 
security around the world.
    I have traveled almost 1.2 million miles and visited 144 countries 
and territories and all 50 States to meet with Sailors and Marines and 
to build partnerships both at home and abroad. International meetings 
establish the trust that helps us deter conflict and respond in a 
coordinated and effective manner to manmade or natural crises. We 
strengthen these partnerships in times of calm because, in times of 
crisis, you can surge people, you can surge equipment, but you cannot 
surge trust.
    We continue to focus our efforts on the rebalance of assets to the 
Pacific as an important part of our partnership efforts. Having the 
right platforms in the right places is a vital piece of ensuring our 
friends and allies understand our commitment to this complex and 
geopolitically critical region. We're moving more ships to the central 
and western Pacific to ensure our most advanced platforms and 
capabilities are in the region, including forward basing an additional 
attack submarine in Guam and forward stationing four Littoral Combat 
Ships in Singapore. Also, we're providing two additional multi-mission 
Ballistic Missile Defense destroyers to Forward Deployed Naval Forces 
(FDNF) in Japan and the P-8A maritime patrol aircraft are making their 
first rotational deployments in the region. Additionally, USS Ronald 
Reagan replaced USS George Washington as our carrier homeported in 
Japan.
    We are hubbing Expeditionary Transfer Docks (T-ESD) 1 and 2 in the 
vicinity of Korea/Northeast Asia, and hubbing Expeditionary Fast 
Transports (T-EPF) to Japan and Singapore. In the longer term, by 2018 
we will deploy an additional Amphibious Ready Group to the Pacific 
region and we will deploy a growing number of Expeditionary Fast 
Transports and an additional Expeditionary Sea Base there.
    The U.S. Seventh Fleet along with allies and partner nations 
combined for over 110 exercises throughout 2015 to train, build partner 
capability and relationships, and exchange information. The largest 
exercise, Talisman Sabre in the Asia-Pacific region, in July 2015, 
featured 21 ships, including U.S. Navy aircraft carrier USS George 
Washington and more than 200 aircraft and three submarines. USS Fort 
Worth participated in Cooperation Afloat Readiness and Training (CARAT) 
exercises with partner navies from Cambodia, Philippines, Malaysia, 
Indonesia, Brunei, and Bangladesh to conduct maritime security 
cooperation exercises.
    In addition to participating in many of the exercises as part of 
the Navy-Marine Corps team, the Marine Corps is also building its 
capacity to work with our Asia-Pacific partners. Marines participated 
in 46 exercises in the region in 2015. Examples include Cobra Gold, a 
crisis-response exercise with partners from Thailand, Singapore, Japan, 
Republic of Korea, Indonesia, and Malaysia, and exercise Talisman 
Saber, a U.S.-Australia exercise focusing on high-end combat operations 
and peacekeeping transitions. Additionally, Marine Rotational Force 
Darwin sustains more than 1,000 Marines on a revolving basis to conduct 
exercises, security cooperation and training with the Australian 
Defense Force and other countries in the region. This will increase 
over the next few years to a full Marine Air Ground Task Force.
    As we rebalance our expeditionary forces to the Pacific, we will 
remain focused on maintaining maritime superiority across all domains 
and geographies, ensuring we don't neglect obligations in places like 
Europe.
    As a continuation of the North Atlantic Treaty Organization's 65-
year mission to keep all nations free without claiming territory or 
tribute, we moved the fourth ballistic missile defense capable DDG, USS 
Carney, to Rota, Spain, to join USS Donald Cook, USS Ross and USS 
Porter to enhance our regional ballistic missile defense capability, 
provide maritime security, conduct bi-lateral and multilateral training 
exercises, and participate in NATO operations. We've also established 
an AEGIS ashore site in Romania to provide additional shore-based 
ballistic missile defense capability in Europe, with a second 
installation in Poland scheduled to come online in the 2018 timeframe.
    The Navy and Marine Corps continue to demonstrate support for our 
allies and friends and American interests in the European region. 
Alongside the Marine Corps' Black Sea Rotational Force's operations in 
Eastern Europe, a series of Navy ships have deployed into the Black Sea 
to ensure freedom of navigation and work with our partners there.
    This past fall USNS Spearhead completed the Southern Partnership 
Station 2015 in South America. As Spearhead sailed through the 
Americas, the Sailors and Marines aboard participated in subject matter 
expert exchanges and building partner capacity throughout the region. 
In October, USS George Washington and USS Chafee participated in the 
annual multinational exercise UNITAS, which was hosted by the Chilean 
Navy and included personnel from Brazil, Ecuador, El Salvador, 
Guatemala, Honduras, New Zealand and Panama to conduct intense training 
focused on coalition building, multinational security cooperation and 
promoting tactical interoperability with the participating partner 
nations. USS George Washington also deployed as part of Southern Seas 
2015, which seeks to enhance interoperability, increase regional 
stability, and build and maintain relationships with countries 
throughout the region while circumnavigating South America. A unique 
symbol of our desire to build a strong relationship is evident in 
deployments by our world class hospital ship USNS Comfort. As part of 
CONTINUING PROMISE 2015, medical and support staff from across the U.S. 
military and the region worked alongside nearly 400 volunteers to treat 
122,268 patients and conduct 1,255 surgeries. In an historic event 
during the USNS Comfort port call in Haiti, U.S. and Cuban medics 
worked side-by-side to treat Haiti's poor and exchange best medical 
practices. CONTINUING PROMISE is without doubt one of the U.S. 
military's most impactful missions, but future USNS Comfort deployments 
will be affected by today's budget realities. Our security is 
inextricably linked with that of our neighbors, and we continue to work 
with innovative and small-footprint approaches to enhance our 
interoperability with partners in the Americas.
    For some people around the world, Sailors and Marines who sail 
aboard our ships are the only Americans they will ever meet, and it is 
they who represent our country around the world.
    In December, I hosted the leaders of our partner navies from West 
Africa and from Europe and the Americas for the Gulf of Guinea Maritime 
Security Dialogue. Naval leaders from 16 nations bordering the Gulf of 
Guinea as well as 37 heads of navy, delegates and representatives from 
Europe and the Americas came to discuss collaborative solutions to 
piracy, extremism, trafficking and insecurity in the region. We 
discussed a unified code of conduct for maritime law enforcement and 
more direct cooperation in the region. As the economies in the Gulf of 
Guinea continue to grow, so does the increasing relevance of guarding 
against maritime terrorism, illicit trafficking of drugs, people and 
weapons, extremism moving from east to west, and other transnational 
crime. The U.S. Navy and Marine Corps will continue to work with our 
partners in West Africa and help them improve their capabilities and 
promote collaboration.
    Working alongside other navies enhances interoperability, provides 
key training opportunities, and develops the operational capabilities 
of the countries and navies with which we have shared values. As we 
look toward future operations, multinational cooperation will continue 
to be vital to suppressing global threats, and building these strong 
partnerships now seeks to enhance and ensure our operational 
superiority into the future.
    Outside of our international partnerships, the Department of the 
Navy's collaboration with industry, both in technology development and 
ship and aircraft building and repair, bolsters economic security as 
well as national security interests at home and abroad.
    Finally, our Navy and Marine Corps require the support of the 
American people to maintain presence. I continue to honor our most 
important partnership- the one with the American people- by naming 
ships after people, cities, and States, as a reflection of America's 
values and naval heritage, and to foster that powerful bond between the 
people of this country and the men and women of our Navy and Marine 
Corps.
                    fiscal year 2017 budget summary
    The Department of the Navy's proposed budget for fiscal year 2017 
is designed to achieve the President's Defense Strategic Guidance 
(DSG): protect the homeland, build security globally, and project power 
and win decisively when called upon. In doing so we have looked across 
the FYDP to maintain our ability to conduct the primary missions listed 
in the DSG to 2021 and beyond. Overall the fiscal year 2017 President's 
Budget balances current readiness needed to execute assigned missions 
while sustaining a highly capable Fleet, all within a continually 
constrained and unpredictable fiscal climate.
    Our approach to this budget has focused on six objectives. First, 
maintain a credible and modern sea-based strategic deterrent. Second, 
sustain our forward global presence to ensure our ability to impact 
world events. Third, preserve the capability to defeat a regional 
adversary in a larger-scale, multi-phased campaign, while denying the 
objectives of- or imposing unacceptable costs on- a second aggressor in 
another region. Fourth, ensure that the force is ready for these 
operations through critical afloat and shore readiness and personnel 
issues. Fifth, continue and affordably enhance our asymmetric 
capabilities. Finally, sustain our industrial base to ensure our future 
capabilities, particularly in shipbuilding.
    Even as we deal with today's fiscal uncertainty, we cannot let slip 
away the progress we've made in shipbuilding. It takes a long time, 
measured in years, to produce a deployable ship. It is the least 
reversible thing we might do to deal with budget constraints. If we 
miss a year, if we cancel a ship, it is almost impossible to recover 
those ships because of the time involved and the inability of the 
industrial base to sustain a skilled set of people without the work to 
support them. To do the job America and our leaders expect and demand 
of us, we have to have those gray hulls on the horizon.
    Because of the long lead time needed for shipbuilding, it is not 
the responsibility of just one administration. This Administration and 
Congress, in previous budgets, have guaranteed we will reach a Fleet of 
300 ships by fiscal year 2019 and 308 by fiscal year 2021. This FYDP 
establishes a proposed shipbuilding trajectory for our Battle Force and 
its underpinning industrial base in the years following fiscal year 
2021, while maintaining decision space for the next Administration and 
Congress. As such, the fiscal year 2017 President's Budget requests 
funding for seven ships: two Virginia class attack submarines, two DDG 
51 Arleigh Burke class destroyers, two Littoral Combat Ships (LCS), and 
the LHA 8 Amphibious Assault Ship. The budget request also includes 
funding for refueling and complex overhauls (RCOH) for aircraft 
carriers USS George Washington and USS John C. Stennis.
    The plan for LCS/FF requests funding for two ships in fiscal year 
2017, preserving the viability of the industrial base in the near term 
and creating future decision space for Frigate procurement should 
operational requirements or national security risk dictate the need.
    The fiscal year 2017 President's Budget includes funding for the 
modernization of destroyers ($3.2 billion total invested in fiscal year 
2017--fiscal year 2021) to sustain combat effectiveness, to ensure 
mission relevancy, and to achieve the full expected service lives of 
the AEGIS Fleet. The budget also requests $521 million across the FYDP, 
in addition to current Ships Modernization, Operations and Sustainment 
Fund (SMOSF) funding, to support cruiser modernization. The Navy will 
continue to work with Congress to develop and evaluate funding options 
to continue this vital modernization.
    Above the sea, our naval aviation enterprise grows. Specifically, 
we continue our recapitalization efforts of all major platforms and 
increase procurement of F/A-18E/F and F-35 aircraft, and make key 
investments in current and future unmanned aviation systems and strike 
warfare weapons capabilities.
    While accelerating new platforms and capabilities to the Fleet is a 
priority, it is equally important to reduce the maintenance backlog 
created by sequestration. The fiscal year 2017 budget provides 
additional investments in shipyard and aviation depots in both civilian 
personnel and infrastructure to achieve that end. As we execute our 
readiness strategy, our focus remains on properly maintaining ships and 
aircraft to reach their expected service lives and supporting a 
sustainable operational tempo.
    The cyber domain and electromagnetic spectrum dominance remain 
Department priorities. The budget includes an increase of $370 million 
over the FYDP ($107 million in fiscal year 2017) across a spectrum of 
cyber programs, leading to significant improvements in the Department's 
cyber posture. Specific elements include funding for engineering of 
boundary defense for ship and aviation platforms and for afloat cyber 
situational awareness.
    While hardware upgrades and additions are crucial, our investment 
in people must be equally prioritized. The fiscal year 2017 budget 
includes a 1.6 percent pay raise for Sailors and Marines and adds 
billets for base security. Our personnel initiatives receive funding 
aimed to recruit, train, and retain America's best.
    Our priorities combine to achieve one objective--naval presence. 
And that presence is weighted to meet the national security strategy. 
The fiscal year 2017 budget sustains a forward deployed presence and 
continues the rebalance to the Pacific. The number of ships operating 
in the Asia-Pacific will increase from 52 today to 65 by 2020.
    Crafting the Department of the Navy's budget did not come without 
hard choices. To achieve a balance between current and future 
capabilities, we were compelled to make several risk-informed 
decisions. We have proposed deactivating the 10th Carrier Air Wing. 
This primarily administrative move improves the alignment of carrier 
air wing and aircraft carrier deployment schedules and alleviates 
excessive time between deployments for CVWs attached to CVNs in lengthy 
maintenance phases, without losing any aircraft.
    Finally, throughout my tenure, as part of my Department of the Navy 
Transformation Plan, I have stressed the importance of accountability. 
We are moving very quickly to an audit ready environment. Congressional 
support has been critical in providing the resources we need to bring 
our systems into compliance.
                               conclusion
    As the longest-serving Secretary since World War I, I have truly 
been able to get to know the men and women of this Department, and I 
have led institutional change--from inception to reality.
    In order to provide our Nation with presence, to deter our 
adversaries and assure our allies, and provide our Nation's leaders 
with options in times of crisis, we have enhanced our capabilities 
across every area of this department. By focusing on our people, 
platforms, power and partnerships, we assure we remain the greatest 
expeditionary fighting force the world has ever known.
    Today there is no operational billet in the Navy or Marine Corps 
that is closed to anyone based on their gender. Men and women wear 
uniforms common in appearance so they are uniformly United States 
Sailors and United States Marines. Career paths are flexible and 
provide unprecedented opportunities for professional growth. We promote 
based more on merit and not just tenure. We are encouraging retention 
in the Department by creating an environment that doesn't force our 
Sailors and Marines to choose between serving their country and serving 
their families.
    We are seeking innovation from within the talent inherent in our 
Sailors and Marines. We have established an innovation network, with 
crowdsourcing platforms established to allow new ideas to get from the 
deckplates to our leaders.
    We are growing the fleet. By the end of this fiscal year, we will 
have contracted for 84 ships, which will give America a 300-ship Navy 
by 2019 and a 308-ship Navy by 2021. We stood up a new Deputy Assistant 
Secretary of the Navy and OPNAV staff for Unmanned Systems development, 
making us leaders in this emerging capability.
    The Navy has fundamentally changed the way we procure, use and 
think about energy. In the past 7 years, the Navy and Marine Corps have 
significantly lowered fuel consumption. We have sailed the Great Green 
Fleet on alternative fuel blends and met our goal of having 1 gigawatt 
of renewable energy powering our shore-based installations 5 years 
early.
    We are rebalancing our Fleet to meet the goal of having 60 percent 
of our assets in the Pacific region by the end of the decade, and we 
continue to contribute to security cooperation and international 
exercises with our friends and allies around the world.
    Since the inception of our Nation, America's Navy and Marine Corps 
have paved the way forward for this country.
    As President George Washington once said, ``It follows then as 
certain as that night succeeds the day, that without a decisive naval 
force we can do nothing definitive, and with it, everything honorable 
and glorious.''

    Senator Cochran. Thank you very much, Mr. Secretary.
    Admiral Richardson, I'm going to call on you next for any 
statement you have.
    Thank you.
STATEMENT OF ADMIRAL JOHN M. RICHARDSON, CHIEF, NAVAL 
            OPERATIONS
    Admiral Richardson. Thank you, Sir.
    Mr. Chairman, Vice Chairman Durbin and distinguished 
members of the Committee, I am honored and humbled for the 
privilege to appear before you today as your CNO, on behalf of 
the more than 500 thousand active and reserve Sailors, our Navy 
civilians and their families, to discuss the Navy's budget 
request.
    And to start I want to thank you for your leadership in 
keeping our Nation secure and in keeping our Navy the strongest 
Navy that has ever sailed the seas, and this year's budget 
continues that important work.
    It's always good to start by framing the problem.
    America has been and remains a maritime nation and our 
prosperity is tied to our ability to freely operate in the 
maritime environment. And today's strategic environment is 
increasingly globalized and increasingly competitive. Global 
systems are used more, stressed more and contested more and for 
the first time in 25 years, there is competition for control of 
the seas.
    The maritime environment has seen explosive growth from the 
sea floor to space, from deep water to the shoreline and in the 
information domain. Things are accelerating.
    The global information system has become pervasive and has 
changed the way we all do business, including at sea.
    Technology is being introduced at an unprecedented rate and 
is being adopted by society just as fast.
    And finally, a new set of competitors are moving quickly to 
use these forces to their advantage. And for the first time in 
25 years, the United States is facing a return to great power 
competition.
    These new forces have changed what it means for the Navy 
and Marine Corps to provide maritime security. And while the 
problems are more numerous and complex, our responsibility 
remains the same. Naval forces must provide our leaders 
credible options to protect America from attack, to advance our 
prosperity, to further our strategic interests, to assure our 
allies and partners and deter our adversaries, which rests on 
the ability of the Navy, working with our sister services, to 
win decisively if conflict breaks out.
    To do this the Navy is focusing on four lines of effort.
    First and foremost, we're going to do right by our people.
    Senator Durbin, I was there at Great Lakes just last 
weekend. Got a chance to see that terrific team just bring 
people from around the nation in and sailorize them and get 
them off to a great start. And the support of the community 
there in Great Lakes is absolutely critical to that mission.
    The second line of effort with the Marines will be 
broadening Naval warfighting concepts and capabilities. We'll 
be strengthening our partnerships and we will be learning 
faster.
    Unquestionably the most important part of our Navy is our 
team.
    Everything we do starts and ends with our Sailors, 
civilians and their families. And as our platforms and missions 
become more complex, our need for talented people continues to 
be a challenge. We need to recruit, train and retain the right 
people. And our Sailor 2025 initiatives are aimed squarely at 
that challenge.
    But these efforts are based on our core values of honor, 
courage and commitment and demonstrated through four core 
attributes of integrity, accountability, initiative and 
toughness.
    That team is committed to our mission which requires us to 
strengthen Naval power at and from the sea. This budget 
reflects some very tough choices as we achieve this aim. We 
have prioritized shipbuilding and the industrial base.
    First in that effort is the Ohio Replacement Program which, 
I believe, is vital to our survival as a Nation. We are taking 
steps to more deeply ingrain information warfare and we're 
investing in our Naval aviation enterprise, rapidly integrating 
unmanned systems and bolstering our investments in advanced 
weapons.
    In addition to these investments, we are adjusting our 
behaviors to keep pace with the world that continues to 
accelerate. And we are doubling down on an approach that relies 
more heavily on experimentation and prototyping. We are 
pursuing multiple avenues to drive shorter learning cycles into 
all that we do. We must learn faster.
    To close, I wanted to mention that I've had the honor over 
the last few days to spend time with Senior Chief Ed Byers, who 
was awarded the Medal of Honor Monday by the President on 
behalf of the Congress. Senior Chief Byers represents the very 
best of our servicemen and women and he is emblematic of this 
generation's continued commitment to our core values and to 
their fellow Americans.
    He's a Navy SEAL. And the SEAL ethos reads, ``My loyalty to 
country and team is beyond reproach. I humbly serve as a 
guardian to my fellow Americans, always ready to defend those 
who are unable to defend themselves. I do not advertise the 
nature of my work nor seek recognition for my actions.''
    Mr. Chairman, all our people want to do is protect this 
great Nation. It's my job to lead them well and prepare them 
for that task. The 2017 Navy budget is this year's best 
approach to solving the problems and seizing the opportunities 
that face the Navy today.
    I thank you again for your leadership and support and I 
look forward to your questions.
    [The statement follows:]
            Prepared Statement of Admiral John M. Richardson
    Chairman Cochran, Vice Chairman Durbin, and distinguished members 
of the Committee, it is an honor to appear before you today. This is my 
first of hopefully many chances to discuss the future of the United 
States Navy with you, and as your Chief of Naval Operations, I look 
forward to continuing to work closely with you to ensure that your Navy 
is best postured to defend America's interests around the globe.
    Prior to my confirmation, I testified that my most serious concern 
was the gap between challenges to America's security and prosperity and 
the resources available to protect them. In January of this year, I 
outlined this gap in more detail when I released A Design for 
Maintaining Maritime Superiority (the ``Design''), which describes an 
increasingly competitive environment and the lines of effort the Navy 
will pursue to execute our mission in that environment. The thinking in 
the Design reflects inputs from leaders inside and out of the Navy and 
is guiding our way forward. It shaped our budget submission and shapes 
my testimony below.
    The 2017 budget is this year's best approach to solving the 
problems and seizing the opportunities that face the Navy today. The 
budget reflects some constants; America has been a maritime nation 
since we began. Our prosperity continues to depend on our maritime 
security--over 90 percent of our trade is shipped over the seas--and 
this linkage will only tighten in the future. Against the backdrop of 
this historical truth, current problems and opportunities are growing 
rapidly. The maritime environment has remained remarkably constant 
since man first put to sea thousands of years ago. The oceans, seas, 
shipping lanes and chokepoints are physically unchanged in the modern 
era, but the maritime system has seen explosive growth in the past 25 
years. Traffic over the seas has increased by 400 percent since the 
early 1990's, driving and outpacing the global economy, which has 
almost doubled in the same period. Climate change has opened up trade 
routes previously closed. Access to resources on the seafloor has also 
increased, both as Arctic ice has receded and as technology has 
improved. And just as it has in the past, our future as a Nation 
remains tied to our ability to operate freely on the seas.
    That maritime freedom is coming under increasing pressure and 
stress. For the first time in 25 years, there is competition for 
control of the seas. Nations like China and Russia are using their 
newfound maritime strength not only to advance their national goals, 
but also to challenge the very rules and standards of behavior upon 
which so many nations since the end of World War II have based their 
growth. We should interpret this challenge to international rules and 
order as a challenge to our own security and prosperity, and to the 
security and prosperity of all who support an open, fair architecture.
    It is against this background that I consider the gravity of the 
Navy's mission statement, as reflected in the Design:

      ``The United States Navy will be ready to conduct prompt and 
        sustained combat incident to operations at sea. Our Navy will 
        protect America from attack and preserve America's strategic 
        influence in key regions of the world. U.S. naval forces and 
        operations--from the sea floor to space, from deep water to the 
        littorals, and in the information domain--will deter aggression 
        and enable peaceful resolution of crises on terms acceptable to 
        the United States and our allies and partners. If deterrence 
        fails, the Navy will conduct decisive combat operations to 
        defeat any enemy.''

    To me these words are not an abstraction, and are easiest to 
appreciate in the context of what naval forces do every day. As just 
one example, there was a day last fall when:
  --The destroyer USS Donald Cook transited the Mediterranean, 
        following an 11-nation multinational exercise in the Black Sea 
        and a port visit to Odessa, Ukraine--demonstrating our 
        commitment to our NATO allies;
  --Sailors at the Navy Cyber Defense Operations Command in Suffolk, VA 
        monitored intrusion prevention sensors that actively mitigated 
        almost 300,000 instances of unauthorized or adversary activity 
        across the Navy network enterprise, including more than 60,000 
        threats to afloat networks;
  --The Kearsarge Amphibious Readiness Group, with the 26th Marine 
        Expeditionary Unit aboard, participated in a Turkish-led 
        amphibious exercise, demonstrating our combined capability and 
        physically displaying our commitment to U.S. allies and 
        partners;
  --Five ballistic missile submarines patrolled the oceans (the latest 
        in over 4,000 patrols since 1960), providing 100 percent 
        readiness in providing strategic deterrence;
  --USS Fort Worth, a Littoral Combat Ship, swapped crews in Singapore 
        after participating in a Cooperation Afloat Readiness And 
        Training (CARAT) exercise with the Bangladesh Navy, developing 
        cooperative maritime security capabilities that support 
        security and stability in South and Southeast Asia.
  --Sailors from a Coastal Riverine Squadron and an Explosive Ordnance 
        Disposal unit participated in an exercise in Cambodia, 
        increasing maritime security cooperation and interoperability 
        between the two navies;
  --Navy SEALS trained and advised Iraqi forces in the fight against 
        ISIL extremists, facilitating, mentoring, and enhancing their 
        ability to secure their territory;
  --Members of the Navy Expeditionary Combat Command provided tactical 
        intelligence training to Ghanaian Maritime Law Enforcement and 
        Naval service members at Sekondi Naval Base, increasing our 
        partners' capacity and capability to secure their territorial 
        waters;
  --The aircraft carrier USS Ronald Reagan launched four F/A-18 
        fighters to intercept and escort two approaching Russian TU-142 
        Bear aircraft that approached as the carrier was operating in 
        the Sea of Japan, operating forward to preserve freedom of 
        action; and
  --The fast-attack submarine USS City of Corpus Christi operated in 
        the Western Pacific, after participating with the Indian and 
        Japanese Navies in Exercise Malabar 2015, increasing our level 
        of engagement with our partners across the Indo-Asia Pacific.
    All of these events occurred on a single day: October 27, 2015. But 
none were in the headlines. That is because on that day the guided 
missile destroyer USS Lassen conducted a freedom of navigation 
operation in the South China Sea, one of the many visible 
demonstrations of our international leadership and national commitment 
to preserving a rules-based international order that the Navy conducts 
routinely around the world.
    Your Navy's ability to execute these responsibilities--our 
mission--is becoming more difficult as three interrelated forces act on 
the global economic and security environments, and as new actors rise 
to challenge us. I have already described the first force--the force 
exerted by the expanding use of the maritime domain, on, over, and 
under the seas. This global system is becoming more used, stressed, and 
contested than perhaps ever before, and these trends show no signs of 
reversing.
    The second force is the rise of the global information system. 
Newer than the maritime system, the information system is more 
pervasive, enabling an even greater multitude of connections between 
people and at a much lower cost of entry. Information, now passed in 
near-real time across links that continue to multiply, is in turn 
driving an accelerating rate of change.
    The third interrelated force is the rising tempo at which new 
technologies are being introduced. This is not just information 
technologies, but also those that incorporate advances in material 
science, increasingly sophisticated robotics, energy storage, 3-D 
printing, and networks of low-cost sensors, to name just a few 
examples. The potential of genetic science and artificial intelligence 
is just starting to be realized, and could fundamentally reshape every 
aspect of our lives. And as technology is developed at ever-increasing 
speeds, it is being adopted by society more quickly as well--people are 
using these new tools as quickly as they are produced, in new and novel 
ways.
    Our competitors and adversaries are moving quickly to use these 
forces to their advantage, and they too are shifting. For the first 
time in decades, the United States is facing a return to great power 
competition. Russia and China demonstrate both the advanced 
capabilities and the desire to act as global powers. This past fall, 
the Russian Navy operated at a pace and in areas not seen since the 
mid-1990's, and the Chinese PLA(N) continued to extend its reach around 
the world. Their national aspirations are backed by a growing arsenal 
of high-end warfighting capabilities, many of which are focused 
specifically on our vulnerabilities. Both nations continue to develop 
information-enabled weapons with increasing range, precision and 
destructive capacity, and to sell those weapons to partners like Iran, 
Syria, and North Korea.
    From a strategic perspective, both China and Russia are also 
becoming increasingly adept in coercion and competition below the 
thresholds of outright conflict, finding ways to exploit weaknesses in 
the system of broadly accepted global rules and standards. For example, 
Russia has continued its occupation and attempted annexation of another 
nation's territory. And, as perhaps the most startling example, China's 
land reclamation and militarization of outposts amidst the busiest sea 
lanes on the planet casts doubt on the future accessibility of our 
maritime domain. China is literally redrawing the map in the South 
China Sea by creating artificial islands, to which they then claim 
sovereign territorial rights, now complete with surface to air missiles 
and high performance radars. Their activity creates great uncertainty 
about the intentions and credibility of their leadership.
    Russia and China are not the only actors seeking to contest U.S. 
and global interests in the emerging security environment. Others are 
also pursuing advanced technology, including military technologies that 
were once the exclusive province of great powers; this trend will 
persist. Coupled with an ongoing dedication to furthering its nuclear 
weapons and missile programs, North Korea's provocative actions 
continue to threaten security in Northeast Asia and beyond. Iran's 
advanced missiles, proxy forces and other conventional capabilities 
pose threats to which the Navy must remain prepared to respond. 
Finally, international terrorist groups such as ISIL and Al Qaeda have 
proven their resilience and adaptability and pose a long-term threat to 
stability and security around the world.
    In summary, these new forces have changed what it means for the 
Navy and Marine Corps to provide maritime security; the problems are 
more complex, demanding, and numerous than ever before. But our 
responsibility remains the same. Naval forces must provide our leaders 
credible options that allow them to advance the Nation's prosperity, 
defend its security, further its strategic interests, assure its allies 
and partners, and deter its adversaries--which rests on the ability of 
the Navy and our sister services to decisively win if conflict breaks 
out. The breadth of challenges we face demands a range of options, and 
they must be credible. Only then can the United States effectively 
advocate as a maritime power for the system of global rules and 
standards that underpin shared prosperity now and in the future.
    It is becoming increasingly difficult for the Navy to present a 
sufficient number of credible options for leadership. While the 
predictability provided by the 2015 Bipartisan Budget Act is greatly 
appreciated, the Navy's fiscal year 2017 budget submission comes on the 
heels of four prior years' budgets that collectively provided $30 
billion less than requested levels to the Department of the Navy. It 
represents yet another reduction of almost $5 billion from 2016 funding 
levels. And we have started the last 6 years with a continuing 
resolution, with an average duration of 120 days. In response, we have 
had to modify our behaviors with a host of inefficient practices, the 
use of short-term contracts offering less than best value to the 
government, and the associated increased workload on our shrinking 
headquarters staffs. Continuing Resolutions can also delay critical 
programs, including those with little to no margin for delay, such as 
the Ohio Replacement Program. And it's worse than that: the fiscal 
uncertainty sends ripples through the entire system--the industrial 
base is hesitant to invest, and our people remain concerned about the 
next furlough or hiring freeze or overtime cap. This unpredictability 
adds to the burden on our Navy team and drives prices up.
    So the challenges are increasing and funding is decreasing. America 
remains the primary leader of the free world, with the most capable 
military force on the planet. And we remain a maritime Nation whose 
future is inextricably tied to the seas. Our Navy has tremendous 
responsibilities to ensure that future is secure and prosperous. Within 
those constraints, our fiscal year 2017 budget proposal reflects the 
best portfolio of credible options to achieve our mission. Budget 
constraints are forcing choices that limit our naval capability in the 
face of growing and rising threats. The Navy's budget addresses our 
gaps on a prioritized basis, and starts to accelerate our capabilities 
so that we can maintain overmatch relative to our adversaries.
                strengthen our navy team for the future
    Without question, the most important part of our budget is our 
investment in our Navy Team--our Active and Reserve Sailors, our Navy 
Civilians, and their families. I am pleased that we were able to 
provide a 1.6 percent pay raise for our Sailors this year, outpacing 
inflation and 0.3 percent more than last year. Just as important are 
the investments we are making to improve the environment for the Team. 
As the Design makes clear, some of the biggest impacts that we can make 
on our warfighting capability do not involve a lot of money, but 
instead are changes to how we do business.
    These changes can't come soon enough. As our platforms continue to 
become more technologically advanced and missions become more complex, 
our need for talented, qualified recruits will grow. Further, the 
competition for that talent grows more intense every day. This budget 
keeps us on a good path. Our Sailor 2025 program is a dynamic set of 
initiatives, process improvements and management tools designed to 
increase career choice and flexibility, provide advanced, tailored 
learning, and expand support to our Navy families. In fiscal year 2017, 
we begin to fully invest in the Sailor 2025 Ready Relevant Learning 
initiative, which will begin to create a new way of training our 
Sailors through mobile, modular learning, re-engineered content, and an 
improved IT infrastructure.
    In this budget, we fund a wide range of initiatives to strengthen 
our Sailors individually and as a team. The Design highlights the 
importance of our core values of honor, courage and commitment, as 
demonstrated through four core attributes--integrity, accountability, 
initiative, and toughness. We are implementing a strategy, headed up by 
our 21st Century Sailor Office, to inculcate these attributes 
throughout the fleet and improve Sailor readiness and resilience. We 
continue to further develop a climate of dignity and respect throughout 
the Fleet. We also look to eliminate the toxic behaviors that destroy 
the fabric of the team--including sexual harassment and assault, hazing 
and alcohol abuse. We have increased funding over the FYDP to address 
sexual assault prevention and response, adding 24 new positions to the 
Naval Criminal Investigative Service--on top of 127 additions in the 
previous 2 years--to speed investigations while continuing our support 
for programs aimed at prevention, investigation, accountability, and 
support for survivors such as the Victim Legal Counsel Program.
    As we seek greater efficiencies, planned adjustments allow us to 
take modest reductions (3,600 Sailors in fiscal year 2017) in our 
active duty end strength. These are consistent with advances in 
training methods and with standing down the Carrier Air Wing 14. There 
will be no reductions in force or any other force-shaping initiatives--
we will achieve this through natural attrition. Nobody will lose their 
job.
    One of my observations since taking office is that we can do more 
to increase the synergy between our military and civilian workforces. 
Your Navy civilians are integral to all that we do. They work in our 
shipyards and aviation depots, provide scientific and technical 
expertise in our labs, and guard our bases and other facilities. To 
respond to increasing security concerns, we have invested this year in 
increased force protection measures, including in those civilians who 
keep our people and property safe. Some of the maintenance and 
readiness shortfalls we are still digging out from were made worse by 
civilian hiring and overtime freezes and a furlough in fiscal year 
2013. Worse, these actions strained the trust within our team. This 
budget adds a net of over 1,300 civilian positions in fiscal year 2017 
to support additional maintenance, enhance security, and operate our 
support ships, and continues the investments in our civilian shipmates 
that help to forge one seamless team. Even as we implement these key 
initiatives to address security and to recover readiness, we balance 
that growth with reductions over the FYDP of 3,200 FTE (1.8 percent), 
for a net reduction of 1,900.
               strengthen naval power at and from the sea
    That team, with our Marine Corps partners, is committed to our 
mission, which must be conducted in the environment I described above. 
The Design calls for us to strengthen naval power at and from the sea 
to address the growing scale, congestion, and challenge in the maritime 
domain. The Ohio Replacement Program (ORP) is paramount to that effort, 
and remains our top priority. In my opinion, it is foundational to our 
survival as a Nation. This budget funds the ORP; construction is 
planned to start in fiscal year 2021. This start date is vitally 
important to prevent any impact to continuous at-sea deterrence at a 
time when it could be even more relevant than today.
    To the maximum extent possible, we have also prioritized 
shipbuilding and the industrial base that supports it. Our current 
fleet of 272 ships is too small to meet the array of mission 
requirements our Nation demands. In this budget, we remain on a path to 
achieve 308 ships by 2021. This year, we are funding two advanced 
guided missile destroyers with upgraded radars (DDG Flight IIIs with 
SPY-6), two Virginia-class attack submarines, two Littoral Combat 
Ships, and the procurement of an amphibious assault ship replacement 
(LHA(R)). The Ford carrier remains under its cost cap and will deliver 
in 2016; we are continuing to exercise strong oversight and discipline 
to ensure the cost of her sister ships Kennedy and Enterprise also 
remain under budget. And we have exceeded our shipyard investment 
goal--we're at 8.1 percent, well beyond the 6 percent legislative 
requirement.
    As the Design emphasizes, we are fully committed to further 
ingraining information warfare into our routine operations. This is 
essential to the Navy's future. For example, we are increasing 
procurement of the Surface Electronic Warfare Improvement Program 
(SEWIP) Block II and III by 45 units. We are also investing in network 
modernization afloat and ashore through 10 installations of the 
Consolidated Afloat Networks and Enterprise Services (CANES) system in 
fiscal year 2017.
    To help remediate one of our most stressed areas, we have enhanced 
our investments in the naval aviation enterprise. We are investing in 
bringing fifth generation aircraft to the fleet, adding ten F-35Cs over 
the FYDP. We are also replacing F-18 airframes that are meeting the end 
of their projected service lives faster than projected, adding 16F/A-18 
E/Fs over the next 2 years. Further, we are adding upgrades to the 
Super Hornet to make it more capable in a high-end fight. And we are 
updating our strategy to more rapidly integrate unmanned aerial 
vehicles into our future air wing. Revisions to our unmanned carrier-
launched airborne surveillance and strike (UCLASS) program will help us 
to meet current mission shortfalls in carrier-based surveillance and 
aerial refueling capacity, and better inform us about the feasibility 
of future additional capabilities we desire.
    To meet an increasingly lethal threat, this budget bolsters our 
investments in advanced weapons across the FYDP. We are buying 100 
additional tactical Tomahawks, 79 more air-to-air AMRAAM missiles, 
additional sea-skimming targets, and accelerating our investments in 
SM-6 missile development in order to provide a full range of capability 
enhancements to the fleet. However, budget pressures also caused us to 
cut other weapons investments such as the Mk-48 torpedo and AIM-9X air-
to-air missile. Many of our production lines are at minimum sustaining 
rates, and the low weapons inventory is a continuing concern.
             achieve high velocity learning at every level
    All of these investments will deliver important capabilities to 
better posture us for the current and future environment. But, as or 
more importantly, we must also adjust our behavior if we are to keep 
pace with the accelerating world around us.
    This budget reflects some of that increase in pace. We are changing 
how we approach training and education to take advantage of new tools 
and to push learning out to where our Sailors spend the bulk of their 
time--their units. The intent is not to burden those units more, but to 
empower their leaders and give Sailors the best tools to support what 
science is increasingly revealing about how people learn most 
effectively.
    It also means that Navy leaders, up to and including me as the CNO, 
must exercise full ownership of how we develop and acquire new 
capabilities for the future. That ownership has four elements: 
authority, responsibility, accountability, and technical expertise. I 
am committed to exercising that ownership, and to creating or 
supporting new ways to exercise it faster.
    We are doubling down on an approach that relies more heavily on 
experimentation and prototyping, connected at the hip with the Fleet, 
to help meet mission needs while simultaneously helping us to better 
define our requirements. We are pulling our more ambitious projects 
closer to the present so we can learn our way forward, faster and with 
better information. We are taking this approach with the Remote 
Minehunting System, Large Displacement Unmanned Undersea Vehicle 
(LDUUV), and UCLASS programs, and we will continue to seek additional 
programs to which it can be applied.
    We are also reexamining our processes and organization to ensure 
they are best aligned to support a faster pace. This budget includes a 
small amount of funding for the Rapid Prototyping, Experimentation, and 
Demonstration initiative, a process we have already begun to implement 
that ``swarms'' technical experts to Fleet problems, rapidly generates 
operational prototypes, and gets them into the hands of Sailors and 
Marines so we can continue to refine and improve them. We also are 
standing up a capability along the lines of the Air Force's Rapid 
Capabilities Office; we'll call it the Maritime Accelerated 
Capabilities Office (MACO). This will concentrate requirements, 
technical, and acquisition expertise on high-priority projects to fast-
track their development and fielding.
    Finally, Congress has rightly pressed us to reexamine whether we 
are being as efficient as we can be. Our budget reflects some of the 
efforts that we are taking in that regard, but fundamentally, we are 
focused on making every dollar count. I am taking a personal role in 
that process, asking hard questions and pushing us to become more cost-
effective and agile as we apply a learning-based approach to all that 
we do.
                               conclusion
    This year's budget request represents a portfolio of investments 
that employ our available resources to best effect. The gap between our 
responsibilities and our funding levels represents risk--risk of 
Sailors' lives lost, of a weakened deterrent, of a slower response to 
crisis or conflict, of greater financial cost, of uncertainty for our 
international partners--all of which affect the security and prosperity 
of America. While it is impossible to quantify this risk precisely, I 
believe the balance reflected in this proposal improves our prospects 
going forward.
    Such improvements are much needed. Concurrent with increasing 
global challenges, budget pressures have led the Navy to reduce our 
purchases of weapons and aircraft, slow needed modernization, and 
forego upgrades to all but the most critical infrastructure. At the 
same time, maintenance and training backlogs--resulting from continued 
high operational tempo and exacerbated by sequestration in 2013--have 
delayed preparation for deployments, which in turn has forced us to 
extend units already at sea. Since 2013, eight carrier strike groups, 
four amphibious readiness groups, and twelve destroyers have deployed 
for 8 months or longer. The length of these deployments itself takes a 
toll on our people and the sustainability and service lives of our 
equipment. Further, these extensions are often difficult to anticipate. 
The associated uncertainty is even harder on Sailors, Marines, and 
their families and wreaks havoc on maintenance schedules, complicating 
our recovery still further.
    We cannot continue to manage the risks we face absent broader 
change. As CNO, I will strive to keep the U.S. Navy on the road to 
remaining a force that produces leaders and teams who learn and adapt 
to achieve maximum possible performance. We will achieve and maintain 
high standards to be ready for decisive operations and if necessary, to 
prevail in combat. We will fight for every inch of advantage. In this 
way, we will provide sufficient, credible, options to leadership in 
order to guarantee America's security and prosperity now and into the 
future. I very much look forward to working with you and your fellow 
Members of Congress as we proceed.

    Senator Cochran. Thank you, Admiral Richardson.
    And we'll now turn to the Commandant of the Marine Corps, 
General Robert B. Neller, for any comments, statement.
STATEMENT OF GENERAL ROBERT B. NELLER, COMMANDANT, 
            UNITED STATES MARINE CORPS
    General Neller. Chairman Cochran, Ranking Member Durbin, 
distinguished members of the Committee, thank you for the 
opportunity to appear before you today.
    Marines know that the Congress and the American people we 
serve have high expectations of us. They expect us to be ready. 
You expect us to be ready to answer the call to fight and win.
    Today Marines are forward deployed in Iraq, Afghanistan, 
the Far East and around the globe ready to respond to crisis. 
The posture of our force would not be possible without the 
support and actions of this Congress.
    Our global orientation, maritime character and 
expeditionary capability have been ably demonstrated during 
this past year.
    In 2015 Marines executed approximately 100 operations, 20 
of them amphibious, 140 theater security cooperation events and 
160 major exercises.
    As we remain engaged in the current fight and maintain our 
forward presence in order to respond to crisis, our enemies and 
potential adversaries have not stood idle. They have developed 
new capabilities which now equal or in some cases may exceed 
our own. This is further complicated by a constrained resource 
environment from which we must continue our current operational 
tempo, reset our equipment, maintain our warfighting readiness 
and at the same time, modernize the force.
    As our attention is spread across the globe in a security 
environment where the only certainty is uncertainty, we must 
make decisions about our strategy and structure that will 
determine our nation's military capability in the future.
    The character of the 21st century is rapid evolution and it 
is imperative that we keep pace with the changes. History has 
not been kind to militaries that have failed to evolve. And the 
change we see in the 21st century is dramatic.
    The efforts of the 114th Congress have provided sufficient 
resources to support the Marine Corps near term readiness and 
we thank the Congress for that fiscal stability.
    However, the fiscal year 2017 budget increasingly stretches 
the Nation's ready force. Your Marine Corps finds itself 
increasingly challenged to simultaneously generate current 
readiness, reset our equipment, sustain our facilities and 
modernize our future readiness.
    Maintaining the quality of the men and women in today's 
Corps is our friendly center of gravity, that which we must 
protect. This is the foundation from which we make Marines, win 
our Nation's battles and return quality citizens to American 
society. Our goal is to ensure every Marine is set up for 
success on the battlefield and in life and understands their 
value to their Corps and to their Nation.
    As the Marine Corps draws down to 182,000 Marines this 
fiscal year, we continue to develop capabilities in fifth 
generation aircraft, the F35B and C, cyber warfare, information 
operations, special operations, Embassy security guards and our 
security cooperation group.
    The Congress' intent for the Marine Corps is to serve as 
the Nation's force in readiness guides who we are and what we 
do. Being ready is central to our identity as Marines. The 
fiscal reductions and instability of the past years have 
impacted our readiness.
    Our resources have diminished. The Marine Corps has 
protected the near term operational readiness of its deployed 
and next to deploy units in order to meet current operational 
commitments. This means we do not have the depth in readiness 
on our bench that we would like to have.
    Modernization is our future readiness. The recapitalization 
of our force is essential to this future readiness with 
investments in facility sustainment, equipment reset, 
modernization, ground combat vehicles, aviation, command and 
control and digitally interoperable protected networks.
    With the continued support of Congress, the Marine Corps 
will maintain ready forces today and modernized to generate 
this future readiness.
    The wisdom of the 82nd Congress, reaffirmed by the 114th 
Congress, remains valid today. The vital need for a strong 
force in readiness and Marines are honored to serve in this 
role.
    Thank you again for the opportunity to appear before you 
today and for your leadership in addressing these fiscal 
challenges and our warfighting readiness. I look forward to 
your questions.
    [The statement follows:]
              Prepared Statement of General Robert Neller
                                prologue
    The United States Marine Corps is the Nation's expeditionary force 
in readiness. The intent of the 82nd Congress defined and shaped our 
culture, organization, training, equipment, and priorities. Marines 
appreciate the leadership of the 114th Congress in reaffirming that 
role, especially as the strategic landscape and pace of the 21st 
Century demands a ready Marine Corps to buy time, decision space, and 
options for our Nation's leaders. Congress and the American people 
expect Marines to answer the call, to fight, and to win.
    Our global orientation, maritime character, and expeditionary 
capability have all been ably demonstrated during the past year. The 
capabilities of our total force are the result of the planning and 
execution of committed Marines and Sailors operating under the 
leadership of my predecessors. These capabilities and the posture of 
our force would not be possible without the support and actions of the 
Congress. As our attention is spread across the globe in a security 
environment where the only certainty is uncertainty, we must make 
decisions about our strategy and structure that will determine our 
Nation's military capability in the future. Today's force is capable 
and our forward deployed forces are ready to fight, but we are fiscally 
stretched to maintain readiness across the depth of the force, and to 
modernize, in order to achieve future readiness.
Situation
    The current global security environment is characterized by 
violence, conflict and instability. Multidimensional security threats 
challenge all aspects of our national power and the international 
system. The expansion of information, robotics, and weapons 
technologies are causing threats to emerge with increased speed and 
lethality.
    Over the last 15 years, the United States fought wars in the Middle 
East, and your Marines continue to respond to crises around the globe. 
There has not been an ``inter-war period'' to reset and reconstitute 
our force. Your Marines and Sailors have remained operationally 
committed at the same tempo as the height of our operations in Iraq and 
Afghanistan. As we have remained engaged in the current fight, our 
enemies and potential adversaries have not stood idle. They have 
developed new capabilities which now equal or in some cases exceed our 
own.
    This unstable and increasingly dangerous world situation is further 
complicated by a constrained resource environment from which we must 
continue current operations, reset our equipment, maintain our 
warfighting readiness, and at the same time, modernize the force. 
Therefore, it has become necessary that we continually balance our 
available resources between current commitments and future readiness 
requirements. This requires pragmatic institutional choices and a 
clear-eyed vision of where we need to be in 10-20 years.
What Marines are doing today...
    Today, Marines remain forward deployed in Iraq and Afghanistan, and 
ready to respond to crisis around the world. Marines and Sailors are 
presently managing instability, building partner capacity, 
strengthening allies, projecting influence, and preparing for major 
theater combat operations. In 2015, Marines executed approximately 100 
operations, 20 amphibious operations, 140 theater security cooperation 
events, and 160 major exercises.
    Our Nation has Marines on the ground in Iraq and Afghanistan today, 
and we anticipate our commitment could grow in the future. Marines 
continue to advise, train and enable the Iraqi Security Forces and 
other designated Iraqi forces with peer-to-peer advising and infantry 
training. In Afghanistan, Marines continue to serve as advisors with 
the Republic of Georgia's Liaison Teams (GLTs) in support of Operation 
RESOLUTE SUPPORT. From forward-deployed locations afloat and ashore, 
Marine tactical aviation squadrons continue to support operations in 
Syria and Iraq. In 2015, aviation combat assets executed over 1,275 
tactical sorties and 325 kinetic strikes that have killed over 600 
enemy combatants and destroyed over 100 weapons systems and 100 
technical vehicles.
    Our Amphibious Ready Group/Marine Expeditionary Unit (ARG/MEU) 
Teams continue to show their capability a flexible and agile maritime 
force. In 2015, the Marine Corps deployed over 12,000 Marines with our 
shipmates on Navy warships. This past year, five separate MEUs 
supported every Combatant Commander, participating in exercises and 
executing major operations. The 31st MEU, our Forward Deployed Naval 
Force in the Pacific, performed disaster relief operations on Saipan 
after Typhoon Soudelor passed through the Commonwealth of the Northern 
Mariana Islands (CNMI). Marines were ashore to support the relief 
effort within 12 hours of notification and delivered a total of 11,000 
gallons of fresh water and 48,000 meals.
    As part of the New Normal your Corps deployed two Special Purpose 
Marine Air Ground Task Forces--Crisis Response (SPMAGTF-CR) to US 
Central Command and US Africa Command. These forces are tailored to 
respond to crises and conduct security cooperation activities with 
partner nations, but they do not provide the same flexibility and 
responsiveness of an ARG/MEU. Our SPMAGTF assigned to CENTCOM today 
provides dedicated Tactical Recovery of Aircraft and Personnel (TRAP) 
support to Operation INHERENT RESOLVE, in Iraq and Syria, and 
simultaneously provides a flexible force for crisis and contingency 
response. In AFRICOM, our SPMAGTF supported Embassies through 
reinforcement, evacuation, and operations to reopen a previously closed 
Embassy in Central African Republic. Your Marines also supported 
operations during the Ebola crisis and assisted with elections. 
Finally, a SPMAGTF deployed to the US Southern Command in 2015. 
SPMAGTF-SC's primary focus was the reconstruction of a runway in 
Mocoron Airbase, Honduras and theater security cooperation and training 
in Honduras, El Salvador, Guatemala and Belize.
    The Marine Corps' activities in the Pacific are led by Marine 
Forces Pacific (MARFORPAC) headquartered in Honolulu, Hawaii, with a 
forward stationed Marine Expeditionary Force (MEF), III MEF, 
headquartered in Okinawa, Japan. III MEF contributes to regional 
stability through persistent presence and Marines remain the Pacific 
Command's (PACOM) forward deployed, forward stationed force of choice 
for crisis response. The Marine Corps continues to rebalance its force 
lay-down in the Pacific to support Defense Strategic Guidance (DSG), 
with 22,500 Marines West of the International Date Line, forward-based, 
and operating within the Asia-Pacific Theater. The planned end state 
for geographically distributed, politically sustainable and 
operationally resilient MAGTFs in the Pacific is a long-term effort 
that will span the next 15 years. The Marine Rotational Force-Darwin 
(MRF-D), based in Australia's Robertson Barracks, is in its fourth year 
of operation. This year we will deploy approximately 1,200 Marines to 
Darwin for a 60-month deployment.
    The Marine Corps continues to work closely with the State 
Department to provide security at our Embassies and Consulates. Today, 
Marines are routinely serving at 174 Embassies and Consulates in 146 
countries around the globe. Approximately 117 Embassies have increased 
support in accordance with the 2013 NDAA. We have added 603 Marines to 
the previously authorized 1,000 Marine Security Guards; 199 in new 
detachments, 274 towards increased manning at current detachments, and 
130 towards the Marine Security Augmentation Unit (MSAU). Additionally, 
the U.S. Embassy in Havana, Cuba was reopened on July 2015, with 
Marines serving at this Embassy as they do in any other.
    Our partnering capabilities assure allies, deter adversaries, build 
partner capacity, and set conditions for the readiness to surge and 
aggregate with a Joint, Coalition or Special Operations force for major 
theater combat operations. Partnering also trains our Marines for 
environments in which we are likely to operate. In 2015, the Marine 
Corps, in conjunction with Combatant Commanders and the Marine Forces 
Component Commands, conducted more than 140 security cooperation 
activities, including exercises, training events, subject matter expert 
exchanges, formal education key leader engagements, and service staff 
talks. Your continued support has allowed the Marine Corps to operate 
throughout the world today; now we must ensure our readiness tomorrow.
                          five areas of focus
    Today, in addition to supporting the Combatant Commander's 
requirements, the Marine Corps is focused on near-term efforts in five 
interrelated areas that are vital to achieving our future success: 
People, Readiness, Training, Naval Integration, and Modernization. 
Across these five areas, three major themes run throughout: maintaining 
and improving the high quality people that make up today's Marine 
Corps; decentralizing the training and preparation for war while 
adhering to Maneuver Warfare principles in the conduct of training and 
operations; and modernizing the force, especially through leveraging 
new and emerging technologies. The future requires Marines to embrace 
change to leverage the rapid advancements in technology at the pace of 
the 21st Century in order to gain an operational advantage over any 
potential adversary we may face in the future.
                                 people
    The success of the Marine Corps hinges on the quality of our 
Marines. This is the foundation from which we make Marines, win our 
Nation's battles, and return quality citizens to American society. The 
Marine Corps will maintain a force of the highest quality which is 
smart, resilient, fit, disciplined and able to overcome adversity. 
Maintaining the quality of the men and women in today's Corps is our 
friendly center of gravity. Our goal is to ensure every Marine is set 
up for success on the battlefield and in life, and understands their 
value to the Marine Corps and the Nation.
    The Marine Corps continues to benefit from a healthy recruiting 
environment that attracts quality people who can accomplish the 
mission. Our recruiting force continues to meet our recruiting goals in 
quantity and quality and is postured to make this year's recruiting 
mission. We are on track to meet our active duty end strength goal of 
182,000 Marines in fiscal year 2016, and we will look to maximize the 
capabilities of each and every Marine. Where it makes sense, we will 
look to leverage the unique skills of our Reserve Marines to align what 
they bring from the civilian sector and better enable the readiness of 
our Total Force.
    As the Marine Corps completes our current draw down, competition 
for retention will continue. We will strive to retain the very best 
Marines capable of fulfilling our leadership and operational needs. 
This is accomplished through a competitive career designation process 
for officers and a thorough evaluation process for enlisted Marines 
designed to measure, analyze, and compare Marines' performance, 
accomplishments, and future potential. The Marine Corps continues to 
retain quality Marines in a majority of occupational fields while 
others, like aviation and infantry, are more challenging. An additional 
challenge for all Marines is remaining focused on training for war 
balanced against the volume of mandatory ``top down'' training 
requirements not directly associated with warfighting.
    Marine Leaders have a moral obligation to ensure the health and 
welfare of the Nation's Marines from the day they make the commitment 
to serve. We take this responsibility very seriously and strive to 
maintain the trust and confidence of Congress and the American People 
by immediately addressing any challenge to Marine Corps readiness and 
finding solutions through our people and readiness programs. We have 
reinvigorated the Marine for Life Program and continue to progress with 
our Marine Corps Force Integration Plan (MCFIP), Sexual Assault 
Prevention and Response Program (SAPR), Protect What You've Earned 
Campaign (PWYE), Suicide Prevention and Response Program, our Wounded 
Warrior Regiment, Marine and Family Programs, and Transition Assistance 
Programs. The Marine Corps remains focused on solutions to address the 
destructive behavior of sexual assault, suicide and hazing. The abuse 
of alcohol has proven to be a contributing factor across the spectrum 
of force preservation issues that impact the readiness of our force. 
Our goal continues to be the elimination of this destructive behavior 
from our ranks, and we believe that preserving our commanders' ability 
to lead in this area is a vital element to reaching this objective.
                               readiness
    The Congressional intent to serve as the ``Nation's Force in 
Readiness'' guides who we are and what we do--being ready is central to 
our identity as Marines. As a force, we will remain ready to fight and 
win across the range of military operations and in all five warfighting 
domains--maritime, land, air, cyber and space. The fiscal reductions 
and instability of the past few years have impacted our readiness. As 
resources have diminished, the Marine Corps has protected the near-term 
operational readiness of its deployed and next-to-deploy units in order 
to meet operational commitments. This has come at a risk.
    The Marine Corps will continue to prioritize the readiness of 
deployed and next-to-deploy units over non-deployed units. The majority 
of our units are deploying ready while our non-deployed commands lack 
sufficient resources to meet the necessary personnel, training, and 
equipment readiness levels in order to respond today. However, to meet 
Congress' intent that we remain the nation's force in readiness, the 
Marine Corps requires a ``ready bench'' that is able to deploy with 
minimal notice and maximum capability.
    Our aviation units are currently unable to meet our training and 
mission requirements primarily due to Ready Basic Aircraft shortfalls. 
We have developed an extensive plan to recover readiness across every 
type/model/series in the current inventory, while continuing the 
procurement of new aircraft to ensure future readiness. The recovery 
and sustainment of our current fleet is necessary to support both 
training and warfighting requirements. Each type/model/series requires 
attention and action in specific areas; maintenance, supply, depot 
backlog, and in-service repairs. For example, in our F/A-18 community 
we are 52 aircraft short of our training requirement and 43 aircraft 
short of our warfighting requirement due to back log and throughput at 
the Fleet Readiness Depot and our inventory of spares. If these 
squadrons were called to on to fight today they would be forced to 
execute with 86 less jets than they need. With the continued support of 
Congress, Marine Aviation can recover its readiness by re-capitalizing 
our aging fleet first as we procure new aircraft to meet our future 
needs and support our ground forces.
    Simultaneous readiness initiatives are occurring with our ground 
equipment. Our post-combat reset strategy and Equipment Optimization 
Plan (EOP) are key components of the overall ground equipment 
``Reconstitution'' effort. As of Jan 2016, the Marine Corps has reset 
78 percent of its ground equipment with 50 percent returned to the 
Operating Forces and our strategic equipment programs. This strategic 
war reserve is our geographically prepositioned combat equipment both 
afloat and ashore where it makes the most sense to respond to 
contingencies. We remain focused on this recovery effort and project 
its completion in May of 2019. This service-level strategy would not 
have been possible without the continued support of Congress and the 
hard work of your Marines.
    The Facility Sustainment, Restoration and Modernization (FSRM) 
initiative and current state of facilities is the single most important 
investment to support training, operations, and quality of life. The 
2017 budget proposes funding FSRM at 74 percent of the OSD Facilities 
Sustainment Model. This reduced funding level is an area of concern. 
FSRM is a top priority to fix.
    The sustainment of military construction (MILCON) funding is 
crucial to managing operational training and support projects. Marine 
Corps readiness is generated aboard our bases and stations. As we 
transition to new capabilities and realign our forces in the Pacific, 
adequate MILCON will be a key enabler for the Marine Corps' future 
success.
    Readiness is not just in our equipment supply and maintenance, but 
in the quality and challenging nature of our training through the 
mental, spiritual and physical readiness of Marines and Sailors across 
the force. Readiness is the result of a variety of factors: commitment 
by leadership, standards-based inspections, evaluated drills and 
training exercises, and an understanding by all Marines and Sailors 
that the call can come at any time. And we must be ready and able to 
answer.
                training, simulation and experimentation
    The Marine Corps' training and education continuum requires 
parallel and complementary efforts, from Squad Leader to MAGTF 
Commander. Organizing and executing high quality training is a 
difficult task. It takes time, deliberate thought, and effort. Our 
approach to training must evolve. It will emphasize the basics: 
combined arms, competency in the use of our weapons and systems, and 
expeditionary operations; but it must reemphasize operations in a 
degraded command, control, communications, computers and intelligence 
(C4I) environment, camouflage/deception, operations at night, 
operations in a nuclear, biological and chemical (NBC) environment, and 
decisionmaking in rapidly unfolding and uncertain situations. We must 
provide opportunities to experiment and work with the latest 
technological advances.
    Our war gaming supports the combat development process in order to 
develop and refine emerging concepts, conceptualize force design, and 
identify future capabilities and deficiencies within the future 
operating environments. War gaming achieves this purpose by permitting 
the dynamic, risk-free consideration of disruptive ideas and 
capabilities which enable innovation and inform Service priorities. War 
gaming also supports the development of operating concepts and 
facilitates analysis of alternatives across the ROMO. The Marine Corps 
is committed to the future development of a war gaming facility at 
Marine Corps Base Quantico to enhance the study of the evolving 
characteristics of, and the requirements for, successful warfighting in 
the future. The Marine Corps is working to leverage virtual and 
constructive training environments with better tools to train higher 
level staffs and a focus on our leaders, from the Battalion to the 
Marine Expeditionary Force level. Enabled by technology, we will 
increase the amount of training each unit can accomplish in mentally 
and physically stressing environments for all elements of the MAGTF 
before they execute on a live training range or in combat.
    Our current training schedule of major events will all focus on 
building on our maritime based operational capability and at the same 
time providing venues for experimentation. We will emphasize and 
increase opportunities for force-on-force training and operations in 
degraded environments in order to challenge Marines against a 
``thinking enemy'' and maximize realism.
    Demanding and challenging Professional Military Education (PME) is 
the best hedge against uncertainty and its purpose is to prepare for 
the unknown. Marines and Sailors of all ranks have the responsibility 
to educate themselves. The Marine Corps University (MCU) educates over 
75 percent of Marine Corps' Captains and Majors and provides PME 
opportunities for 100 percent of our enlisted force. Our training and 
education initiatives contribute to our readiness and enhance our 
ability to integrate with the Naval and Joint Force.
               integration with the naval and joint force
    In order to be the Nation's expeditionary force in readiness the 
Marine Corps must remain a naval combined arms expeditionary force. Our 
naval heritage is based on more than tradition; it is mandated by law 
as our primary service responsibility. Marines will reinforce our role 
as a naval expeditionary force to create decision space for national 
leaders and assure access for the Joint force as part of a naval 
campaign. As the service with the primary Department of Defense 
Directive and Title 10 responsibility for the development of amphibious 
doctrine, tactics, techniques, and equipment, our capabilities are 
reliant on the Nation's investment in our partnered Navy programs. This 
requires the proper balance of amphibious platforms, surface 
connectors, and naval operating concepts to shape our force explicitly 
as part of the Joint Force, understanding where we will both leverage 
and enable the capabilities of the Army, Air Force and Special 
Operations Forces.
    The Navy and Marine Corps Team require 38 amphibious warships, with 
an operational availability of 90 percent, to support two Marine 
Expeditionary Brigades, in order to provide the Nation a forcible entry 
capability. The Marine Corps fully supports the Secretary of the Navy 
and Chief of Naval Operations' efforts to balance amphibious platforms 
and surface connectors that facilitate operational maneuver from the 
sea and ship-to-objective maneuver. The Long Range Ship Strategy (LRSS) 
increases the amphibious warship inventory to 34 by fiscal year 2022. 
We appreciate Congress providing the funding to procure a 12th LPD and 
the funding for a second ship with the same hull form.
    The LPD and the LXR represent the Department of the Navy's 
commitment to a modern expeditionary fleet. L-Class ships with aircraft 
hangars and the command and control capabilities for the distributed 
and disaggregated operations that have become routine for our ARG/MEU 
teams. The Marine Corps fully supports the Navy's decision to use the 
LPD-17 hull for the LXR program. This decision is an acquisitions 
success story that provides a more capable ship, at lower cost, with 
increased capacity, on a shorter timeline to better support how Marines 
are operating today and are likely to in the future.
    Steady state demand and crisis response sea basing requirements 
must be met through creative integration of all platforms and 
formations. This requires an integrated approach that employs warships, 
alternative shipping and landing basing in a complementary manner. 
Corresponding to the amphibious ship effort is our investment in 
tactical ship-to-shore mobility because at some point in the naval 
campaign, the landing force is going to land. The Amphibious Combat 
Vehicle (ACV) is critical in the conduct of protected littoral maneuver 
and the projection of Marines from sea to land in permissive, 
uncertain, and hostile environments. Our planned investments are framed 
by our capstone service concept, Expeditionary Force 21 (EF-21). 
Working with our naval partners, we are aggressively exploring the 
feasibility of future and existing sea based platforms to enhance the 
connector capabilities of our LCACs and LCUs. We have a need to modify 
traditional employment methods and augment amphibious warships by 
adapting other vessels for sea-based littoral operations. Maritime 
Prepositioning Ship squadrons have one Maritime Landing Platform (MLP) 
that is effectively a ``pier in the ocean.'' These ships can move pre-
positioned war reserves into theater and serve as afloat staging bases 
to receive and transfer equipment and supplies as part of an integrated 
MAGTF or regionally oriented MEB. The end-state is a ``family of 
systems'' designed to enhance mobility, interoperability, 
survivability, and independent operational capabilities to further 
enhance sea basing and littoral maneuver capabilities well into the 
21st Century. The Marine Corps will continue to work closely with the 
Navy to implement the 30-year ship building plan and to address the 
current readiness challenges of the amphibious fleet.
    The continued development of Information Warfare and Command and 
Control capabilities are also required for the Marine Corps to operate 
against increasingly sophisticated adversaries. This requires 
investments in interoperable combat operations centers. We are 
identifying and developing command and control systems and information 
technology architecture to support operations and ensure our ability to 
maneuver. Framed by service-level concepts like the Navy's Cooperative 
Strategy 21 (CS-21), we will collaborate with the Navy on a Naval 
Operating Concept revision in order to shape future naval campaigning 
and naval expeditionary operations. This concept will include a greater 
Marine Corps contribution to Sea Control operations through 
interoperability with the Navy Composite Warfare Commander (CWC) 
structure in order to disrupt, dismantle and defeat Anti-Access/Area 
Denial (A2/AD) threats and optimize the single naval battle success on 
and from the sea. Since Marines and Special Operations Forces (SOF) 
remain forward deployed, we must create true integration models to 
maximize the capabilities of the sea-based MAGTF, including command and 
control (C2), alongside our SOF partners. The end state is a fully 
integrated and ready Navy and Marine Corps team, trained and resourced 
to support our joint operating concept.
                      modernization and technology
    History has not been kind to militaries that fail to evolve, and 
the change we see in the 21st Century is as rapid and dramatic as the 
world has ever known. That said the Marine Corps' modernization and 
technology initiatives must deliver future capabilities and sustainable 
readiness. Marines will continue working to do what we do today better, 
but equally important, must be willing to consider how these same tasks 
might be done ``differently.'' The Marine Corps must continue to 
develop and evolve the MAGTF, ensuring it is able to operate in all 
warfighting domains. To do so Marines are invigorating experimentation 
of new concepts in order to advance our capabilities.
    We will continue to develop our concepts to take advantage of the 
capabilities of the F-35 Joint Strike Fighter and all of our emerging 
aviation platforms, particularly in regard to sensor fusion and 
electronic warfare. Marines will continue to experiment with and 
exercise new ways to get the most out of the MV-22 and challenge 
previous paradigms in order to provide the most effective MAGTFs to our 
Combatant Commanders.
    We will establish and define, in doctrine, our distributed 
operations capability in our MAGTFs by the end of fiscal year 2016. 
With distributed capabilities, we must also ensure our forces are not 
constrained at the littoral seams between Combatant Commanders. You can 
also expect the Marine Corps to continue to pursue technologies that 
enhance our warfighting capabilities such as unmanned aerial systems 
(UAS) and robotics, artificial intelligence, 3-D printing, and 
autonomous technologies that provide tactical and operational 
advantage.
    The Marine Corps Warfighting Lab leads our experimentation effort 
to capitalize on existing and emerging technology and MAGTF level 
exercises. In conjunction with our coalition partners, the Navy and 
Marine Corps team has experimented with dispersed sea based SPMAGTFs, 
integrated MAGTFs in Anti-Access/Area Denial environments, incorporated 
emerging digital technologies with aviation platforms and our ground 
forces, and conducted naval integration with interoperable Special 
Operations Forces during Joint Exercises. We will continue to emphasize 
experimentation during our exercises as a way to inform the development 
of distributed doctrine and future operating concepts. Exercises serve 
as a test bed for experimentation as we search for faster, cheaper and 
smarter acquisition processes and programs.
    The following equipment platforms and acquisition initiatives 
require special mention:
Amphibious Combat Vehicle (ACV)
    The ACV is an advanced generation eight-wheeled, amphibious, 
armored personnel carrier that will support expeditionary maneuver 
warfare by enhancing tactical and operational mobility and 
survivability. The Marine Corps plans to procure 694 vehicles: 204 in 
the first increment and 490 in the second increment. Our plan is to 
have our first battalion initially capable in the 4th Quarter of fiscal 
year 2020 and all battalions fully capable by the 4th Quarter of fiscal 
year 2023. Your investment in this program provides the Marine Corps 
with an advanced ship to shore maneuver capability for the Joint Force.
Joint Strike Fighter (F-35)
    The F-35 is a fifth generation fighter that will replace the Marine 
Corps' aging tactical aviation fleet of F/A-18 Hornets, AV-8B Harriers, 
and EA-6B Prowlers. The F-35 will have a transformational impact on 
Marine Corps doctrine as we work to both do what we're doing today 
better and ``differently.'' The Marine Corps plans to procure 420 
aircraft: 353 F-35Bs and 67 F-35Cs. The first F-35B squadron achieved 
initial operating capability in July 2015, and our second squadron will 
become operational in June 2016. The Marine Corps plans to complete its 
F-35 transition by 2031. We believe the Congressional support 
investment in this program will pay significant dividends for the 
capabilities of the Marine Corps and the Joint Force.
CH-53K
    The Marine Corps' CH-53K ``King Stallion'' helicopter will fulfill 
the vertical lift requirement for amphibious and Joint Forcible Entry 
Operations. This CH-53 transition is critical to increasing the 
degraded readiness of the CH-53E community and decreasing the 
platform's operations and maintenance costs. The Marine Corps plans to 
procure 200 aircraft. The program achieved Milestone B in December 
2005. The CH-53K's first flight occurred in October 2015 and our two 
aircraft have flown 25.8 hours.
   command, control, communications, computers and intelligence (c4i)
    The modernization and technology effort of the Marine Corps 
requires an integrated network that is deployable, digitally 
interoperable, and supportive of rapid advancements in technology and 
the evolution of combat capabilities. The Marine Corps Enterprise 
Network (MCEN) establishes a comprehensive framework requiring the 
development of command and control architecture to simplify and enable 
operating forces to use services in a deployed environment. The 
priority is to provide worldwide access to MCEN services from any base, 
post, camp, station network, tactical network and approved remote 
access connection. Our goal is to provide an agile command and control 
capability with the right data, at the right place, at the right time.
    Digital Interoperability (DI) is the effective integration of 
Marines, systems, and exchange of data, across all domains and networks 
throughout the MAGTF, Naval, Joint, and Coalition Forces, to include 
degraded or denied environments, in order to rapidly share information. 
This is a vital step in linking the MAGTF and the Joint Force to get 
the vast amount of information collected on all platforms into the 
hands of the warfighters that need it; in the air, on the ground and at 
sea.
    The Marine Corps' goal is to retain our tactical advantage across 
the range of military operations with today's and tomorrow's systems. 
Our end state is to field and operationalize ongoing programs and 
continue to develop solutions that will enhance institutional 
capabilities and retain our tactical advantage across the ROMO.
                             our challenges
    The character of the 21st Century is rapid evolution. Our potential 
adversaries have not stood still, and it is imperative that we keep 
pace with change. Two years ago, the 35th Commandant, came before 
Congress and testified that:
    ``...the 36th Commandant will reach a point, probably 2 years from 
now, where he's going to have to take a look at that readiness level 
and say, I'm going to have to lower that so that I can get back into 
these facilities that I can't ignore, my training ranges that I can't 
ignore, and the modernization that I'm going to have to do eventually. 
Otherwise we'll end up with an old Marine Corps that's out of date.'' 
\1\
---------------------------------------------------------------------------
    \1\ Gen Amos. Posture of the United States Marine Corps. CMC, March 
2014.
---------------------------------------------------------------------------
    This is where we find ourselves today. The Marine Corps is no 
longer in a position to generate current readiness and reset our 
equipment, while sustaining our facilities, and modernizing to ensure 
our future readiness. The efforts of the 114th Congress have provided 
sufficient resources to support the Marine Corps' near-term readiness 
and we thank the Congress for this fiscal stability. However, PB17 
increasingly stretches the Nation's Ready Force. We are deploying 
combat ready-forces at a rate comparable to the height of our 
commitment to Operations IRAQI FREEDOM and ENDURING FREEDOM; we are 
facing future facilities challenges as we try to sustain our current 
installations; and we are struggling to keep pace as our potential 
adversaries rapidly modernize. This is not healthy for your Marine 
Corps or for the security of our Nation.
    The Marine Corps is now on its way down to 182,000 Marines by the 
end of fiscal year 2016. Although our recruiting force continues to 
meet our recruiting goals we are challenged to retain certain 
occupational fields like infantry and aviation. The 21st Century 
demands capabilities in 5th Generation Fighter Aircraft (F-35), Cyber 
Warfare, Information Operations, Special Operations, Embassy Security 
Guards, and the Security Cooperation Group that advises and assists our 
allies and partner nations. The Marine Corps must continue to develop 
and retain these capabilities with quality Marines.
    In last year's fiscal year 2015 budget we were compelled, due to 
fiscal pressures, to limit and reduce training for our operating 
forces. In this year's fiscal year 2016 budget our operation and 
maintenance funding was further reduced by 5.6 percent. This reduction 
has been carried forward into our fiscal year 2017 budget. Two years of 
fiscally constrained operation and maintenance funds will force us to 
employ a prioritized readiness model for our deploying forces and 
prevents us from our desired readiness recovery, both in operational 
training and facilities sustainment. This means the Marine Corps will 
not have as deep and as ready a bench to draw from for a major 
contingency.
    Modernization is future readiness. The recapitalization of our 
force is essential to our future readiness with investments in ground 
combat vehicles, aviation, command and control, and digitally 
interoperable protected networks. We have important combat programs 
under development that need your continued support. The Amphibious 
Combat Vehicle (ACV) will replace our Amphibious Assault Vehicle (AAV), 
which is now over four decades old. The Joint Strike Fighter will not 
only replace three aging platforms, but provides transformational 
warfighting capabilities for the future. Our ground combat vehicles 
like the Light Armored Vehicle (LAV) have an average age of 33 years 
and our M1A1 tanks have an average age of 26 years. The Marine Corps is 
grateful for Congress' support of our wartime acquisition and reset 
efforts of the MRAP, HMMWV, and the contracting of the Joint Light 
Tactical Vehicle (JLTV). In summary, the increasingly lean budgets of 
fiscal year 2016 and fiscal year 2017 will provide increased readiness 
challenges and cause shortfalls in key areas. This reality will force 
tradeoffs.
                               conclusion
      ``One fact is etched with clarity; the Marine Corps, because of 
        its readiness to fight, will have a vital role in any future 
        war.'' \2\ Senator Mike Mansfield
---------------------------------------------------------------------------
    \2\ Hon. Mansfield. Fixing the Personnel Strength of the United 
States Marine Corps, Adding the Commandant of the Marine Corps as a 
Member of the Joint Chiefs of Staff. 82nd Congress, 1st Session, House 
of Representatives, HR 82-666, 30 June 1951.

    Marines will continue to meet the high standards the American 
people have set for us. As responsible stewards of the Nation's 
resources, the Marine Corps remains committed to its auditability in 
order to provide the best Marine Corps the Nation can afford. We will 
therefore continue to produce highly trained Marines, formed into 
combat-ready forces, and provide the capabilities the Joint Force 
requires. The wisdom of the 82nd Congress as reaffirmed by the 114th 
Congress remains valid today--the vital need of a strong force-in-
readiness. Marines are honored to serve in this role.
    Marines are innovators and the history of the Marine Corps is 
replete with examples of innovation out of necessity. With the 
continued support of Congress, the Marine Corps will maintain ready 
forces today and modernize to generate readiness in the future because 
when the Nation calls, Marines answer and advance to contact.

    Senator Cochran. Thank you very much, General.
    We now call on Senator Durbin, the Senator from Illinois 
for any questions he may have of the panel.
    Senator Durbin. Thanks very much, Mr. Chairman.
    And thanks to all of you, again.
    General, the first conversation or the one we had recently 
was a sad conversation because you were recounting the loss of 
12 Marines in a helicopter incident off the coast of Hawaii. 
And we talked about it at some length and it left, had a 
lasting impression on me because it appeared that this was, 
sadly, not an isolated situation.
    And so I've tried to look into it a little more and to 
understand it a little more and to really understand what the 
subcommittee's responsibility is when it comes to a tragedy 
like this.
    And so I'd like to say a few things and then ask you and 
the Secretary, if he'd like, to comment on them.
    Twelve Marines were lost on January 14th when two Marine 
CH-53E helicopters collided off the coast of Hawaii. A little 
research tells me that those were training missions and that 
half the crew on each of those aircraft were well seasoned, 
veterans, instructors and the other half, of course, learning 
in the process. It was an experiment or I should say, a mission 
at night and might have involved night vision equipment.
    There was some relief of command before that incident, 
several days before, but I don't want to dwell on that 
particular issue. I'll leave that to you as to whether it's 
significant.
    The reason I raise this issue now is that it turns out this 
was not an isolated incident.
    Last September a similar helicopter crash at Camp Lejeune 
killed one Marine and injured another. Between May of 2014 and 
that accident in September of last year, 18 Marines were killed 
in 13 separate incidents. Aviation deaths in the U.S. Marine 
Corps, fixed wing, helicopters and Ospreys, have reached a 5-
year high.
    Now there have been analyses of these. I'm welcoming yours. 
One of them was from a Retired Commander, Chris Harmer, who was 
quoted in the Marine Times.
    And when he was asked he said that, ``Maintenance flight 
hours and the effect on overall safety are concerns often cited 
by military leaders in the face of deep budget cuts by 
Congress. Reduced flight time leads to increased deaths from 
helicopter crashes.''
    He said if you lose currency it's extremely difficult to 
regain it. And he noted there was a 30 percent cut in O and M 
in the military between 2012 and 2016.

                           AVIATION READINESS

    The reason I want to bring this home is because this is a 
trend which I know you are dedicated to stopping in terms of 
the incidents that have occurred. But I want to find out what 
we are doing. When we talk about increasing procurement and 
such, I'm all for that, but if our budget is not designed to 
prepare for readiness to protect the lives of the Marines, the 
Sailors and others, then we are falling far short of our 
responsibility.
    This incident brought it to mind and I invite your 
response.
    General Neller. Well Senator, I appreciate the comment. And 
we did share our discussion about the tragic event and the loss 
of these 12 Marines and we still mourn their loss.
    Just an update, the Air Mishap Board is still trying to 
recover all the pieces of the plane and more importantly, all 
the remains because of the weather and the depth. They were at 
a certain depth where we have to use robotics. And they're on 
the North Shore Hawaii which is, this time of year, is big 
waves and swells. And so there's a salvage ship there and then 
challenged to be able to get out there and do their business. 
But we'll stay out until we can get to the bottom of what 
happened.
    In general, across the Marine Corps aviation enterprise we 
have challenges. Every type model series is a little bit 
different. I would say the CH-53 community is probably, right 
now, the most challenged because of a variety of reasons, 
available aircrafts, uncertain maintenance issues that go back 
to a Navy MH-53 accident 3 years ago this past January.
    So it's a maintenance issue. And when you don't have enough 
airplanes to fly then your flight hours go down and it becomes 
difficult to maintain your currency.
    So in this case it's a parts and repair issue.
    We're also in the middle of recapitalizing or changing out 
every type model series that we have in our aircraft. The 53 
will be the last. It will be replaced by the CH-53K which is in 
our test and development right now. There's two prototypes that 
have flown over 25 hours.
    But that airplane, by the time, assuming it all goes on 
track, we won't start to see that for several years.
    So right now we've got to rebuild the readiness of the 53 
fleet. That's partly getting better parts support, getting 
these aircraft back in the depot, the reset that we might have 
done after 15 years of war. We probably kept them in the 
theater a little bit too long.
    But each of these type model series has a different story. 
Fixed wing aviation is, kind of, at the bottom of where it is.
    Last week the Chief of Naval Operations(CNO) and I went to 
the Fleet Readiness Center out in San Diego and they're 
increasing their output because they have the funding, we have 
stability. Part of that process was interrupted by 
sequestration and government shut down and the workforce got 
disrupted. And they've improved their process.
    So there's a whole series of things that go into this. And 
we have a plan and we believe we have sufficient funding to do 
that. It's just not going to happen overnight.
    So a combination of fielding new aircraft, more rapid 
procurement, getting the depots to get more throughput, 
increasing our parts support, then we get more ready basic 
aircraft on the flight line and we increase our hours.
    Senator Durbin. I'm going to yield because my time is up. 
But what I'm looking--and I'll follow up with you and the 
Secretary.
    I want to make sure that as we look at the next year's 
budget that we are digging ourselves out of this hole. It is a 
hole created by budget cuts by this Congress which has, 
obviously, endangered the lives of men and women who are 
serving our Nation. We don't want that to occur. So I'll be in 
touch with you as we follow through.
    Senator Cochran. Thank you, Senator.
    Senator Collins, the Senator from Maine, is recognized.
    Senator Collins. Thank you very much, Mr. Chairman.
    Mr. Secretary, let me begin by thanking you for your 
extraordinary service. I'm aware that you are the longest 
serving Naval Secretary, I believe, since World War I and that 
is, bespeaks of your commitment to your country and to the 
Department of the Navy and its personnel. And I just want to 
begin by thanking you for that and recognizing that record.
    I believe that your record of bolstering our Naval Fleet 
will be one of your greatest legacies. Congress supported your 
efforts to reverse the decline in shipbuilding. And Senator 
Cochran and Senator Durbin have been absolutely instrumental in 
providing leadership in that area.
    Last year the Senate Arms Services Committee and the 
Defense Authorization bill authorized an additional DDG-51 
destroyer and this Committee appropriated a billion dollars 
which is about two-thirds of its cost to try to help bridge the 
gap between what our combatant commanders say that we need and 
what we have.
    I was looking at a map of where our ships are deployed 
today in light of your wonderful quote from George Washington. 
And the fact is they're everywhere. And as you said there is no 
substitute for presence in our ability to project power.

                          DDG-51 SHIPBUILDING

    Senator King and I sent a letter a few weeks ago urging the 
Navy to include the balance of the funding for the third DDG-51 
on the Navy's unfunded priorities list because the ship is 
needed to fulfill Naval missions.
    So I recognize that it's not the remaining one-third of 
funding is not in the President's budget but could you please 
describe how you would prioritize the need for this ship, its 
importance to the fleet and your plans for getting it under 
contract?
    Mr. Mabus. Well first Senator, thank you and thank the 
Committee for all the courtesies you all have shown to me. 
Appearing before a Committee chaired by my fellow 
Mississippian, who I admire greatly, has been one of the true 
pleasures of this job.
    And thank you for the authorization and particularly for 
the appropriation, the incremental funding, of this additional 
DDG-51. The DDG-51, as you know, is one of the backbones of our 
fleet, brings amazing capability, particularly the ones we're 
building now. And there is a mechanical reason why the rest of 
the funding was not in the President's budget and that is that 
the 2016 budget got passed by Congress after our budget locked 
at the Pentagon.
    It is on our unfunded priorities list, the remaining funds, 
about 400, a little over $400 million is on our unfunded 
priorities list. We think this is one of the very top 
priorities, so you know and I do. And we look forward to 
working with you to figure out how to get this money so that we 
can get the ship under contract in, it's a 2016 ship and not a 
future ship.

                            SOUTH CHINA SEA

    Senator Collins. Thank you very much.
    Admiral Richardson, I've been very concerned about the 
build-up of the Chinese Navy. This is a real issue that 
concerns me as China has been more and more aggressive.
    A recent study by the Center for Strategic and 
International Studies found that by the year 2030 the South 
China Sea will, they describe it as becoming virtually a 
Chinese lake as China builds a modern and regionally powerful 
Navy.
    Are you concerned that China will be able to challenge our 
ability to achieve and maintain control of blue water ocean 
areas including the Asia Pacific region?
    Admiral Richardson. Senator, thank you for that question 
and thank you for your support and the support of everybody in 
Maine to build and maintain our ships in both Bath and the 
Portsmouth Naval shipyard there. It's absolutely fantastic.
    Senator Collins. Thank you for visiting.
    Admiral Richardson. Yes, ma'am.
    And that, you know, that effort relates directly to our 
ability to counter these sorts of activities by the Chinese in 
the South China Sea. And it is undeniable now that they have 
moved towards militarization of some of those outposts with the 
installment of radars, aircraft, you know, and surface to air 
missiles.
    The President on down has maintained our commitment that we 
will keep those maritime lanes open. And we have, we continue 
to advocate and endorse for that system of rules and norms of 
behavior that have allowed us to prosper in the last 70 years 
and indeed have allowed everybody in that region to prosper. 
It's an ordered system but it's open architecture where 
everybody can participate.
    And we will, you know, I work very closely with Admiral 
Harris and Admiral Swift, our commanders in the Pacific, to 
make sure that they have all of the options that they need to 
counter that, that our decision makers have all of the options 
that they need to make sure that we can continue to sail, fly 
and operate everywhere that international law allows.
    As you pointed out, ma'am, an incredibly important part of 
the world, about 30 percent of the world's trade goes through 
the South China Sea. We absolutely need to maintain those sea 
lanes open.
    Senator Collins. Thank you.
    Thank you, Mr. Chairman.

                         OHIO-CLASS REPLACEMENT

    Senator Cochran. Thank you, Senator.
    I now recognize the Senator from Rhode Island, Mr. Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Gentlemen, thank you for your service to the Nation and to 
the Navy and to the Marine Corps.
    And Mr. Secretary, your top priority, as I've heard you and 
Admiral Richardson talk about, is the Ohio-class replacement 
ballistic missile submarine. And you point out in your 
testimony, Mr. Secretary, that back in the 50s when we were 
beginning to deploy our strategic deterrence the 41 for freedom 
slogan was used and there was relief from the top line, 
basically, so that you could carry out this national objective, 
not just a Navy program, but a national deterrence program.
    A complement to that is what we've tried to do here in the 
Congress with the creation of the National Sea-Based Deterrence 
Fund which would help direct DOD resources in the construction 
of the Ohio-class submarine.
    Could you give us an idea of one, the need and also how you 
would use these funds?
    Mr. Mabus. Thank you, Senator.
    The need is very clear. And we've been testifying about 
that. I've had the privilege of serving with three great chiefs 
of Naval operations. And all of us said that when the Ohio-
class replacement begins to be built, which it will be in 2021, 
you know, that we have to have some relief on that because 
otherwise other Navy programs would just be gutted including 
attack submarines which and we've got to have these others.
    And as you pointed out it's a national mission.
    And we are deeply appreciative of the establishment of the 
National Sea-Based Deterrence Fund. That fund has all the 
authorities that we would need to use those funds for the Ohio-
class replacement and not only 41 for freedom added money, but 
also the Ohio class, you know, when it was being built in the 
late 70s through the early 90s, added money there as well.
    And so we would have everything we would need to fund these 
submarines. And as you know, the first one, which starts in 
2021, we, Navy, has funded all the engineering, all the 
research and development, everything coming up to that. And 
we're funding about a billion and a half in 2021. OMB put in 
another $2.3 billion in order to incrementally fund that first 
boat.
    But 2022, 2023 and then we will have 12 of these boats over 
the next 15 years. And finding that national source of funding 
and the appropriate mechanism, I think, is one of the most 
important things that we and you will do together.
    Senator Reed. I would.
    It also strikes me as this would be the model that would be 
used as the other services, principally the Air Force, replaces 
their penetrating bomber and also the ground based missile 
systems as we have to, basically, reinvigorate our entire 
triad. And Navy is first because this submarine is ready to go 
but succeeding that will be, I think, the same issue when it 
comes to the Department of the Air Force, particularly.
    So I think this is something that as a long term program 
that we have to support. I hope we do.
    One of the things that you've been able to do in the 
submarine program and I give you a great deal of credit, you 
and Admiral Richardson have processed this particularly is make 
them probably the best value, if you will, in the shipbuilding 
program. I'm somewhat parochial about this, but in terms of 
ahead of schedule, below budget on each succeeding ship, 
techniques that are learned and are being applied.
    And just briefly can you comment, Admiral Richardson, about 
how this is going to help, indeed control, we hope, the cost of 
the Ohio and make it not only the best system in the world, but 
the most affordable system?

                         OHIO-CLASS REPLACEMENT

    Admiral Richardson. Yes, Sir, happy to do that.
    Just as with Virginia, the first step in getting the Ohio 
Replacement Program disciplined and under control is making 
sure that we've got the requirements strictly defined and that 
those are a fixed thing. And we are there.
    We've spent a lot of time, particularly this past year in 
not only making sure that we understand the requirements, but 
also the capacity of the industrial base. And so, you know, I 
want to bring you, the Congress, a program that has all the 
elements in place for, essentially, a block buy of that entire 
class. Now whether we decide to do it that way or not, is one 
thing, but in terms of the technical risk, the industrial 
stability and the strategic environment, all of those elements 
I want to have in place.
    What has enabled us to get to that level of success in the 
Virginia program is one, that block buy strategy. And that 
allows the industrial base to have the confidence that we are 
there for the long term. They can make the capital investments 
and streamline their production program so that they can wring 
out every measure of efficiency and get on that learning curve 
and drive costs down in every way.
    That shipbuilding team is remarkable. It is a partnership 
between the government and them in terms of driving that cost 
down. You just have to visit the facility in Quonset to hear 
them talk about how they're driving costs out of the submarine 
at every step of the way.
    We're going to leverage all of those lessons as we start 
the Ohio Replacement Program. And we'll make sure that that 
ship delivers on the projected cost and is suitable for the 
foreseeable future.
    Senator Reed. Thank you.
    I think a very core concept point is in Rhode Island. I 
recall.
    Admiral Richardson. Sir, I don't think you've got that 
geography right.
    Senator Cochran. Senator's time has expired.
    The distinguished Senator from South Carolina, Mr. Graham.

                           MILITARY READINESS

    Senator Graham. Thank you, Mr. Chairman.
    I want to put a plug in for the Portsmouth Naval shipyard.
    I went there. It's awesome.
    Senator Collins. Thank you.
    Senator Graham. You're welcome, well-earned compliment.
    Secretary Mabus, thank you for years of service. It's been 
quite a ride for you. I really appreciate for what you've done 
for the country.
    Admiral, have you ever seen more threats to the homeland 
than today, since you've been in the military?
    Admiral Richardson. You'd have to go back to the Cold War 
and the Soviet Union, sir, to see anything that compares today.
    Senator Graham. Okay.
    What about you, General?
    General Neller. No. I'd say this is the most unstable 
security environment I've observed.
    Senator Graham. In the last 5 years has the optempo of the 
Marine Corps been high?
    General Neller. Yes, sir.
    Senator Graham. Has the budget been cut?
    General Neller. It has.
    Senator Graham. Have we put people at risk by doing that?
    General Neller. The four deployed forces, I'm confident, 
are prepared to do their mission. But if we had to go further 
into the bench those that are getting ready or that have just 
come back, there would be risk.
    Senator Graham. What about those who are training back here 
at home?
    General Neller. The ones that are getting ready to go, 
Senator, I'm confident that they're able to get ready. But 
there is some reduction in their ability when we're still 
working on some of the gear and some of the modernization.
    Senator Graham. Here's what you said about aviation 
readiness. It's really my number one concern. You said this 
yesterday.
    ``We don't have enough airplanes that we would call ready 
basic aircraft. That means we're not getting enough flight 
hours.''
    Is that accurate?
    General Neller. Yes, sir.
    Senator Graham. Don't you think that's putting people at 
risk?
    General Neller. If those forces had to deploy they would be 
at risk, yes.
    Senator Graham. Even for training?
    General Neller. Part of the getting ready is the training. 
So we have a challenge.
    Senator Graham. You're in a dangerous business even in 
peacetime.
    General Neller. It's always a dangerous business, 
especially flying our----
    Senator Graham. I hope that Committee understands that.
    And I want to complement the Chairman and the Vice 
Chairman. You're trying to help. But we really are putting 
people's lives at risk, I think. That's just my personal 
opinion.
    Admiral, when it comes to the Navy, what's the optimum 
number of ships that we should have given the threats we face?
    Admiral Richardson. So I'll tell you that the force 
structure assessment, our current best estimate of that is 308 
ships. And we're going to reach that by fiscal year 2021.
    Senator Graham. No, what's the optimum number?
    Admiral Richardson. Senator, I'll tell you that that 
analysis is from 2012, before we did--when we did that analysis 
Russia had not started to----
    Senator Graham. Has that number changed?
    Admiral Richardson. Pardon me, sir?
    Senator Graham. Has that number changed based on what China 
and Russia has done?

                           MILITARY READINESS

    Admiral Richardson. We've commissioned another assessment 
of the force structures.
    Senator Graham. When will we know about this?
    Admiral Richardson. It will be done this year. So we're 
stepping on the gas to get through this. And you know, given 
that----
    Senator Graham. Your best guess is that the assessment will 
say we need more ships, don't you think?
    Admiral Richardson. Yes, sir.
    Senator Graham. Okay.
    Mr. Secretary, you said we're going to go to--318 by 2021. 
Is that correct?
    Mr. Mabus. No, 308, Senator.
    Senator Graham. I'm sorry, 308.
    Mr. Mabus. Yes.
    Senator Graham. By 2021?
    Mr. Mabus. Yes.
    Senator Graham. What if sequestration goes back in effect? 
Is that still the same?
    Mr. Mabus. If sequestration goes--well, we will get to 308 
ships by 2021. They're still under the ships we have under 
contract today, the ships that have been authorized and 
appropriated.
    Senator Graham. But if----
    Mr. Mabus. Now what we're talking about, I'm sorry, what 
we're talking about is what the fleet looks like past that.
    Senator Graham. But what I'm talking about is sequestration 
goes back into effect you're still going to build the ships to 
308, right?
    Mr. Mabus. We will still build the ships to 308 but the 
fleet, past that, would decline precipitously.
    Senator Graham. So what gives?
    If sequestration goes back into effect somethings got to 
give.
    Mr. Mabus. Oh, every program gives. And even the 
shipbuilding programs that the ships are under contract would 
be at risk.
    Senator Graham. So the ships are at risk and those who man 
the ships would be at risk.
    Mr. Mabus. I think sequestration puts every program at 
risk. It puts everything we do at risk.
    Senator Graham. Does the Marines? Do you agree with that? 
That if we go back to sequestration you're going to make it 
very difficult for the Marine Corps?
    General Neller. I do, Senator.
    Senator Graham. For the Navy?
    Admiral Richardson. Senator, I'll tell you the first thing 
that will go is that bench, the readiness. Those are the 
accounts they get.
    Senator Graham. As the threats go up our readiness and our 
bench goes down.
    Admiral Richardson. It's not a good trend.
    Senator Graham. Okay.
    If you captured somebody tomorrow in the Marine Corps who 
is a high value target in the war on terror? What would you do 
with them, General?
    General Neller. Well right now based on their status as a 
combatant, if they were a non-combatant or they----
    Senator Graham. No, a high level, ISIL person, enemy 
combatant. What would you do with them?
    General Neller. It would be a policy decision. But we'd 
have to have someplace to detain him. We'd have to have 
somewhere----
    Senator Graham. Do you know where that place is?
    General Neller. Right now it's Guantanamo.
    Senator Graham. Okay.
    Can you use Guantanamo?
    General Neller. Sir, I don't know the answer to that.
    Senator Graham. I do. The answer is no.
    Admiral, what would the Navy do?
    Admiral Richardson. It would be in the same position, sir.
    Senator Graham. So you really don't have a plan?
    Admiral Richardson. From my perspective----
    Senator Graham. Could you use Guantanamo Bay?
    Admiral Richardson. Sir, you made it clear that the answer 
to that is no.
    Senator Graham. Okay. Thank you both.
    Thank you all for your service.
    Senator Cochran. Thank you, Senator.
    The distinguished Senator from Montana, Mr. Daines.
    Senator Daines. Thank you, Mr. Chairman.
    To follow up on Senator Graham's comments, by the way, on 
Guantanamo. I was there Monday.
    Two things.
    Very, very proud of the men and women delivering that 
mission in Guantanamo Bay.
    And number two, there's plenty of vacancies available down 
there that we should be putting these enemy combatants there 
and holding them in a very secure and honorable way.
    Secretary Mabus, Admiral Richardson and General Neller, 
thank you. I welcome you here today and thank you for your 
service.
    The Navy and Marine Corps have long been the calling for 
many in Montana including my dad, who was with the 58th Marine 
Corps Rifle Company from 1957 to 1962. They say you don't get 
to pick your daddy. I'm very proud of the one I have.
    Today Montana is home to Marine and Navy personnel. In 
fact, there's a Marine Reserve Unit located just about two 
hours from my hometown of Bozeman. They were activated for 
Operation Iraqi Freedom and most recently deployed on a 
security operation in the Ukraine.
    This Montana Marine Corps Reserve Unit represents the key 
and versatile role you all play as we witness the growing 
threats abroad. With the Marine Corps leading the special 
operations fight against the Islamic State in Operation 
Inherent Resolve and the Navy fueling our pivot to the Asian 
Pacific theater, I'm pleased to have you both represented here 
today.
    In an effort to save time I'll submit many of my questions 
for the record.
    But I want to ask you about the threat of terrorism in two 
places because I'm concerned we may not be paying enough 
attention to it.
    One is Southeast Asia where I spent 5 years professionally 
back in the 90s as well as right here at home.
    For General Neller, last year you told your Marines that 
they would need to prepare for a new and different forms of 
warfare. Following the attacks in Chattanooga we witnessed just 
how vulnerable our service members are right here at home and 
how real the new form of warfare really is. Terrorism is a 
serious threat, not only for our military overseas that are in 
the fight but it can strike anywhere, anytime, of course, here 
in the homeland as well.
    In Montana I was alarmed by the security for our Marine 
Corps Reserve Unit. There was not even a fence protecting them.
    We're requesting $426 million this year for military 
construction. What steps is the Marine Corps taking to enhance 
security for units assigned in local communities versus our 
military installations?

         SECURITY FOR RESERVE CENTERS AND RECRUITING FACILITIES

    General Neller. Well Senator, thanks for the question.
    On the reserve side we've got about 161 reserve centers, I 
and Is, around the country. The majority of them have weapons. 
And so when they're drilling or when there are Marines present 
we have an active cadre there. There is somebody there who is 
armed as long as that's in compliance with the local law.
    The recruiters, we've gone through an increased training. 
The recruiters in Chattanooga managed to get out. I think one 
was wounded but because they were trained and they executed 
their plan, they were able to safely egress the recruiting 
center.
    But there are things we need to do. A lot of it's force 
protection, bullet proof the windows, harden the doors, 
reinforce the training, do a better job of passing information 
using just simple cell phone technology, kind of an Amber Alert 
thing. So all that's in training but there's a money thing.
    And our bill, we estimate for recruiting centers is about 
$44 million. And so we're--it's going to take us some time to 
get to that. But that's where we are and I think, I'm confident 
on our bases and stations that we have.
    They're hiring more law enforcement personnel and have 
reinstituted additional training as far as if someone were to 
get aboard the base that were unauthorized to be bearing a 
firearm.
    Senator Daines. Thank you, General.
    Last week I had the opportunity to question the Army about 
their operations in the Asia Pacific theater and the concerns 
of terrorism in the region. General Milley listed it as number 
three after the rise of China and the instability of North 
Korea.
    Given that the Asia Pacific is historically and currently 
more your area of operation, I'd like to get your perspective.
    The joint task force made up of the Army, Navy and Marine 
personnel began to withdraw in 2014. But this year those same 
terrorist organizations joined together and pledged allegiance 
to the Islamic State. We witnessed the Islamic State strike 
last month in Indonesia, there in Jakarta. Their presence in 
the Asia Pacific is just as clear as it is throughout the 
Middle East.
    For Secretary Mabus, you're requesting $13 billion for the 
Department of Navy in the Asia Pacific theater this year. How 
much did terrorism in the region play a role in establishing 
that amount?
    Mr. Mabus. I can't break out that amount for you, Senator, 
because when we request funds for sending our ships, for 
sending our special forces, for sending Marines to an area we 
do it as a multi-mission, multi-task thing.
    Our Sailors, our Marines, our ships, those, as you pointed 
out, onshore, on special task forces, have to be ready for 
whatever comes over the horizon. And we certainly recognize in 
places like you talked about where, and I've been to visit that 
special task force, the rise of extremism and the fueling of 
extremism and the transit of fighters into other regions and 
Asia Pacific is not alone in that.
    We are also having to deal with that in Africa. We're 
having to deal with it around the world. And it's one of the 
things that we are, particularly with our special forces and 
our Marines on the ground, are training to and our deploying 
ships have to be aware of.
    Senator Daines. Alright. Thank you, Mr. Secretary.
    Senator Cochran. Thank you, Senator.
    Next Senator I recognize is the distinguished Senator from 
Hawaii, Mr. Schatz.
    Senator Schatz. Thank you, Mr. Chairman.
    Secretary Mabus, Admiral Richardson, General Neller, I 
appreciate you being here.
    General Neller, it's good to see you again.
    I'd like to start by discussing our plan for Guam.
    The decision to move Marines was made nearly 20 years ago, 
as you know, in part to support the United States/Japan 
alliance and to specifically address the concerns of the people 
of Okinawa. We've had several iterations of this plan as the 
Department of Defense has cut costs and right sized the number 
of Marines to move to Guam. But today we are 6 to 9 months 
behind constructing the Futenma Replacement Facility and at 
least 2 years behind building up Guam to support Marines and 
their families. And there is a shortage of amphibious lift in 
the theater, as you know.
    With all of these challenges, Admiral Harris recently 
testified that 2025 is probably a more realistic timeframe for 
moving Marines to Guam. And so, I think it's appropriate that 
you're thinking about our plan evolve as the security, 
political and fiscal environment continue to evolve.
    And so my question for you is how much flexibility do you 
have? How nimble are you?
    I'm concerned that we're locked into a plan that may not 
make any sense anymore logistically.
    I understand ironclad bilateral relationship with Japan and 
the commitment that our country made. And I also understand the 
fiscal commitment that the Japanese Government has made. But 
I'm wondering how much flexibility we have to respond to 
circumstances?

                      FUTENMA REPLACEMENT FACILITY

    General Neller. Well Senator, as you stated the whole move 
and the realignment of forces and the approved implantation 
plan was tied to the Futenma Replacement Facility and that's 
delayed, partly due to demonstrators and lack of support by the 
Governor of Okinawa. So, but now that's been dealing to the 
movement to Guam.
    So there's still some environmental issues as far as 
training on Tinian but we're still committed to move to Guam. 
We're taking a look and we believe we have some flexibility as 
to how those forces go there. Are they PCS or do they resend 
unit rotation?
    We do have concerns about our ability to train once we get 
there. And more importantly and this goes for anywhere that we 
go in the Pacific because of the distances, we have concerns 
about the strategic mobility and our ability to move and to go 
to other areas for training.
    So in short, we continue to look at this and adjust on the 
margins. But there's a political decision that says the number 
of Marines are going to be reduced on the Island of Okinawa. 
And so we're still committed to support that and do our part to 
make that happen.
    And as we align the force and we look at Australia, the 
Philippines recently approved a little more flexible 
opportunities for us to train there and do things. So we're 
continuing to look at it but we are behind and I would concur 
with Admiral Harris' assessment that this thing just continues 
to be pushed to the right.
    Senator Schatz. Can you flush out the problem of strategic 
lift in the region specifically, the Guam aspect of this?
    General Neller. Right now there's four amphibious ships 
that are home ported in Sasebo as part of our deployed Naval 
force. They support primarily the 31st MEU which is underway 
right now and headed to Korea for an exercise along with the 
13th MEU off the West Coast.
    So that's primary there. That's their primary mission. So 
as we move the force around whether it be Guam, Australia, the 
Philippines, we've got to be able to move them.
    So as we realign the fleet and the more the fleet goes to 
the Pacific, that will be mitigated to some degree because 
there should be more amphibious ships out there.
    There are other options of, you know, fleet packaging 
whether we use different ships, more commercial type hulls, 
like MPF ships that are Afloat Forward Staging Bases or high 
speed vessels, or even strategic airlift. We have got to be 
able to move off these islands. Guam is, there are some things 
you can do on Guam but you still have to be able to get to 
Tinian. And even though it's a fairly short distance so you 
either have to go by ship or by plane.
    So that's always been the challenge in the Pacific is your 
strategic mobility and as we move the force around it makes it 
a little more challenging.
    Senator Schatz. Thank you.
    And I'll submit a couple of questions for the record about 
the need for additional submarine support and also our need to 
reconsider what we're doing with our under sea tactical 
training ranges, especially at the Pacific missile range 
facility area, Barking Sands on the Island of Kuwai.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator.
    The distinguished Senator from Missouri, Senator Blunt.
    Senator Blunt. Thank you. Thank you, Chairman.
    Admiral Richardson, I want to talk a little bit about 
aircrafts. I know that your predecessor had real concerns about 
how we were managing our tactical aviation shortfall. I think 
Secretary Carter has also expressed some concerns, Secretary 
Mabus, to you about that topic. And I'm sure others as well but 
I did notice that one.
    And I saw--I'm grateful that the Navy has added two Super 
Hornets in fiscal year 2017 and 2014 and 2018. So I mean that 
that would happen in 2018. It's also added money to try to 
extend the lifetime of that fleet too, from 6,000 hours to 
9,000 hours.
    One, your sense of whether extending the life is what is 
the best thing to do here.
    And another, how many Super Hornets do you think the Navy 
needs to support the fleet?
    And how many do you have?
    Admiral Richardson. Senator, I'll get back to you with the 
exact numbers, let you know the total buy for aircraft.
    [The information follows:]

    The funded F/A-18E/F procurement objective is 568 aircraft; 562 of 
which have been delivered. However, the Navy's Super Hornet fleet does 
not have enough service life remaining to meet operational requirements 
into the 2030s as planned. Therefore, the F/A-18E/F service life 
extension program is a vital mitigation step, and frankly a good 
business decision, to reduce risk in the Navy's Strike Fighter 
Inventory Management strategy.
    To alleviate overutilization challenges with the existing Super 
Hornet fleet and decrease risk in the F/A-18E/F service life extension 
plan, the Navy requires an additional two to three operational 
squadrons of F/A-18E/F aircraft. The aircraft authorized and 
appropriated in fiscal year 2016 combined with those included in 
President's Budget 2017 begin to narrow the gap between inventory 
capacity and demand. The Navy continues to evaluate all available 
options to meet the total requirement necessary to achieve a 
sustainable service life extension program and support the current 
force structure.

                        STRIKE FIGHTER INVENTORY

    Admiral Richardson. Yet right now we're in the position 
where I'll just address the Strike Fighter inventory problem, a 
writ large, if you will. And it's really, kind of, a three 
vector approach that we are using to reconstitute our Strike 
Fighter inventory and increase the number of ready basic 
aircraft.
    One is that we were recovering from the depot backlog of 
the Legacy Hornets. And so, you know, that backlog came about 
for a number of reasons.
    One, we discovered some maintenance areas on the aircraft 
that we didn't expect. And so we had a bigger job on our hands.
    And then the impact of sequestration, hiring freezes, those 
sorts of things, also slowed that down.
    But we are, right now, hiring artisans to improve the 
throughput of our depots.
    We've also brought on some private sector help in Boeing 
and L3 to help us increase the throughput. And the 2017 budget 
funds that aviation depot at pretty much the maximum capacity 
that they can put things through.
    So part of our program is to get those aircraft through 
their depot period.
    Because those aircraft are backed up, the Legacy Hornets, 
we've been flying the Super Hornet more to maintain the 
readiness of our pilots. And so those aircraft are getting the 
end of life faster. And so, as you pointed out, we've got a 
request in both 2017 and 2018 to buy some Super Hornets to make 
up for those losses and that increased use of that aircraft.
    The buy in 2017, we expect, could be supplemented by some 
foreign sales as well. And if not, you know, just below the cut 
line on our unfunded list would be a buy to keep that----
    Senator Blunt. That line open.
    Admiral Richardson. That line open, yes, sir.
    Senator Blunt. Let me ask another question here.
    Do you still believe, as your predecessor did, that the 
Growler, which is that same airplane differently equipped, is 
likely to be a long term part of any flying package because of 
its disruptive capabilities?
    Admiral Richardson. Absolutely. It's part of getting our 
aircraft into the fifth generation of warfare.
    Senator Blunt. I have one final question. I might have a 
couple more for the record. But I have one final question for 
both General Neller and the Admiral, Admiral Richardson.
    So Senator Gillibrand and I introduced some legislation 
last year called the Military Families Stability Act which 
would just provide more flexibility for families who need to 
move early or stay a little bit later for work or educational 
reasons.

                    MILITARY FAMILIES STABILITY ACT

    I know that both of you, as many other people will argue 
forever, that the strength of the military is the families of 
the military. And as more families have, more spouses have, 
professional obligations what happens to them also matters, I 
think, as to whether or not people stay in the military, 
whether people could, whether you could move your kids a month 
earlier or keep them in a school a month later while the 
serviceperson, first of all, would look at any available single 
Sailor ability on the new post.
    And I just wonder if either of you have either a personal 
sense of when this might have made a big difference in your 
career or how you feel about looking at families and the 
professional spouse different and a working spouse, different 
than perhaps we were, we did, in the past.
    General.
    General Neller. Senator, I think we all recognize that the 
situation we have with our families is different than what it 
was 10 or 15 years ago. And that the spouse may have a career. 
And so we try our very, very best to work with every service 
member, every Marine, to ensure that we take that into account.
    There are some difficulties with that, particularly if 
they're living on base housing. Living out in town they have a 
lot more flexibility.
    And we also are looking at that, do we really need to move 
people to the degree and to the rate that we move them because 
it costs us money. That said, there's an advantage to having 
Marines go and see different parts of the Marine Corps as 
opposed to staying in one single, geographical area.
    So there's a balance there. But I can tell you we are very 
conscious of working with every Marine and their families and 
try to do what's right by them because we want them to stay. 
And so we continue to work on that.
    And as part of my discussion with our staff is that, you 
know, we don't need to move people just to move people. And if 
there's a way to keep people in a certain location longer 
that's going to be more cost effective and beneficial to the 
family than we certainly need to take a look at that.
    Senator Blunt. Admiral.
    Admiral Richardson. Sir, we've moved 21 times in our 33-
year career, you know, with five kids and my wife is piling up 
the score for sainthood.
    The family dynamic has changed. There's just a lot more 
working spouses than there were when we first got into this. 
That's just the facts of the matter.
    I agree with General Neller's approach. We are taking, 
really, a comprehensive approach to this dynamic because, well, 
a move of any type is disruptive to a family. And if we can 
minimize the amount of moves and let people pursue their 
careers with fewer moves then that would be something that we'd 
be looking at very hard.
    I very much appreciate your interest in making sure that we 
make that transition as smooth as possible and looking forward 
to working with you to get into the details of that and 
particularly addressing this new dynamic of working spouses.
    Senator Blunt. Alright.
    Thank you, Chairman.
    Senator Cochran. Thank you very much, Senator.
    Let me ask you one question about shipbuilding, and that 
doesn't come as any surprise to know that is an interest of 
ours in Mississippi. We have some shipbuilders in the Gulf 
Coast area that are very important. And I know the Commandant 
has made comments about the possibilities of accelerating some 
contracts.
    To what extent do you think we can do that within the 
constraints of the budget or whether that's a good strategy or 
not?
    Mr. Secretary, I don't suppose you could?
    Mr. Mabus. Senator, thanks to this Committee, thanks to 
Congress, we got the 12th LPD, LPD 28, which will be a bridge 
between the LPD line and the replacement for the LSD, the LRX.
    Because we've made the decision to build it on the same 
hull form we think we can build these faster, cheaper and get 
them to the Marines faster because they need this additional 
amphibious shipping.
    And so the quality of work that's coming out of Pascagoula 
and your neighbor in Mobile, the types of ships are the types 
that we desperately need. And included in this budget as well 
is a request for funding for the next big deck Amfil, LHA-8, 
which would also--our Marines and Navy is in high demand for 
amphibious ready group exercises and because it can take 
aircraft up through and including the F35.
    Admiral Richardson. Sir, if I could just add on to the 
Secretary's points.
    You know, that is a magnificent capability down there at 
Ingalls. I had a chance to visit there. Those are also workers 
that are hungry to drive every bit of cost out of the program 
and are just magnificent. And the degree to which they've 
recovered from Katrina is astounding and in a tale of heroism 
and perseverance.
    The only thing that I would say is that we've learned, 
sometimes the hard way, that it's absolutely critical to get 
the design of the ship complete before we start building. If we 
don't get that right then it's just going to impact the cost 
and schedule in ways that we don't want to see. And so we need 
to just make sure that as we think about accelerating these 
programs, we accelerate the design and that part of it so that 
we're ready to build with a complete design.
    Senator Cochran. Thank you.
    Senator Blunt. Mr. Chairman.
    Senator Cochran. The Senator from Missouri.
    Senator Blunt. With the time I have another question or two 
I'd like to follow up on on the issue of tactical aviation with 
Secretary Mabus.
    I know that, I think, that Secretary Carter expressed in 
December of 2015 his concern on this topic. I would hope that 
if the foreign military sales don't develop the way we think 
they're going to that we can continue to watch that and do 
whatever is necessary to keep that line open, particularly 
since you anticipate 14 planes next year and if I understood 
Admiral Richardson right, we'll see that near the top of the 
list of unfunded priorities for this year.
    And any other thoughts you might have about the Growler and 
how it becomes part of any flying package.
    Mr. Mabus. Senator, the continuation of that line is one of 
the critical things for our tactical aviation inventory. The 
profile, as you noted, in the budget is two for fiscal year 
2017 and 2014 for fiscal year 2018. As the CNO said that that 
profile presupposes some foreign sales to keep the line viable 
and going in 2017. If those foreign sales don't materialize 
then, I think, it would be imperative that we move some Super 
Hornets into, more Super Hornets into that.
    And as CNO said, right at the top of our unfunded 
priorities list is an additional 14, not the 14 from the 2018 
budget, but an additional 14 to 17 which would be a total of 16 
going through there.
    Finally, on the Growler, when we finish the current buy we 
will have 160 Growlers in 15 squadrons. That is sufficient to 
do the Navy's part of the electronic warfare.
    But what we're in the process right now of doing is 
studying what the needs are of the joint force because the Navy 
is the only business in town now in electronic attack. And so 
that study will be done in the next few months in terms of are 
the 160 Growlers that we have procured enough to do all the 
electronic missions across the joint force?
    Senator Blunt. So just to verify that my math is right. If 
you had what you've asked for in 2017 and 2018 on the plane 
we're talking about and had the top, one of the top requests on 
the unfunded budget, you'd be looking at 30 planes over the 
next 2 years?
    Mr. Mabus. That's correct.
    Senator Blunt. Thank you, Chairman.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Cochran. Thank you.
    Thank you, Senator Blunt.
    Thank you all for your cooperation with our Committee. 
We've had an excellent hearing. I appreciate very much the 
courtesies and hard work that goes into this review.
    Until then, unless the Senator from Missouri has some 
comments.
    Senator Blunt. Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                 Questions Submitted to Hon. Ray Mabus
             Question Submitted by Senator Susan M. Collins
                            women in combat
    Question. Secretary of Defense Ash Carter recently announced that 
women will have the opportunity, if qualified, to compete for combat 
missions. Secretary Mabus, as I understand it, the Navy is well on its 
way to implementing this policy--women have already been driving ships 
and flying combat aircraft for more than 20 years. What is the timeline 
for fully integrating women into Department of the Navy combat units, 
particularly in the Marine Corps?
    Answer. On March 9, 2016, Secretary Carter approved the final 
Implementation Plans for the Full Integration of Women in the Military 
including the Department of the Navy. Secretary Carter's approval 
enables the execution of both Service plans for integrating women into 
previously closed positions, occupations, specialties, and career 
fields beginning by April 1, 2016. The Marine Corps has already 
notified the 231 women who have successfully completed ground combat 
arms MOS training at formal learning centers they can switch to these 
previously closed jobs immediately if they choose to do so, and both 
the Navy and Marine Corps are beginning the process of recruiting women 
into all recently opened career fields. Full integration into combat 
units will occur over a period time based on the results of the just-
beginning recruiting efforts and follow on MOS training.
                                 ______
                                 
              Questions Submitted by Senator Steve Daines
                                  asia
    Question. Secretary Mabus, you mentioned visiting the Joint Special 
Operations Task Force--Philippines, in the Southern Archipelago region 
of the Philippines. Do you see our commitment to this mission and to 
the Filipino Army as a way to increase our presence in the region 
during the threat of a rising China?
    Answer. Our train-and-assist support to the Armed Forces of the 
Philippines (AFP) was aimed at fighting terrorism, sharing information, 
and conducting joint civil military operations. While Joint Special 
Operations Task Force--Philippines (JSOTF-P) has been disestablished 
since my visit, our partnership with the Filipino security forces has 
been successful in drastically reducing the capabilities of domestic 
and transnational terrorist groups in the Philippines. We continue to 
maintain a Forward Liaison Element (FLE) as our partnership in this 
area evolves.
    Question. Secretary Mabus, what other ways can the US partner with 
the Philippines to show our commitment as China continues to elevate 
tensions in the region?
    Answer. The Department of the Navy is supportive of the Republic of 
the Philippines' efforts to improve its maritime domain awareness (MDA) 
and increase its capability of exercising sovereignty in the face of 
extreme maritime claims. To these ends, the Department of the Navy 
supports:
  --Further Excess Defense Article (EDA) transfers of ex-U.S. Coast 
        Guard high-endurance cutters (WHEC) to the Philippines to 
        bolster their maritime security capabilities.
  --Continued expansion and deepening of our exercise and training 
        program with the Philippine Navy (PN) and Philippine Coast 
        Guard (PCG), planned to exceed 150 activities each year, 
        including: Maritime Patrol Aircraft (MPA) deployments each 
        month, EOD/special forces training, and at-sea exercises (e.g., 
        BALIKITAN) with the PN and PCG focused on improving their 
        operational proficiency.
  --Continuing to expand the Asia-Pacific Intelligence Information 
        Network (APIIN), a secure information exchange network that 
        facilitates information sharing on the South China Sea (SCS) 
        and other issues, to afloat PN vessels in addition to the 21 
        existing shore stations.
  --Enhancing PN's and PCG's Command, Control, Communications, 
        Computers, Intelligence, Surveillance, and Reconnaissance 
        (C4ISR) program with technical assistance and Foreign Military 
        Sales (FMS) support to enhance interoperability, improve 
        operational security (OPSEC), and bring Armed Forces of the 
        Philippines (AFP) command-and-control (C2) into the 21st 
        century.
  --Continued efforts to encourage greater information sharing and the 
        establishment of a regional MDA network that could provide a 
        common operating picture (COP) and real-time dissemination of 
        data.
    Question. Secretary Mabus, Naval Special Warfare Team One rotates 
with Special Forces Group One in leading the Joint Special Operations 
Task Force Philippines. However, Marine Special Operations Command has 
been involved in the deployment cycle. Now that MARSOC is fully 
operational and leading joint operations, like those against ISIL, What 
steps can be done, should the mission footprint increase, to give the 
Marine Corps an equal leadership role in this mission?
    Answer. Marine Corps Special Operations Command (MARSOC) has led 
multiple Special Operations Task Force (SOTF) deployments in support of 
combat operations in Afghanistan, as well as a current Combined Joint 
Special Operations Task Force (CJSOTF) in support of operations within 
Central Command's area of operations. Due to the improving situation in 
the Philippines, Joint Special Operations Task Force-Philippines was 
deactivated in February 2015 and transitioned to a smaller foreign 
liaison element. Since then, MARSOC has regularly deployed 14-man teams 
to the region on a rotational basis, to continue to assist and advise 
the Armed Forces of the Philippines.
    The DON, in partnership with USSOCOM, continues to grow, develop, 
and integrate Marine Corps' leaders, officers and enlisted, to fill 
vital positions across the special operations enterprise. These include 
key leadership billets at Special Operations Command, Pacific; Special 
Operations Command, Africa Command; and one to be assigned at Special 
Operations Command, Central Command in the summer of 2016.
    Ultimately, MARSOC is a force provider to the Theater Special 
Operations Commands, who determine how to best organize and employ the 
task forces allocated to them. Should their footprint increase in the 
Philippines, MARSOC will serve an integral role.
    Question. Secretary Mabus, On March 9th the US Navy conducted 
another freedom of navigation patrol through the South China Sea, 
something incredibly important to the security in the region. However, 
this time Chinese ships trailed the US ships and it is clear tensions 
are escalating. What line of communications are open between US and 
Chinese commanders during these operations?
    Answer. Our primary means to communicate at sea is bridge-to-bridge 
radio, or International Air Distress/Military Air Distress radio for 
aircraft.
    People's Liberation Army (PLA) Navy ships routinely shadow and, and 
at times, actively try to interfere with U.S. naval ships and aircraft 
conducting legal military operations IAW international law.
    On March 9th, the oceanographic survey ship USNS HENSON (T-AGS 63) 
was conducting routine operations in the SCS. This was not a Freedom of 
Navigation mission. In this instance, USNS HENSON was operating in 
international waters in the vicinity of the Paracel Islands when a PLA 
Navy vessel approached too close and created a potentially unsafe 
maneuvering situation. In this instance, a potentially dangerous 
situation was avoided because of the recent positive improvement in 
communications at sea and in the air between our units and theirs.
    Through coordination by the various staffs of OSD, the Joint Staff, 
U.S. Pacific Command, U.S. Pacific Fleet, and OPNAV, we developed the 
multilateral Code for Unintended Encounters at Sea (CUES), the U.S.-
People's Republic of China (PRC) agreement on the Rules of Behavior for 
Safety of Air and Maritime Encounters, a Crisis Communications Annex, 
the bi-lateral Military Maritime Consultative Agreement (MMCA) talks, 
and quarterly Defense Telephone Link (DTL) discussions with PLA Navy 
leadership. DOD is positioned to manage the friction in the 
relationship from the tactical level.
    Question. Secretary Mabus, has the US used, or considered the use 
of, unmanned aerial surveillance of the South China Sea?
    Answer. Yes, the Navy's MQ-8B Fire Scout is supporting a Pacific 
Fleet deployment with a combined detachment which includes an unmanned 
MQ-8B Fire Scout and a manned MH-60 helicopter on the USS FORT WORTH 
(LCS 3). The MQ-8B Fire Scout System delivers organic sea-based 
intelligence, surveillance, and reconnaissance (ISR) support for the 
Littoral Combat Ship (LCS) and/or any suitably equipped air-capable 
ship. The Navy plans to deploy a MQ-8B with an additional radar 
capability onboard the USS CORONADO (LCS 4) to the Pacific Fleet in 
July 2016. Furthermore, the Navy intends to deploy the MQ-4C Triton 
Unmanned Aircraft System (UAS) to the Pacific Fleet in 2018. The MQ-4C 
Triton will provide persistent broad area maritime ISR.
                          weapon modernization
    Question. Secretary Mabus, does it concern you that your Marines 
and Sailors on the battlefield are still using a 5.56 caliber, gas 
operated, and magazine fed weapon system developed for the Vietnam War, 
while you are simultaneously outfitting ships with laser weapon 
systems?
    Answer. The Department of the Navy continually works to ensure that 
every Marine and Sailor is provided with the best equipment that our 
budget and emerging technology will allow. The 5.56mm weapons carried 
by Marines and Sailors today are not the same as those carried during 
the Vietnam War. Although the original versions of many of our small 
arms systems entered our inventory up to 30 years ago, current versions 
are significantly modified and/or newly produced to provide enhanced 
target detection, identification, accuracy, dependability, and 
lethality.
    The USMC Small Arms Modernization Strategy focuses on updating 
current weapons in the short-term and developing next generation 
weapons that will enter the fleet in the mid to late 2020s. In close 
coordination with the Army, this strategy is a cost-conscious, 
incremental approach to further improve accuracy, lethality, 
ergonomics, and weight reduction.
    Question. Secretary Mabus, what steps are you taking to identify 
battlefield deficiencies and ensure funding for weapons development is 
equally spread between personal combat weapons and large scale weapon 
projects like the F-35?
    Answer. Warfighting deficiencies, or gaps, are identified through a 
number of existing processes within the Department. These include the 
gap analysis phase of the Department of Defense (DOD) requirements 
generation process and warfighter feedback from the operating forces.
    As to funding balance, the Navy and Marine Corps participate in the 
annual Planning, Programming, Budgeting, and Execution (PPBE) process. 
This is the process by which DOD allocates resources, while staying 
within the fiscal budget and complying with the Secretary of Defense's 
policies, strategy, and goals. Funding for all DON capabilities 
reflects the evaluated optimal balance between requirements and 
resources.
              special purpose marine air ground task force
    Question. Secretary Mabus, would you rather deploy a MEU or a 
SPMAGTF in the CENTCOM AOR?
    Answer. Afloat naval power retains the advantage of maneuver, and 
the Navy/Marine Corps team of an ARG/MEU provides operational 
flexibility and options to project force ashore that become more 
limited when operating from a fixed ashore location.
    In an environment where amphibious lift is limited, the Marine 
Corps team is still able to build a task organized force, focused on 
capabilities required by a geographic Combatant Commander, and deploy 
credible combat capability. The underlying mission and risk analysis 
shape the composition of the SPMAGTF which can be tailored to the 
anticipated set of likely missions. SPMAGTF-CRs are not a one-for-one 
replacement of the ARG/MEU. They are not as capable as an ARG/MEU Team 
but provide credible forces to respond to specific crises. SPMAGTF-CRs 
rely on host nation approvals for access, basing, overflight, launch, 
post-mission recovery, and sustainment training, making them less 
flexible than ARG/MEUs.
    Both options provide a Marine Corps combat capability, organized 
and trained for success, and deployed forward to support a Combatant 
Commander.
                                 ______
                                 
           Questions Submitted to Admiral John M. Richardson
             Question Submitted by Senator Susan M. Collins
                    european reassurance initiative
    Question. Admiral Richardson, you have expressed concern about 
Russian challenges to U.S. and allied nations' partner activities in 
the Eastern Mediterranean Sea and the Black Sea.
    At $3.4 billion, the overall Department of Defense fiscal year 2017 
budget request for the European Reassurance Initiative is four times 
the amount requested last year, but the Navy's portion of this increase 
is a relatively meager $52 million increase for additional exercises 
and training.
    Yet, Russian submarine and surface ship activity in the North 
Atlantic and the Black Sea during the Cold War represented a primary 
means by which Russia sought to hold U.S. and NATO strategic interests 
at risk.
    Have you reviewed the Navy's posture in that region to make sure 
that we do not have any unintended shortfalls in understanding and 
responding to Russia's maritime activities? I know the Committee would 
be very interested in knowing if there were ways we could assist in 
this regard.
    Answer. The global posture and presence of U.S. forces is 
constantly under review by key stakeholders including the Combatant 
Commanders, Service Chiefs, the Joint Staff and the Secretary of 
Defense. Russian maritime activities and capabilities show no signs of 
decreasing for the foreseeable future.
    The Department of Navy's fiscal year 2017 European Reassurance 
Initiative (ERI) request is significantly greater than the fiscal year 
2016 request. Specifically, the fiscal year 2017 ERI includes a request 
for $2.5 million to improve all-source analysis and situational 
awareness across U.S. and allied Theater Anti-Submarine Warfare (TASW) 
systems, maintenance and training. In addition, $21.4 million was 
requested to support two military construction projects to modify an 
existing aircraft hangar facility and construct an aircraft rinse rack 
in Keflavik, Iceland. These projects will accommodate P-8A maritime 
patrol and reconnaissance aircraft on short duration/expeditionary 
detachments.
    The fiscal year 2017 request also includes support for exercise and 
training activities by forward deployed ships alongside allies and 
partners in the Mediterranean, Black and Baltic Seas. These exercises 
provide not only U.S. Navy presence, but also enhance allies and 
partners inherent capabilities and capacities. Beyond additional 
exercise activities, requested fiscal year 2017 ERI funds would sustain 
and upgrade U.S. and host nation information sharing/exchange, command 
and control capabilities and overall collaboration across operations.
    Navy will continue to review our needs and identify additional 
requirements in theater as they arise in future budget cycles.
                                 ______
                                 
              Questions Submitted by Senator Brian Schatz
    Question. Our undersea- and anti-submarine warfare capabilities 
gives us an advantage over our adversaries.
    I am concerned, however, about the state of the Navy's tactical 
test ranges that support the undersea warfare mission. Our competitors 
are closing the gap with us when it comes to undersea warfare and the 
age of our test ranges undermines our ability to stay ahead of them.
    In particular, the Barking Sands Tactical Underwater Range off of 
Kauai is beyond its service life and beyond repair, and we need 
continuous focus and investment in this range to preserve our 
asymmetric capabilities.
    What is the Navy's plan to replace and modernize this test range so 
that we can sustain our edge in undersea warfare?
    Answer. The Navy has developed a plan to modernize the underwater 
instrumentation and shore-based equipment controls and displays of the 
Barking Sands Tactical Underwater Range, using lessons learned from the 
in-progress installation of the Undersea Warfare Training Range (USWTR) 
off the coast of Jacksonville, FL. The plan also includes use of more 
heavily armored seabed cables, routed through bore holes to prevent 
abrasion in the surf zone. However, due to fiscal constraints, this 
requirement is not funded in PB17 but will continue to be evaluated in 
future budget cycles.
    Question. Admiral Harris recently testified that he does not have 
the attack submarines to meet his requirements in the Pacific.
    I know you have to balance his requirements against those of the 
other Combatant Commanders.
    However, we face unique threats from multiple near-peer competitors 
in the Pacific, so I am particularly concerned that we may not be 
maintaining our undersea edge, which is our advantage over adversaries 
in this part of the world.
    What is the Navy doing to close this gap and meet Admiral Harris' 
requirements?
    Are there other assets the Navy could use to close this gap and 
reduce our risk in the Pacific?
    Answer. Navy sources both rotational and emergent Combatant 
Commander (CCDR) force requirements for attack submarines (SSN) as 
directed by the Secretary of Defense (SecDef).
    CCDR demand for SSNs remains high and Navy is challenged with 
existing force structure to meet all SSN requirements. Navy will source 
approximately 55 percent of all CCDR demand for SSNs in fiscal year 
2016.
    The Optimized Fleet Response Plan (OFRP) is Navy's plan to recover 
readiness and improve availability across the SSN force. Stable 
funding, continued improvement in executing submarine depot 
maintenance, and sourcing presence at sustainable levels are critical 
to readiness recovery.
    Navy is committed to sending our most technologically advanced 
ships and aircraft to the Asia-Pacific region. This includes our most 
capable DDGs, P-8A maritime patrol aircraft, and Virginia-class 
submarines. Other assets, such as SURTASS, are also prioritized to the 
Pacific as part of Navy's Theater Anti-Submarine Warfare strategy. 
Incremental improvements, modernizations, and new technologies will 
help maintain our undersea edge.
    We continuously evaluate, in close coordination with Combatant 
Commanders and the Joint Staff, the prioritization of our global force 
laydown.
                                 ______
                                 
            Questions Submitted to General Robert B. Neller
              Questions Submitted by Senator Thad Cochran
                       amphibious-class warships
    Question. Amphibious combat ships continue to be in very high 
demand among our commanders. Could you describe to us the importance of 
amphibious ships in executing the national defense strategy and share 
your thoughts on how their production is going and how we could make it 
even more efficient?
    Answer. Amphibious warships are essential for our national defense. 
In fact, to meet Combatant Commanders' demand for these ships would 
actually require a fleet in excess of 50 ships. These ships provide the 
nation with crisis and contingency response capabilities, the ability 
to conduct forcible entry from the sea, humanitarian assistance, and 
disaster relief. These warships also facilitate Theater Security 
Cooperation exercises to build partner capacity and interoperability, 
in addition to ensuring that Marines are always forward postured for 
whatever other mission the nation might require.
    Our stated requirement of 38 ships is designed to meet the Marine 
Corps requirement to embark the assault echelon of two Marine 
Expeditionary Brigades. We agreed to a fiscally informed, risk-assumed 
fleet of 34 ships, of which 30 are currently in our inventory. 
According to the Navy's current Long Range Shipbuilding Schedule, the 
inventory will reach 34 in fiscal year 2022.
    In conjunction with our partners in the Navy, we are always looking 
for ways to make the procurement of amphibious ships more efficient. To 
that end, we would like to thank the Congress for adding a 12th LPD. 
The wisdom of this decision, coupled with the decision to build the 
LX(R) on the LPD 17 hull form, accomplished a number of objectives: it 
accelerated the production of the LX(R), reduced the cost, and 
minimized the amount of design and engineering required to construct 
the ship.
    The procurement of amphibious warships could be made still more 
efficient through the use of `block buy' acquisitions which would 
provide certainty to the Services and to the industrial base. This 
technique allows the industrial base to keep manufacturing lines open, 
which increases speed to fleet by decreasing time between ship 
construction projects, and eliminates the costs associated with 
shutting down a manufacturing line and restarting it at a later date--
expenses which ultimately drive up the overall cost of a ship. Block 
buys would also allow us to lock in cost savings for multiple ships at 
a time. Finally, certainty on the funding source for the Ohio 
Replacement Program would take pressure off of the entire Navy 
shipbuilding account and allow for predictability and efficiency to be 
achieved across the fleet.
                                  asia
    Question. General Neller, what role can the 31st Marine 
Expeditionary Unit that patrols the Pacific play in counterterrorism 
operations in Southeast Asia?
    Answer. The Commander of Marine Forces, Pacific utilizes 31st MEU 
for a wide range of missions throughout the USPACOM area of operations. 
Leveraging our relationship with USSOCOM and Special Operations 
Command, Pacific, the 31st MEU can bring a wide range of capabilities 
to bear in support of SOCOM's CT efforts.
    Additionally, COMMARFORPAC has been designated as the USPACOM 
Senior Advisor to the Armed Forces of the Philippines. In support of 
this mission, the 31st MEU routinely supports a variety of tasks in 
support of Armed Forces of the Philippines capability and capacity 
development programs.
    Calendar year 2016 will see Marine Corps forces participate in 24 
PHL-US MUTUAL DEFENSE BOARD ACTIVITIES that range from Subject Matter 
Expert Engagements on topics such as Aviation, Amphibious, Logistical, 
and Urban Operations, and Academics on the Military Decision Making 
Process and Information Operations, to the introduction of Model and 
Simulation into the training environment and large-scale events.
    Finally, in 2015 and 2016 to date, the MEU and over 5,000 Marines 
conducted five major training exercises that included BALIKATAN, 
PHIBLEX, FREEDOM BANNER, and assault support exercises. Each year, the 
MEU conducts training in amphibious operations, large scale ground live 
fire, bilateral close air support, air assault, tactical air control, 
and staff exercises.
                          weapon modernization
    Question. General Neller, the Marine Corps announced it would no 
longer be using iron sights for training and is upgrading to the use of 
rifle combat optics for qualification ranges. Is there a cost 
associated with adding RCO's for all training ranges?
    Answer. No, there is no cost associated with this decision in the 
current budget request. The decision to upgrade to the use of rifle 
combat optics for qualification ranges was made in 2011, with the 
decision to train and qualify with optics at our entry level training 
centers following in 2012. The latter decision did require the 
procurement of additional optics, but that purchase was completed the 
same year and the optics fielded.
    Question. General Neller, you have been firm on Marines having 
`brilliance in the basics.' For example, you called out Marines for 
relying on electronics and not knowing the basics of map and compass 
techniques. Why would you want to only train Marines on the RCO, 
something that could fail just like electronics, and take away from the 
training on iron sites?
    Answer. The RCO is a non-powered day scope that has no electronic 
components and seldom fails. As the primary sighting system for our 
rifles and carbines, it is essential that we train to use this 
magnified optic to its full potential. We also field all of our 
individual weapons with a backup iron sight and train Marines in its 
use as a ``just in case'' measure.
    Question. General Neller, you directed the Marine Corps to issue M4 
rifles to those units still using the M16 last year. I applaud this, 
given that the M16 is a rifle we have continued to upgrade since the 
Vietnam War. What is the next step for small arms weapons 
modernization?
    Answer. The Marine Corps Small Arms Modernization Strategy (2015) 
concentrates on updating current weapons in the short term and on 
developing next generation weapons that will enter service in the mid 
to late 2020s. In close coordination with the Army, this strategy is a 
cost-conscious, incremental approach to improve accuracy, lethality, 
ergonomics, and weight reduction. Our near-term strategy is to 
implement small-scale improvements as technology and funding allow, 
sustaining our small arms relevant to the current threat. Examples 
include redistribution of M4 carbines to replace remaining M16A4s in 
infantry battalions, a Quick Change Barrel for the M2A1 heavy machine 
gun, and pursuit of lightweight light/medium machine gun tripods for 
M240B and M249 machine guns. Our long term strategy (mid- to late-
2020's) seeks to achieve larger gains in capability through pursuit of 
next generation weapons with the Army and other services. Envisioned 
are an individual carbine, an automatic rifle, and a designated 
marksman weapon for the squad that integrates advanced capabilities 
such as optics, fire control, power, and enablers into a single weapon 
system, as opposed to separate add-ons. This will optimize ammunition 
configuration, manage recoil, reduce weight and size, suppress audible 
and visible signature, exchange data (tagging, identification of friend 
or foe, fire direction, fire control), and count shots.
    Question. General Neller, Special Operations Command is able to use 
carbon fiber wrapped barrels that can make the 82A1 50 caliber rifle 
incredibly lighter. What steps has the Marine Corps taken to adopt this 
new weapon technology for its standard infantry?
    Answer. The Marine Corps is currently conducting market research on 
carbon fiber wrapped barrels manufactured by PROOF Research. The barrel 
manufacturer, based in Montana, has designed a prototype barrel that 
could reduce the weight of our M40A6 sniper rifle by over three pounds. 
A final configuration has not been determined as the barrels are still 
under testing. The Marine Corps will continue to monitor and coordinate 
with the US Army and USSOCOM for long term weapon improvement 
initiatives to reduce weight while maintaining lethality.
                          deployment rotations
    Question. General Neller, a 2015 GAO Report recommended that DOD 
``determine whether opportunities exist to balance deployments across 
the joint force'' in a study on the overuse of Special Operations 
Forces. Has the Marine Corps seen an issue with the current deployment 
cycle impacting its special operators?
    Answer. Marine Corps Forces Special Operations Command is our 
Service Component to USSOCOM. Although MARSOC comprises less than 6 
percent of USSOCOM manpower, Marine Special Operations Forces perform 9 
percent of USSOCOM missions. MARSOC deploys regionally aligned Marine 
Special Operations Companies (MSOC) to three Theater Special Operations 
Commands--USAFRICOM, USCENTCOM, and USPACOM--and task organizes these 
units, based on their assigned mission, with both Special Operators and 
Marines with key enabling specialties such as intelligence analyst, 
Joint Tactical Air Controller (JTAC), signals intelligence, and 
mechanics.
    MSOCs are regionally aligned to the TSOCs supporting USAFRICOM, 
USCENTCOM, and USPACOM requirements and maintain a 1:3 deployment-to-
dwell ratio, meaning one MSOC is always deployed with three MSOCs in a 
recovery and individual training period or pre-deployment training 
which includes Marine Special Operations Team deployments. This 1:3 
deployment-to-dwell ratio allows MARSOC to meet TSOC requirements on an 
enduring cycle without sacrificing personnel, equipment or unit 
readiness.
    MARSOC can also deploy Special Operations Task Force Headquarters 
(commanded by a lieutenant colonel) and Combined Joint Special 
Operations Task Force Headquarters (commanded by a colonel). When 
MARSOC deploys the Task Force Headquarters, the Marine Corps frequently 
augments MARSOC with Marines from the operating forces and the reserve 
component.
    Individual personnel tempo can be a challenge with certain enabling 
Military Occupational Specialties. Enlisted Marine Special Operators 
maintain an acceptable deployed to dwell ratio which allows them to 
balance deployments with recovery and time to attend MOS enhancing 
schools to gain additional SOF skills. JTACs and Signals Intelligence 
Marines are experiencing a more challenging deployment to dwell ratio.
    Although our Service special operations component is able to 
effectively balance unit and personnel readiness with operational 
requirements, there continues to be a demand signal well above our 
ability to meet TSOC requirements. However, by providing MSOCs on a 1:3 
deployment-to-dwell ratio, we ensure Marine Special Operations Forces 
are not overused.
    Question. General Neller, has the Marine Corps considered leaning 
on its Force Recon companies to handle the impact of the high 
deployment cycle that MARSOC has been dealing with? If not, why not?
    Answer. We are always looking at ways to optimize how we tailor our 
deploying forces to meet Combatant Commander requirements. Although 
assigned to SOCOM, MARSOC routinely deploys with other force elements 
of the Marine Corps especially in critical high demand/low density 
skills that enable our Marine Special Operations Companies and Marine 
Special Operations Teams to deliver exceptional capability in support 
of Commander, SOCOM and Geographic Combatant Commander requirements.
    Currently, our Force Reconnaissance companies are providing 
elements in support of our Marine Expeditionary Units. The capabilities 
contained within the Force Reconnaissance companies are providing the 
enhanced skills necessary to our Marine Expeditionary Units to meet 
emerging Geographic Combatant Commander requirements.
    To meet the Marine Expeditionary Unit requirements, our Force 
Reconnaissance companies are maintaining a similar deployment to dwell 
ratio as that found in MARSOC.
    Question. The Marine Corps Reconnaissance MOS (0321) and the 
Critical Skills Operator MOS (0372) are both listed as critical MOS's 
in need of recruits. 0372 Marines were built from 0321s, and both have 
extensive skills overlaps. What consideration has the Marine Corps 
taken to combine the two, and why does the Marine Corps keep both 
separate?
    Answer. The 0321 Reconnaissance Marine and 0372 Critical Skills 
Operator are indeed critical and complementary and, though they have 
similar skills, they perform very distinct missions. Our 0372 Critical 
Skills Operator is trained and employed under the auspices of United 
States Special Operations Command while our 0321 Reconnaissance Marines 
train and execute their operational duties in support of the Marine Air 
Ground Task Force (MAGTF).
    While these MOS's both demand overlapping skills related to 
shooting, moving, and communicating, the 0372 MOS requires additional 
advanced individual and collective skills in order to accomplish the 
USSOCOM specified missions assigned to them, such as Foreign Internal 
Defense, Unconventional Warfare, and Preparation of the Environment. 
USSOCOM has determined that these skills demand rigorous screening and 
assessment programs to succeed within such mission criteria.
    Our Reconnaissance Marines serve directly as the MAGTF's ``eyes and 
ears,'' sensing and shaping the tactical environment to enable MAGTF 
maneuver. The 0321 Reconnaissance Marine provides our MAGTF Commanders 
a sensor on the ground that possesses the military judgment and 
understanding of Commander's intent necessary to develop the 
battlespace and facilitate our operational and tactical maneuver. 
Moreover, it is the 0321's unique amphibious reconnaissance 
capabilities which are essential to bring the landing force ashore in 
the execution of our Service mandate to conduct Amphibious Joint 
Forcible Entry.
              special purpose marine air ground task force
    Question. A Special Purpose Marine Air Ground Task Force is cited 
to cost around $26 million per fiscal year (SPMAGTF-CR-AR as an 
example), and a Marine Expeditionary Unit (31st as an example) is cited 
to cost around $16 million per fiscal year. What extra skillsets does a 
commander gain when employing a SPMAGTF compared to a MEU?
    Answer. A typical SPMAGTF-CR-AF rotation consists of $5 million in 
direct operational costs and $8 million in fixed support costs for a 
total of $13 million per rotation. At two 6-month rotations per fiscal 
year, this equates to $26 million per fiscal year. A typical 31st MEU 
rotation consists of $3.2 million in pre-deployment training, deployed 
operational costs, and overhead/support costs, and $5 million in 
transportation costs for a total of $8.2 million for a typical 6- to 
7-month rotation. At two rotations per fiscal year, this equates to 
$16.4 million per fiscal year. Note that estimates for the 31st MEU do 
not include blue-dollar operating costs for amphibious ships and crews 
or for Marine Aviation, all of which support the MEU, thus distorting a 
cost comparison between the MEU and the SPMAGTF by understating the 
fully burdened cost of deploying a MEU.
    A commander gains no ``extra'' skill sets when employing a SPMAGTF 
compared to a MEU. SPMAGTF-CRs are not a comparable replacement to the 
Amphibious Ready Group (ARG)/Marine Expeditionary Unit (MEU). They are 
not as capable or flexible as an ARG/MEU Team, but provide credible 
forces to respond to specific crises. SPMAGTFs are organized, trained, 
and equipped with narrowly focused capabilities. They are designed to 
accomplish a specific mission, often of limited scope and duration, and 
tailored to a specific area of responsibility. They may be any size, 
but normally they are a relatively small force--the size of a MEU or 
smaller. For example, SPMAGTF-CR-CC is task organized with organic 
Marine Corps fixed wing tactical aviation and other enablers to achieve 
its mission in support of Operation Inherent Resolve. SPMAGTF-CR-AF has 
a different set of enablers to achieve specified tasking in support of 
its assigned geographic combatant commander.
    The three-ship ARG/MEU remains the most capable forward-deployed 
MAGTF in providing crisis response, deterrence, and decision time 
across the range of military operations. Marine Corps forward-deployed 
capabilities support the National Strategy and protect vital national 
interests through the forward positioning of crisis response 
capabilities thus giving national leaders decision space to examine 
other options. Each ARG/MEU is fully prepared to respond to a list of 
13 missions from and within the maritime domain.
    Our amphibious capability creates four strategic benefits for a 
nation dependent on its ability to exploit its command of the littorals 
to project influence and power:
  --Freedom of action: Amphibious forces can use the maritime domain as 
        a base from which to conduct operations. They can loiter 
        indefinitely in international waters and maneuver ashore at the 
        time and place of their choosing.
  --Deterrence: While a standoff strike is sometimes an adequate 
        response, other situations require the rapid insertion of 
        sustainable combat forces to underscore the Nation's commitment 
        to an ally or to protect our National Security interests.
  --Assured access: Amphibious forces contribute unique and essential 
        capabilities toward the nation's ability to take advantage of 
        the freedom of the high seas to enter a region without regard 
        to access constraints and impediments and to sustain sea-based 
        operations almost indefinitely without need for in-theater 
        host-government support.
  --Uncertainty for adversaries: A credible forcible-entry capability 
        compels potential adversaries to invest in a broad range of 
        systems and spread their defenses over larger areas of concern.
              special purpose marine air ground task force
    Question. General Neller, would an increased amount of readiness 
funding for the Marine Corps alleviate the need for Special Purpose 
Marine Air Ground Task Force in CENTCOM AOR and allow it to be replaced 
by a Marine Expeditionary Unit in the Mediterranean?
    Answer. Unless additional funding is provided to increase the 
quantity of operationally-available amphibious warships, the 
requirement for a crisis response SPMAGTF in CENTCOM will remain for 
the foreseeable future. The quantity of operationally-available 
amphibious warships is insufficient to meet the day-to-day requirements 
of the Geographical Combatant Commanders. Consequently, some areas, 
such as the Mediterranean, lack full Amphibious Ready Group-Marine 
Expeditionary Unit (ARG/MEU) presence year round.
    The paucity of operationally available amphibious warships, ongoing 
fiscal constraints, and the tragic killings of a U.S. ambassador and 
three fellow Americans in Benghazi, Libya led to the creation of crisis 
response SPMAGTFs. Born out of the ``New Normal,'' crisis response 
SPMAGTFs were intended to provide limited crisis response and small 
unit-level security forces, and participate in combatant commander 
theater security cooperation events. Crisis response SPMAGTFs help 
mitigate presence and capability gaps when an ARG/MEU is not 
operationally available. However, crisis response SPMAGTFs do not 
replace the ARG/MEU as the optimal crisis response force.
    As the optimal crisis response force, the ARG-MEU's inherent 
responsiveness provides timely capabilities that far exceed all crisis 
response SPMAGTFs. Previous Commandants and Chiefs of Naval Operations 
have testified that over 50 operationally-available amphibious warships 
are required to meet the demand generated by day-to-day requirements of 
the Geographical Combatant Commanders; there are simply not enough 
amphibious warships to meet global requirements.
    In light of the ``New Normal,'' crisis response SPMAGTFs provide a 
vital capability in areas that lack full ARG-MEU presence year round; 
but no SPMAGTFs can replace an ARG-MEU. Readiness funding that 
increases the quantity of operationally-available amphibious warships 
and protects crisis responses SPMAGTFs are in the vital interests of 
the nation.
                            desert tortoises
    Question. General Neller, how much in total has it cost the Marine 
Corps to comply with the endangered species act covering the desert 
tortoise, which resides at the Marine Corps 29 Palms training center?
    Answer. There are two components to the costs of Marine Corps 
compliance with the Endangered Species Act (ESA) related to the desert 
tortoise at Marine Corps Air Ground Combat Center 29 Palms (MCAGCC).
    The first component involves ongoing ESA compliance requirements 
for the desert tortoise on the existing MCAGCC. The Marine Corps spent 
$17.8 million from fiscal year 2005-2016 on this first component of ESA 
requirements related to the desert tortoise.
    The second component involves the costs associated with the 150 
thousand acre land expansion authorized by National Defense 
Authorization Act fiscal year 2014. A total of $22 million has been 
obligated to date since fiscal year 2013, and an additional $28 million 
is estimated to cover future costs for surveys, monitoring, and other 
activities to ensure the success of desert tortoise relocation through 
fiscal year 2045. In total, the Marine Corps anticipates spending 
approximately $50 million from fiscal year 2013-2045 to cover ESA 
requirements for the desert tortoise related to the 150 thousand acre 
land expansion.
    In total, the Marine Corps has spent approximately $39.8 million 
since fiscal year 2005 to comply with the Endangered Species Act (ESA) 
related to the desert tortoise at MCAGCC 29 Palms, and projects another 
$28 million in future costs to achieve successful relocation of the 
desert tortoise.
    Question. General Neller, it was reported on March 8th that it 
would cost $50 million to have the Desert Tortoise removed from the 
training areas, what steps is the Marine Corps taking this time 
compared to your previous efforts?
    Answer. The Marine Corps has not previously undertaken a desert 
tortoise relocation of this magnitude. The relocation is being done to 
support large-scale Marine Expeditionary Brigade combined-arms, live-
fire and maneuver training on the Marine Corps Air Ground Combat Center 
29 Palms (MCAGCC) that includes the newly acquired lands. For the 
planned large-scale translocation, MCAGCC developed a relocation plan 
that has been coordinated with the United States Fish and Wildlife 
Service and incorporates existing desert tortoise research and lessons 
learned from failures and successes of other relocation efforts. In 
2006 MCAGCC successfully relocated 17 adult tortoises which had 100 
percent survivorship for the 3 years of post-relocation monitoring.
                                 ______
                                 
               Question Submitted by Senator Brian Schatz
    Question. Based on an assessment of your force structure, the 
current demand from the Combatant Commanders, and the appropriate 
amount of lift to support a forcible entry with two Marine 
Expeditionary Brigades, the Marine Corps says it requires 38 amphibious 
ships.
    Currently, there are 30 amphibious ships in the fleet. Given the 
current fiscal constraints, the Navy and Marine Corps will accept some 
risk with the current plan to grow the fleet to 33 amphibious ships, 
potentially 34 ships.
    How does the shortage of amphibious ships affect your ability to 
operate across the range of military operations and what risks will the 
Marine Corps face if it does not have its requirements met?
    Answer. The Chief of Naval Operations and the Commandant of the 
Marine Corps have determined the force structure to support the 
deployment and employment of 2 Marine Expeditionary Brigades (MEBs) 
simultaneously is 38 amphibious warfare ships. Understanding this 
requirement, and in light of the fiscal challenges faced by the nation, 
the Department of the Navy has agreed to sustain a minimum of 34 
amphibious warships. However, Combatant Commander demand is more 
realistically assessed in excess of 50 amphibious warships.
    Shortfalls in the amphibious warship inventory have multiple 
negative effects. This must be viewed as a two-faceted problem of 
inventory and availability. A decreased inventory has negative effects 
on both overall capacity and maintenance. For instance, our existing 
inventory of 30 ships will, at current maintenance rates, only yield 
approximately 21 operationally available amphibious warships at a given 
point in time. This puts the nation at risk of being unable to embark 
the 2 MEB assault echelon required for a forcible entry capability. 
Further, as ships are stressed due to increased use, they require more 
maintenance, driving up maintenance costs and compounding the problem 
of availability.
    While this 34-ship force accepts risk in its role of providing 
combat support and combat service support elements of a MEB, it has 
been determined to be adequate in meeting the needs of the naval force 
within today's fiscal limitations. This inventory level also provides 
the needed capacity for a forward presence and a MEB/Expeditionary 
Strike Group (ESG) to respond to a crisis or contingency. Any 
shortfalls below 34 will negatively affect our ability to ensure 
constant presence, and our ability to immediately respond to tasks on 
the lower intensity end of the range of military operations with Marine 
Expeditionary Units.
    Further, this negatively impacts our ability to serve as the 
nation's expeditionary force in readiness and to prevent incidents from 
escalating beyond small scale crisis. For instance, we have a 
noteworthy lack of maritime presence in the Mediterranean. To mitigate 
this, the Navy and Marine Corps are exploring opportunities to deploy 
Marines on non-combatant auxiliary platforms, a less-than-ideal 
workaround necessitated by the current fiscal environment. Auxiliary 
platforms are not a replacement to the capabilities and survivability 
of amphibious warships. Furthermore, this shortfall has forced the Navy 
and Marine Corps to explore ways to distribute elements of a single 
Amphibious Ready Group (ARG)/MEU across Combatant Commander boundaries 
to provide some measure of coverage in various regions. Again, this is 
not an ideal method when compared to the preferred employment of the 
full ARG/MEU as an aggregated three-ship force which can bring to bear 
its full capability.
    Finally, shortfalls negatively affect our ability to train. 
Conducting amphibious operations with our joint services is not just a 
matter of putting Marines on Navy ships. Those units must have the 
opportunity to operate with each other during their workup to establish 
relationships, tactics, techniques, procedures, and build 
interoperability.

                          SUBCOMMITTEE RECESS

    Senator Cochran. The Committee stands in recess until we 
call the Chair.
    [Whereupon, at 11:44 a.m., Wednesday, March 2, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
